   March 29, 2004




Acquisition
Acquisition of the Boeing KC-767A
Tanker Aircraft
(D-2004-064)




          This special version of the report has been revised to omit
            Contractor proprietary and negotiation sensitive data.




                    Department of Defense
                Office of the Inspector General
Quality                           Integrity                    Accountability
  Additional Copies

  To request copies of this report, contact Mr. John E. Meling at (703) 604-9091
  (DSN 664-9091) or Mr. Henry F. Kleinknecht at (703) 604-9324 (DSN 664-9324).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFOTEC                Air Force Operational Test and Evaluation Center
AMC                   Air Mobility Command
BCA                   Boeing Commercial Airplane
C4I                   Command, Control, Communications, Computers, and Intelligence
CBO                   Congressional Budget Office
CPPC                  Cost-Plus-a-Percentage-of-Cost
DCAA                  Defense Contract Audit Agency
FAA                   Federal Aviation Administration
FAR                   Federal Acquisition Regulation
FASA                  Federal Acquisition Streamlining Act
GTTA                  Global Tanker Transport Aircraft
IDA                   Institute for Defense Analysis
IDS                   Integrated Defense Systems
OMB                   Office of Management and Budget
ORD                   Operational Requirements Document
PAA                   Performance Aircraft Availability
RFP                   Request for Proposal
TINA                  Truth in Negotiations Act
           Office of the Inspector General of the Department of Defense
Report No. D-2004-064                                                                  March 29, 2004
    (Project No. D2004AE-0063)

                           Acquisition of the Boeing KC-767A
                                    Tanker Aircraft

                                      Executive Summary

Deputy Secretary of Defense Request. On December 1, 2003, the Deputy Secretary of
Defense requested an audit, stating that “In light of recent revelations by The Boeing
Company concerning apparent improprieties by two of the company’s executives, please
determine whether there is any compelling reason why the Department of the Air Force
should not proceed with its Tanker Lease Program. In particular, I would appreciate
knowing whether any of these revelations affect any of your previous analysis of this
program.”

Response to the Deputy Secretary. The audit resulted in a two-part answer. Based on
the audit work supporting our report, the short answer to both questions in your request is
no;* however, it is our independent judgment that the Air Force used an inappropriate
procurement strategy and demonstrated neither best business practices nor prudent
acquisition procedures to provide sufficient accountability for the expenditure of
$**.* billion for the KC-767A tanker program. We identified five statutory provisions
that have not yet been satisfied relating to: commercial items; testing (two statutes); cost-
plus-a-percentage-of-cost system of contracting; and leases. Therefore, DoD should not
proceed with the program until it resolves the issues pertaining to the procurement
strategy, acquisition procedures, and statutory requirements.

Because of our findings, as discussed in the results section below, the Deputy Secretary
should consider the following options.

     1. After implementation of audit recommendations to resolve contracting and
        acquisition issues, proceed with the sole-source acquisition of the Boeing
        KC-767A Tanker Program for 100 or fewer aircraft.
     2. Initiate a new major Defense acquisition program based on the results of an
        analysis of alternatives for military tanker aircraft.
     3. Implement a mix of Option 1 for some of the tankers and Option 2 for
        subsequent tankers.

See Appendixes B and C for the Deputy Secretary of Defense request and details of the
results of our prior reviews of the program and a timeline of significant events related to
the program, respectively.

Background. The Department of Defense Appropriations Act for FY 2002,
Section 8159 authorized the Air Force to make payments on a multiyear pilot program for
leasing general purpose Boeing 767 aircraft in commercial configuration. The authority

*
 This report does not address matters under investigation by other components of the Office of the
  Inspector General.
**
   Contractor proprietary and negotiation sensitive data omitted.
exceed 10 years. The development of the Boeing KC-767A Tanker aircraft will evolve
from Boeing’s basic 767 commercial aircraft and will undergo extensive military-unique
modifications that change its primary function from a passenger aircraft to a military
tanker aircraft. Scheduled deliveries for 10 tanker aircraft begin in FY 2007 and the final
3 of the planned 100 tanker aircraft are scheduled for delivery in FY 2015. Because of
concerns over Air Force plans to fund the 100 leased tanker aircraft, the Congress in
Section 135 of the National Defense Authorization Act for FY 2004 authorized the
Air Force to lease no more than 20 tanker aircraft and purchase no more than 80 tanker
aircraft under the multiyear aircraft lease pilot program.

The Air Force used a commercial item procurement strategy for the Boeing KC-767A
Tanker Program and negotiated sole-source fixed price with economic adjustment
contracts. The proposed contracts included $*.** billion for lease and purchase of the
“green aircraft” (basic Boeing 767 aircraft), $*.** billion for Boeing development of the
tanker, $*.** billion for Air Force specific modifications to the tanker, $*.** billion for
fleet logistics support, $*.** billion for training, $*.** billion for financing and
escalation, and $*** million for other costs. As of December 5, 2003, the “considered
negotiated” price for the proposed contracts was $**.* billion (current year dollars).

Results. Contrary to the Air Force interpretation, the Boeing KC-767A Tanker Program
does not meet the statutory definition of a commercial item. No commercial market for
this tanker aircraft exists in order to establish reasonable prices by the forces of supply
and demand. Consequently, the commercial item procurement strategy did not provide
the Air Force with sufficient cost or pricing data to make multi-billion dollar decisions
for the Boeing KC-767A Tanker Program and did not demonstrate the level of
accountability needed to conclude that the prices negotiated represent a fair expenditure
of DoD funds (Issue A). The Air Force used Section 8159 of the Department of Defense
Appropriations Act for FY 2002 to justify its informal acquisition strategy with the
primary goal to expeditiously lease 100 Boeing KC-767A Tanker aircraft to replace its
aging KC-135E Tanker fleet. In doing so, the Air Force did not demonstrate best
business practices and prudent acquisition procedures in developing this program and did
not comply with statutory provisions for testing (Issue B).

Specific aspects of Issue A are as follows:

        •    Commercial Item Procurement Strategy. The Air Force commercial item
             procurement strategy prevented any visibility into Boeing’s costs and required
             the Air Force to use a fixed-price type contract. In a fixed-price type contract,
             the contractor retains all of the savings if the contractor’s actual costs are lower
             than the estimates. Cost or fixed-price incentive type contracts are more
             appropriate for initial development, modifications, and logistics support. The
             strategy also exempted the sole-source provider from the requirement to submit
             cost or pricing data. The strategy places the Department at high risk for paying
             excessive prices and profits and precludes good fiduciary responsibility for DoD
             funds (Issue A-1).




*
    Contractor proprietary and negotiation sensitive data omitted.

                                                        ii
        Using the commercial item procurement strategy, Air Force program officials:

        •    Green (Commercial) Aircraft ($*.* billion). Waived obtaining cost or pricing
             data without obtaining data on prior Boeing commercial sales to establish price
             reasonableness, did not negotiate engine prices directly with engine
             manufacturers (a standard commercial practice), and relied on a questionable mix
             of Boeing 767 commercial aircraft models with a discounted Internet price to
             establish a fixed-price baseline of $*.* billion for 100 “green aircraft.” The
             commercially available data and assumptions that the Air Force program officials
             relied on were not sufficient to support the fixed-price baseline price and could
             cause the price to be overstated from $*** million to $*.* billion based on an
             analysis performed by the Institute for Defense Analysis (IDA) and our analysis
             of a higher discounted price appropriate for a significant competitive order
             (Issue A-2).
        •    Development ($*.* billion). Relied on data that Boeing provided to the Italian
             military for the Global Tanker Transport Aircraft (GTTA) with other
             assumptions for testing and certification and then added profit and financing
             costs to support the Air Force share of $*** million for GTTA development.
             The Air Force negotiating team also used cost estimating relationships to other
             programs, Boeing engineering estimates, and other budget data to calculate
             Air Force-specific development costs of $*** million. The data used were not
             sufficient to establish a fixed-price baseline of $*.* billion for development of
             the 100 tanker aircraft (Issue A-3).
        •    Modification ($*.* billion). Used questionable comparisons of modifications
             costs for other programs and Boeing engineering estimates and vendor quotes
             without determining the reliability of those estimates or quotes, and then applied
             a decrement factor to establish a fixed-price baseline of $*.* billion for the
             modification of 100 “green aircraft.” The data that Air Force program officials
             used were not sufficient to establish the modification baseline price, which could
             cause the modification price to be overstated by at least $*** million based on an
             analysis performed by IDA. The magnitude of the military modifications obliges
             the Air Force to request Congress to provide the statutory authority required by
             Department of Defense Appropriations Act for FY 2002 to modify leased general
             purpose Boeing 767 aircraft (Issue A-4).
        •    Limitation of Earnings and Termination Clauses. Attempted to limit
             Boeing’s earnings to 15 percent by including a limitation of earnings clause in
             the proposed contract. The clause was written to exclude any Government audit
             rights and to use Boeing’s independent auditor to provide an attestation on profits
             earned. Only the Inspector General has the statutory authority to approve the use
             of non-Federal audit services. The Defense Contract Audit Agency (DCAA) is
             the appropriate audit entity and is in the best position to provide the requisite
             audit services. Further, the clause allowed Boeing to include questionable items
             in its costs and prevented the Government from any visibility of the costs with
             only a final accounting by Boeing’s auditor after the last aircraft is delivered in
             FY 2015. The clause is highly detrimental to the fiduciary interests of DoD. The
             clause also appears to have created a statutorily prohibited cost-plus-a-
             percentage-of-cost system of contracting. Also, the termination for convenience
             clause in the proposed contract does not provide sufficient controls or audit rights
             to adequately determine the Government’s termination liability and to prevent a
             possible Anti-Deficiency Act violation (Issue A-5).




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                        iii
        •    Logistics Support ($*.* billion). Used a mix of pricing data from brochures
             relating to other aircraft and escalated 1980s pricing data for support equipment
             costs that included a $*** million error to justify a fixed-price fleet logistics
             support price of $*.* billion for ** years. The data used were not sufficient to
             support baseline fleet logistics support costs. Further, Air Force program
             officials set a ** percent “performance aircraft availability” for Boeing to receive
             100 percent of the annual contract price without benchmarking the availability
             rates of comparable aircraft systems. The **-year sole-source contract is also
             premature because the Air Force should first comply with statutory requirements
             in the National Defense Authorization Act for FY 2004; Section 2464 of title 10,
             United States Code; and the Strom Thurmond National Defense Authorization
             Act for FY 1999 requiring analyses of the costs and benefits of organic or
             contractor support, core logistics, and contract length (Issue A-6).
        •    Lease ($*.* billion). Did not meet three of six criteria requirements for an
             operating lease as described in Office of Management and Budget Circular
             No. A-11. Meeting the Office of Management and Budget criteria for leases is a
             statutory requirement of Section 8159 of the Department of Defense
             Appropriations Act for FY 2002. Further, the lease for 20 tankers will increase
             Air Force costs by at least $*** million more than purchasing the aircraft
             (Issue A-7).

Specific aspects of Issue B are as follows:

        •    Acquisition Strategy. The Office of the Assistant Secretary of the Air Force
             (Acquisition) did not establish an appropriate acquisition strategy for acquiring
             tanker aircraft to satisfy warfighter needs. Instead, the Air Force used
             Section 8159 of the Department of Defense Appropriations Act for FY 2002 to
             justify its informal acquisition strategy, the focus and goal of which was to
             expeditiously lease 100 Boeing 767A Tanker aircraft without regard to best
             business practices, prudent acquisition procedures, and compliance with statutory
             provisions for testing. Without a disciplined acquisition strategy, the Air Force
             cannot ensure to the warfighter that the delivered KC-767A Tanker aircraft will
             satisfy operational requirements (Issue B-1).

Using the legislation as the informal acquisition strategy, Air Force officials did not:

        •    System Engineering Requirements. Fully develop system engineering
             requirements to convert the commercial non-developmental aircraft into an
             integrated military configuration. Without fully developing system engineering
             requirements for aircraft conversion, the Boeing KC-767A Tanker aircraft may
             not meet the operational requirement for a 40-year service life as well as
             command, control, communications, computers, and intelligence (C4I) support
             plan requirements (Issue B-2).

        •    Operational Requirements Document. Tailor the first spiral or increment of
             the operational requirements document to warfighter requirements in the mission
             needs statement for future air refueling aircraft but instead tailored it to correlate
             closely with the capabilities of the Boeing 767 tanker variant that Boeing was
             producing for the Italian government. As a result, the first 100 KC-767A
             Tankers will not meet the operational requirement for interoperability and will
             not meet the mission capabilities in the operational requirements document to



*
    Contractor proprietary and negotiation sensitive data omitted.

                                                        iv
             conduct secondary missions, such as cargo/passenger and aeromedical
             evacuation missions (Issue B-3).
        •    Statutory Provisions for Testing. Comply with Sections 2366 and 2399 of
             title 10, United States Code for determining the operational effectiveness,
             suitability, and survivability of the Boeing 767A Tanker aircraft before
             proceeding beyond low-rate initial production and committing to the subsequent
             production of all 100 Boeing KC-767A Tanker aircraft. By not complying with
             the statutory provisions, the Boeing KC-767A Tanker aircraft delivered to the
             warfighter may not be operationally effective, suitable, and survivable
             (Issue B-4).

Recommendations Summary. We recommend that the Under Secretary of Defense for
Acquisition, Technology, and Logistics:

        •    Direct the Assistant Secretary of the Air Force (Acquisition) to either:
                 − After implementation of audit recommendations to resolve contracting
                   and acquisition issues, proceed with the sole-source acquisition of the
                   Boeing KC-767A Tanker Program for 100 or fewer aircraft.
                 − Initiate a new major Defense acquisition program based on the results of
                   the analysis of alternatives for military tanker aircraft.
                 − Implement a mix of the above options.

        •    Discontinue the commercial item procurement strategy for the Boeing KC-767A
             Tanker Program and replace fixed-price contracts for initial development,
             modification, and integrated fleet support with cost or fixed-price incentive type
             contracts that would require Boeing to provide cost or pricing data as
             appropriate.
        •    Require that Boeing provide cost or pricing data for the Boeing 767-200ER
             aircraft unless Boeing provides information on the prices at which the same or
             similar items have been previously sold in similar quantities and negotiate prices
             for aircraft engines directly with the engine manufacturers.
        •    Require that the Air Force contact the Office of the Inspector General for the
             Department of Defense for review and approval, as appropriate, when
             considering the use of non-Federal audit services in any contract.
        •    Reduce the negotiated price calculated for integrated fleet support by
             $*** million for the misapplication of KC-10 support equipment costs and
             perform appropriate benchmarking of “performance aircraft availability” for
             other comparable aircraft systems.
        •    Perform statutory analyses of the costs and benefits of organic or contractor
             support, core logistics requirements, performance based logistics, and contract
             length before selecting a provider for integrated fleet support.
        •    Not enter into the proposed lease for 20 Boeing KC-767A Tanker aircraft until
             after either obtaining statutory authority to enter into a lease-purchase contract or
             renegotiating lease terms to meet Office of Management and Budget Circular
             No. A-11 requirements for an operating lease.
        •    Determine whether leasing rather than purchasing 20 Boeing KC-767A Tanker
             aircraft represents the best value to the Government.




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                        v
We recommend that the General Counsel of the Department of Defense review the
limitation of earnings clause and determine whether it creates a prohibited cost-plus-a-
percentage-of-cost system of contracting and review clauses clauses C-016 “Aircraft
Quantity,” C-024 “Anti-Deficiency Act,” and C-103 “Termination for Convenience –
Pre-Construction Aircraft,” in proposed Contract FA8625-04-C-6453 to determine
whether the contract clauses and audit rights provide sufficient controls to adequately
define the extent of the Government’s termination liability and to prevent a possible Anti-
Deficiency Act violation if less than the full quantity of aircraft and fleet support years
are leased and purchased.

We recommend that the Program Director, KC-767A System Program Office:

        •    Establish a process to develop a performance metric for verifying that the Boeing
             KC-767A Tanker aircraft will meet the 40-year service life requirement.
        •    Revise the system specification for the proposed Boeing KC-767A Tanker
             aircraft contracts to include a requirement for protective measures to control
             corrosion and to include requirements in the operational requirements document
             for interoperability with other systems, integration of secure communications,
             and combat identification.
        •    Complete the command, control, communications, computers, and intelligence
             support plan for the Boeing 767A Tanker aircraft; include it in the statement of
             work before award of the contracts; and resolve issues identified by
             implementing the support plan before system acceptance testing.
        •    Ensure that system specifications developed for the first spiral of the air refueling
             aircraft include at least all key performance parameters and that spiral two and
             three requirements are subsequently included in the first 100 and future air
             refueling aircraft.
        •    Comply with the statutory provisions by conducting operational and survivability
             testing on production representative aircraft before committing to the production
             of all 100 Boeing KC-767A Tanker aircraft.

Similar Sole-Source Commercial Acquisition. In a separate project, we are reviewing
the C-130J aircraft program that used a similar sole-source commercial item acquisition
strategy with a fixed-price contract.




                     *                 *           *              *               *




Management Comments and Audit Response. We received comments from the
Acting Under Secretary of Defense for Acquisition, Technology, and Logistics; the
Assistant Secretary of the Air Force (Acquisition); and the Deputy General Counsel



*
    Contractor proprietary data omitted.

                                                  vi
(Acquisition and Logistics) on the draft report. The comments provided by the Acting
Under Secretary stated that he was withholding his comments on the report
recommendations until the completion of other studies of the program. The other studies
of the program that the Deputy Secretary of Defense also requested are being conducted
by the Defense Science Board and the National Defense University. The Assistant
Secretary generally nonconcurred with the report findings and recommendations. We
disagree with the Assistant Secretary’s comments and stand by our findings and
recommendations. The Deputy General Counsel stated that, if the program proceeds, his
office will review the proposed contracts. Further, he believes that a legal opinion would
be premature at this time. (See the Issue section of the report for a discussion of the
management comments on the recommendations and audit responses and the
Management Comments section of the report for the complete text of the comments.)

Therefore, we request that the Acting Under Secretary of Defense for Acquisition,
Technology, and Logistics; the Assistant Secretary of the Air Force (Acquisition); and
the General Counsel of the Department of Defense provide comments on this final report
by May 17, 2004.




                                            vii
Table of Contents
Executive Summary                                                                   i

Background                                                                          1

Objective                                                                           3

Issues
         A. Commercial Item Procurement Strategy for the Boeing KC-767A
              Tanker Program                                                        4
         B. Disciplined Acquisition and Systems Engineering Strategy               62

Appendixes
         A. Scope and Methodology                                                  80
              Prior Coverage                                                       81
              Ongoing Audit Coverage                                               82
         B. Deputy Secretary of Defense Request and Prior Reviews of the Boeing
              KC-767A Tanker Program                                               83
         C. Timeline of Events                                                     85
         D. Statutory Provisions                                                   87
         E. Defense Contract Audit Agency Comments on Limitations
            of Earnings Clause                                                     95
         F. Audit Response to Comments on Issue A of the Report                   103
         G. Report Distribution                                                   108

Management Comments
         Acting Under Secretary of Defense for Acquisition, Technology, and
            Logistics                                                             111
         Department of the Air Force                                              112
         General Counsel of the Department of Defense                             156
Source: Office of the Assistant Secretary of the Air Force (Acquisition)

Proposed Boeing KC-767A Tanker Aircraft
Background
    We performed this audit at the request of the Deputy Secretary of Defense. The
    Deputy Secretary requested that we determine whether there was any compelling
    reason why the Air Force should not proceed with its Tanker Lease Program and
    whether the results affected our previous reviews. Additionally, he placed the
    Boeing KC-767A Tanker Program under a pause until we completed our review
    and two other studies are completed. See Appendix B for the Deputy Secretary of
    Defense request and details of the results of our prior reviews of the program. See
    Appendix C for a timeline of events related to the Boeing KC-767A Tanker
    Program.

    Summary of Legislation. In Section 8159 of the Department of Defense
    Appropriations Act for FY 2002, January 10, 2002, Congress authorized the
    Air Force to make payments on a multiyear pilot program for leasing not more
    than 100 general purpose Boeing 767 aircraft for not more than 10 years per
    aircraft, inclusive of any options to renew or extend the initial lease term, and for
    not more than 90 percent of the fair market value of the aircraft obtained under
    the lease. In Section 133 of the National Defense Authorization Act for FY 2003,
    December 2, 2002, the Congress directed that the Secretary of the Air Force not
    enter into a lease for the tanker aircraft until:

           •   the Secretary submits a report to the congressional Defense
               committees outlining his plans for implementing a pilot program, and
           •   either authorization and appropriation of funds necessary to enter into
               the lease are provided by law or until a new start reprogramming
               notification for the necessary funds has been submitted.

    Because of concerns over Air Force plans to fund the 100 leased aircraft, the
    Congress, in Section 135 of the National Defense Authorization Act for FY 2004,
    November 24, 2003, authorized the Air Force to lease no more than 20 tanker
    aircraft and purchase no more than 80 tanker aircraft under the multiyear aircraft
    lease pilot program. Appendix D provides additional information on statutory
    provisions pertaining to the lease and procurement of the 100 Boeing KC-767A
    Tanker aircraft.

    Aircraft Description. Boeing plans to produce the KC-767A Tanker aircraft
    from its core commercial B767-200ER aircraft. The plans include integrating
    features from other B767 models and adding extensive military-unique
    modifications for its primary air refueling mission and other missions, including
    cargo, passenger, aeromedical evacuation, communication relay, and passive
    sensor. As a tanker, the aircraft is to receive and dispense fuel through a drogue
    and boom from its centerline and to store more than 200,000 pounds of fuel,
    including 41,000 pounds of fuel held in auxiliary fuel tanks.

    Leasing Panel. On November 1, 2001, the Under Secretary of Defense for
    Acquisition, Technology, and Logistics and the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer established the Leasing Review Panel (the
    Panel), which they co-chaired. The Panel is responsible for reviewing all lease



                                          1
            proposals costing $250 million or more. The Panel is subordinate to the Defense
            Acquisition Board and its review activities and the Defense Acquisition Executive
            has decision-making authority on programmatic and contractual issues related to
            leasing proposals offered as alternatives to acquisitions of potential major Defense
            acquisition programs. The Panel was established for the FY 2003 budget cycle;
            however, its continuation is subject to approval by the Secretary of Defense.

            On May 23, 2003, the Secretary of Defense approved the Air Force proposal to
            award a multiyear Pilot Program with Boeing for leasing 100 general purpose
            Boeing 767 aircraft, based on the results of the Panel review of the Boeing 767A
            Tanker aircraft leasing and purchasing options. The Leasing Review Panel
            compared the merits and shortcomings of both leasing and purchasing the aircraft,
            and the Secretary determined that the lease option best satisfied military needs.
            The primary reasons were that the lease will accelerate deliveries of aircraft and
            will result in smaller outlays in the initial years of the Future Years Defense
            Program. The Under Secretary of Defense for Acquisition, Technology, and
            Logistics decided not to convene an Overarching Integrated Product Team to
            review the results of the Panel review because the Under Secretary believed that
            the Boeing KC-767A Tanker aircraft was 90 percent commercial and did not
            require significant development and modification effort.

            Complex Financing Agreement. After obtaining the Secretary of Defense’s
            approval, the Air Force, Boeing, the Office of the Secretary of Defense, and the
            Office of Management and Budget reached a complex financing agreement in
            May 2003 allowing the Air Force to lease up to 100 Boeing KC-767A Tanker
            aircraft. Because of concerns over the financing agreement and its impact on
            future DoD budgets, the Congress, as discussed earlier, authorized the Air Force
            to lease no more than 20 tanker aircraft and purchase no more than 80 tanker
            aircraft under the multiyear aircraft lease pilot program.

            Noncompetitive Fixed-Priced Commercial Contracts. Based on the
            congressional authorization, the Air Force is negotiating noncompetitive
            fixed-price commercial contracts with Boeing for the lease of 20 KC-767A
            Tanker aircraft and the procurement of 80 tanker aircraft. The “considered
            negotiated”        *             *           *            *             *
            (current year dollars) for the 100 Boeing KC-767A Tanker aircraft was
            $**.* billion, including $*.** billion for the “green aircraft,” $*.** billion for
            Boeing development of the tanker, $*.** billion for Air Force specific
            modifications to the tanker, $*.** billion for fleet logistics support, $*.** billion
            for training, $*.** billion for financing and escalation, and $*** million for other
            costs. The $**.* billion1 can also be broken out to include $*.** billion for lease
            rents, $**.** billion for aircraft purchase, $*.** billion for fleet logistics support,
            $*.** billion for training, and $*** million for other costs.

            Currently, Boeing will deliver
                 *                 *                            *                    *                     *



*
    Contractor proprietary and negotiation sensitive data omitted.
1
    The latest Air Force cost projection in then-year dollars is $** billion, including $*.* billion for lease
    rents, $**.* billion for aircraft purchase, $*.* billion for integrated fleet support, $* billion for training,
    $*** million for other costs, and $*** million for military construction.
                                                            2
Objective
    Our overall audit objective was to review the acquisition of the Boeing KC-767A
    Tanker Program to determine whether there was any compelling reason why the
    Air Force should not proceed with its Tanker Lease Program. We did not review
    the validity of the requirements for the tanker aircraft; the condition of the
    Air Force’s current tanker fleet in terms of corrosion and increased maintenance
    costs; and whether other tanker aircraft should be considered to meet user
    requirements. See Appendix A for a discussion of the audit scope and
    methodology.




                                        3
Issue A. Commercial Item Procurement Strategy
         for the Boeing KC-767A Tanker
         Program
            The Air Force contracting officer decided to use a commercial item procurement
            strategy that Air Force management strongly encouraged for the sole-source
            Boeing KC-767A Tanker Program, valued at $**.* billion, with The Boeing
            Company (Boeing). However, contrary to the Air Force interpretation, the
            military tanker aircraft is not a commercial item as defined in Section 403 of
            title 41, United States Code. Further, there is no commercial market to establish
            reasonable prices by the forces of supply and demand. The commercial item
            procurement strategy also required that the Air Force use a fixed-price type
            contract under which the contractor assumes the risk of delivery and conformance
            with the systems specifications rather than a more appropriate mix of cost and
            fixed-price incentive type contracts. Under a fixed-price type contract, the
            contractor assumes the risk of cost over-runs but also retains all of the savings if
            the contractor’s actual costs are lower than the estimates. The commercial
            strategy also exempted Boeing from the requirement to submit cost or pricing data
            (Truth in Negotiations Act [Section 2306a of title 10, United States Code]) which
            places the Government at high risk for paying excessive prices and profits and
            precludes good fiduciary responsibility for DoD funds. Without insight into the
            contractor’s actual costs, the Air Force will also be at a disadvantage in any future
            tanker procurement negotiations (Issue A-1).

Discussion of Issue
            Using the commercial item procurement strategy, the Air Force did not have
            sufficient data to make multi-billion dollar decisions for the Boeing KC-767A
            Tanker Program and could not demonstrate the level of accountability needed to
            conclude that the prices negotiated represent a fair expenditure of DoD funds.
            Specifically, Air Force program officials:

            •   Green Aircraft ($*.* billion). Waived cost or pricing data without obtaining
                data on prior Boeing commercial sales to establish price reasonableness, did
                not negotiate engine prices directly with engine manufacturers (a standard
                commercial practice), and relied on a questionable mix of Boeing 767
                commercial aircraft models with a discounted Internet price to establish a
                fixed-price baseline for 100 “green aircraft” (variation of Boeing commercial
                767-200ER and 767-400ER aircraft) at $*.* billion. The commercially
                available data and assumptions that the Air Force program officials relied on
                were not sufficient to support the fixed-price baseline price and could be
                overstated from $*** million to $*.* billion based on an analysis performed
                by the Institute for Defense Analysis (IDA) and our analysis of a higher
                discounted price appropriate for a significant competitive order (Issue A-2).



*
    Contractor proprietary and negotiation sensitive data omitted.
                                                        4
            •   Development ($*.* billion). Relied on data that Boeing provided to the
                Italian military for the Global Tanker Transport Aircraft (GTTA) with other
                assumptions for testing and certification and then added profit and financing
                costs to support the Air Force share of $*** million for GTTA development
                costs. The Air Force negotiating team used cost estimating relationships to
                other programs, Boeing engineering estimates, and other budget data to
                calculate Air Force-specific development costs of $*** million. The data
                used were not sufficient to establish a fixed-price baseline of $*.* billion for
                development of the 100 tanker aircraft (Issue A-3).

            •   Modification ($*.* billion). Used questionable comparisons of modifications
                costs for other programs, Boeing engineering estimates, and vendor quotes
                without determining the reliability of those estimates or quotes, and then
                applied a decrement factor to establish a fixed-price baseline of $*.* billion
                for the modification of 100 “green aircraft.” The data used were not sufficient
                to establish the baseline price and could cause the modification price to be
                overstated by at least $*** million based on an analysis performed by IDA.
                The magnitude of the military modifications obliges the Air Force to request
                Congress to provide the statutory authority required by the Department of
                Defense Appropriations Act for FY 2002 to modify leased general purpose
                Boeing 767 aircraft into a military tanker configuration (Issue A-4).

            •   Limitation of Earnings and Termination Clauses. Attempted to limit
                Boeing’s earnings to 15 percent by including a limitation of earnings clause in
                the contract. To achieve this limitation, however, the Air Force program
                officials wrote the clause to exclude, without authority, statutory Government
                audit rights and to use Boeing’s independent auditor to provide an attestation
                on profit. Only the Inspector General has the statutory authority to approve
                use of non-Federal audit services. The Defense Contract Audit Agency
                (DCAA) is the appropriate entity and is in the best position to provide the
                requisite audit services. Further, the clause allowed Boeing to include
                questionable items in its costs, such as cost reduction initiative savings and
                engine manufacturer credits or rebates, and concealed contract costs from the
                Government with only a final accounting by Boeing’s auditor after the last
                aircraft is delivered in FY 2015. Our office and the DCAA find the clause to
                be highly detrimental to the fiduciary interests of the DoD and it provides no
                true accountability for the expenditure of DoD funds. The clause also appears
                to have created a prohibited cost-plus-a-percentage-of-cost system of
                contracting. Also, the termination for convenience clause in the contract does
                not provide sufficient controls or audit rights to adequately determine the
                Government’s termination liability and to prevent a possible Anti-Deficiency
                Act violation (Issue A-5).

            •   Logistics Support ($*.* billion). Used a mix of pricing data from brochures
                relating to other aircraft and escalated 1980s pricing data for support
                equipment costs that included a $*** million error to justify a fixed-price fleet
                logistics support price of $*.* billion for ** years. The data used were not
                sufficient to support the baseline price for fleet logistics support costs.
                Further, Air Force program officials set a ** percent “performance aircraft
                availability” for Boeing to receive 100 percent of the annual contract price

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                        5
                without benchmarking availability rates of comparable systems. The **-year
                sole-source logistics support contract is premature because the Air Force
                should first comply with statutory requirements in the National Defense
                Authorization Act for FY 2004; Section 2464 of title 10, United States Code;
                and the Strom Thurmond National Defense Authorization Act for FY 1999
                requiring analyses of the costs and benefits of organic or contractor support,
                contract length, and core logistics (Issue A-6).

            •   Lease ($*.* billion). Did not meet three of six criteria requirements for an
                operating lease as described in Office of Management and Budget (OMB)
                Circular No. A-11. Meeting the OMB criteria for leases is a statutory
                requirement of Section 8159 of the Department of Defense Appropriations
                Act for FY 2002. Further, the lease for 20 tankers will increase Air Force
                costs by at least $*** million more than purchasing the aircraft (Issue A-7).

Management Comments on Issue A and Audit Response
            Summaries of Air Force comments on Issue A and audit responses are in
            Appendix F.

Issue A-1. Commercial Item Procurement Strategy
            Conclusion and Results Summary. The Air Force contracting officer decided to
            use a commercial item procurement strategy that Air Force management strongly
            encouraged for the sole-source Boeing KC-767A Tanker Program, valued at
            $**.* billion, with The Boeing Company (Boeing). However, contrary to the
            Air Force interpretation, the military tanker aircraft is not a commercial item as
            defined in Section 403 of title 41, United States Code. Further, there is no
            commercial market to establish reasonable prices by the forces of supply and
            demand. By using a commercial item procurement strategy, the Air Force was
            also required to use a fixed-price type contract where the contractor retains all of
            the savings if the contractor’s actual costs are lower than the estimates rather than
            a more appropriate mix of cost and fixed-price incentive type contracts. The
            commercial strategy also exempted Boeing from the requirement to submit cost or
            pricing data, which places the Government at high risk for paying excessive
            prices and profits and precludes good fiduciary responsibility for DoD funds.
            Without the Air Force gaining insight into Boeing’s actual costs, the Air Force
            will also be at a disadvantage in any future tanker procurement negotiations.

            Criteria. Federal Acquisition Regulation (FAR) Part 2, “Commercial Item
            Definition,” Part 12, “Acquisition of Commercial Items,” and Part 15,
            “Contracting by Negotiation;” Section 403 of title 41, United States Code,
            “Definitions” (Commercial items); Under Secretary of Defense for Acquisition,
            Technology, and Logistics memorandum on “Commercial Acquisitions,”
            January 2001, “the Federal Acquisition Streamlining Act of 1994” or “FASA,”
            and Section 2306a of title 10, United States Code, “Cost or pricing data: truth in
            negotiation,” provide guidance on commercial items and exceptions to cost or
            pricing data.

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                        6
Use of Commercial Item Procurement Strategy
    One of the unique aspects of the proposed Boeing KC-767A Tanker aircraft lease
    was that in Section 8159 of the Department of Defense Appropriations Act for
    FY 2002, Congress authorized the Air Force to lease general purpose Boeing 767
    aircraft under a pilot program. Also, Congress authorized the Air Force to include
    terms and conditions in the lease agreements that were customary in aircraft
    leases by a non-Government lessor to a non-Government lessee. To implement
    this, the Air Force contracting officer and the cost/price analyst for the Boeing
    KC-767A Tanker Program stated that Air Force management strongly encouraged
    them to examine the use of a commercial item procurement strategy for the
    Boeing KC-767A Tanker Program. The Air Force contracting officer decided to
    use a commercial item procurement strategy.

Commercial Item Determination
    Contracting Officer Commercial Item Determination and Finding. In the
    determination and finding, the contracting officer described the rationale for
    classifying the Boeing KC-767A Tanker aircraft as a commercial item.
    Specifically, the contracting officer stated:
               For the 767 tanker to fall in the FAR 2.101(3) “commercial item”
               category, it must be an item that would satisfy FAR 2.101(1) or (2),
               except for “minor modifications of a type not customarily available
               in the commercial marketplace made to meet Federal Government
               requirements.” FAR 2.101(3)(ii) goes on to state that minor
               modifications are those that do not significantly alter an item’s non-
               governmental function or essential physical characteristics. A
               modification’s value and size relative to the final product’s value and
               size are considerations in determining whether a modification is
               “minor,” but are not conclusive. The 767 passenger and freighter
               configurations are, without question, items that would satisfy the FAR
               2.101(1) definition of a “commercial item.” The question is whether
               reconfiguring a 767 passenger or freighter version to a tanker equals a
               FAR 2.101(3)(ii) “minor modification” such that the tanker is a FAR
               2.101(3) commercial item. The sheer number of modifications does
               not determine whether a modification is minor, but the determinant is
               whether the modifications change the item’s function or essential
               physical characteristics. Modifying a 767 passenger or freighter
               configuration to the tanker configuration would not change the
               aircraft’s function. The aircraft’s function would still be to
               transport people and cargo by air. It would likewise not change
               the aircraft’s essential physical characteristics. It would still be an
               airplane, with a hull, wings, tail, engines, and avionics. The
               modification (which is of a type, as discussed above, not customarily
               available at this time in the commercial marketplace) to a tanker
               configuration for the Air Force, to meet federal government
               requirements (the government requires the tanker configuration for
               long-range aerial refueling), does not significantly alter the 767’s non-
               governmental function or essential physical characteristics. One thus




                                              7
                     can argue that reconfiguring a 767 passenger or freighter version
                     to a tanker is a FAR 2.101(3)(ii) “minor modification”. [emphasis
                     added]

                     The KC-767A Aircraft qualifies (as a commercial item) under FAR
                     2.101(3), as the 767 passenger and freighter versions are customarily
                     used by the general public for non-governmental purposes, and a 767
                     passenger or freighter aircraft configured as a tanker appears to
                     qualify as a minor modification. As a result, it is hereby determined
                     that items being acquired for the KC-767A Aircraft System Program
                     are commercial items in accordance with FAR 2.101(3)." [emphasis
                     added]

        Air Force Information on Commerciality. The contracting officer supported
        his determination and finding with information from decisions by the General
        Services Board of Contract Appeals and the Comptroller General. The Board
        stated in the General Services Board of Contract Appeals case,2 Sprint
        Communications Co., et al. versus Defense Information Systems Agency, that
        “The factor distinguishing major from minor modifications is said to rest on the
        degree to which the modification changes the function or essential physical
        characteristics of the product or item in question. It is this and not the aggregate
        complexity of the proposed alterations which distinguishes major from minor
        modifications as that term is used in the commerciality provisions of the RFP
        [Request for Proposal].” We determined this decision has no relevance to the
        argument to classify the Boeing KC-767A Tanker aircraft as a commercial item.
        The decision does not relate to a minor modification of a type not customarily
        available in the commercial marketplace as defined by statute and the FAR. It
        does relate to commerciality provisions defined in the RFP. The Federal Aviation
        Administration wanted a commercially available system for its procurement of a
        telecommunications system and did not want modifications, minor or otherwise,
        because of bad experiences with previous equipment modifications on other
        contracts. However, conflicting clauses in the RFP allowed minor modifications
        to commercial systems and defined minor modification as “a modification to a
        commercial item that does not alter the commercial item’s function or essential
        physical characteristics.”

        The Comptroller General decisions (Premier Engineering & Manufacturing, Inc.
        and Canberra Industries, Inc.)3 also discussed the issue of commercial item
        determinations. The first decision related to a competitive procurement that dealt
        with the similarity between a single-engine aircraft deicer and a dual-engine
        deicer. The decision agreed with the commercial item determination stating that
        adding a second engine to the single-engine configuration was a “minor
        modification” (based on a 90 percent similarity in the 2 configurations) without
        significant physical alteration and no change to the essential function. The basic
        function to deice the aircraft was not changed in any way by the use of an



2
  General Services Board of Contract Appeals Number 12692-P, 94-3, Board of Contract Appeals ¶ 26966,
  March 15, 1994.
3
  Premier Engineering & Manufacturing, Inc., B-283028; B-283028.2, 1999 U.S. Comp. Gen. LEXIS 174;
  99-2 Comp. Gen. Proc. Dec. ¶ 65, September 27, 1999. Canberra Industries, Inc. B-271016, 1996 U.S.
  Comp. Gen. LEXIS 302; 96-1 Comp. Gen. Proc. Dec. P269, June 5, 1996.
                                                  8
            auxiliary engine to operate the deicing equipment. This decision has no relevance
            to the argument to classify the Boeing KC-767A Tanker aircraft as a commercial
            item. The decision does not relate to a minor modification of a type not
            customarily available in the commercial marketplace as defined by statute and the
            FAR, and again, it relates to commerciality provisions defined in the RFP. The
            commercial determination related to a deicer that had long been offered for sale
            and sold in the commercial marketplace, and the modification was minor and of a
            type customarily available in the commercial marketplace.

            The second decision, another competitive procurement, discussed a software
            upgrade for pedestrian radiation detection equipment. The decision again agreed
            with the commercial item determination because the software modification did
            not alter the function or physical characteristics of the pedestrian monitor and thus
            was minor. Further, the decision stated that there was nothing in the record to
            indicate that the modification was other than a minor one to the monitor’s
            operating system. Specifically, the new software was a commercially available
            program that merely replaced the software previously used. This decision has no
            relevance to the argument to classify the Boeing KC-767A Tanker aircraft as a
            commercial item. The decision does not relate to a minor modification of a type
            not customarily available in the commercial marketplace as defined by statute and
            the FAR and again relates to commerciality provisions defined in the RFP. The
            commercial determination related to the use of new software that was a
            commercially available program and did not alter the function or physical
            characteristics of the monitor.

Military Tanker Not a Commercial Item
            Modification of Boeing 767 Aircraft into Military Tanker. The Air Force
            contracting officer, in the determination and finding for the Boeing
            KC-767A Tanker aircraft, inappropriately determined that modifications of the
            Boeing 767 aircraft were minor modifications of a type not customarily available
            in the commercial marketplace to satisfy the commercial item definition.

                    Not Minor Modifications. The modifications made to develop the
            Boeing KC-767A Tanker aircraft were not minor, were for unique
            military-specific purposes, and cost **.* percent of the base commercial aircraft
            price ($*.* billion [development and modification]/$*.* billion [“green aircraft”]).
            The Air Force believes the correct figure is ** percent, which is not minor and
            does not include the $* billion development effort. In addition, the modifications
            significantly changed the aircraft’s primary purpose and function from that of
            transporting people and cargo to that of a military tanker.

            The major modifications that will be made to the Boeing 767-200ER commercial
            aircraft will create a military-unique tanker aircraft that does not currently exist.
            Specifically, the Air Force specified military-unique modifications to the “green
            aircraft” such as the installation of auxiliary fuel tanks, a refueling boom, a
            refueling receptacle, more powerful engine generators, and heavier wiring to
            accommodate military-unique requirements. Other significant modifications that
            the Air Force required included the installation of a hose drogue unit which

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                        9
            allows for aerial refueling, the use of Link 16 software for secure voice and data
            communications, and a convertible modification that allows the conversion of the
            tanker configuration to a passenger or freighter configuration.

            Although the Air Force version of the tanker aircraft is not a commercial item, the
            Air Force believes that a worldwide market is emerging for the GTTA, because of
            sales of four aircraft each to Japan and Italy, stated interest by Australia, and
            competition between Airbus and Boeing for a United Kingdom tanker program.

                   Not “Of a Type.” The Boeing KC-767A Tanker aircraft also did not
            meet the intent of the commercial item definition “of a type.” The Under
            Secretary of Defense for Acquisition and Technology (since renamed Acquisition,
            Technology, and Logistics) in a memorandum on “Commercial Acquisition,”
            January 5, 2001, clarified for consistency, FAR guidance on commercial items
            including the intent of “Of a Type” determinations. Specifically,
                         The phrase “of a type” is not intended to allow the use of FAR Part
                         12 to acquire sole-source, military unique items that are not closely
                         related to items already in the marketplace. . . . “of a type”
                         broadens the statutory commercial item definition to allow Part 12
                         acquisition of a government-unique item that can compete with
                         commercial items that meet the government’s requirement.
                         [emphasis added]

                    Statutory Requirements for Commercial Item. The Department of
            Defense Appropriations Act for FY 2002 and the National Defense Authorization
            Act for FY 2004 did not waive the commercial item provisions set forth in the
            Federal Acquisition Streamlining Act (FASA) of 1994. Section 8159 of the
            Department of Defense Appropriations Act for FY 2002 permitted the leasing of
            general purpose Boeing 767 aircraft in commercial configuration without
            modification to satisfy the tanker requirement. Section 135 of the National
            Defense Authorization Act for FY 2004 permitted the leasing of 20 tanker aircraft
            and the purchase of 80 tanker aircraft. FASA and its legislative history in Senate
            Report 103-258, May 11, 1994, clearly intended that commercial items be
            “non-developmental.” Section 8001 of FASA defined a commercial item as items
            that have been sold, leased, or licensed to the general public to include
            non-developmental items developed exclusively at private expense that have been
            sold in substantial quantities on a competitive basis to State and local
            governments. The definition of commercial item is at Section 403 of title 41,
            United States Code and Part 12 of the FAR. To satisfy the tanker requirement,
            the Boeing 767 will undergo substantial development and modification totaling
            $*.* billion. Section 5064 of FASA characterizes upgraded aircraft for use in
            meeting tanker requirements as commercial-derivative aircraft rather than as
            commercial items. Therefore, commercial-derivative tanker aircraft are not
            covered as commercial items under FASA. The Department of Defense
            Appropriations Act for FY 2002 and the National Defense Authorization Act for
            FY 2004 did not waive the commercial item provisions under FASA and now
            under title 41.



*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       10
Commercial Market Does Not Exist
    There is no commercial market for the Boeing KC-767A Tanker aircraft to
    establish the reasonableness of prices by the forces of supply and demand. When
    there is a market, the market establishes prices by the forces of supply and
    demand, and the market provides the oversight.

    The Air Force determination and finding also stated that a commercial market for
    the Boeing KC-767A Tanker aircraft did not currently exist. Specifically,
               Tanker aircraft, of whatever type, are not presently customarily
               used by the general public, or by non-governmental entities, at this
               time. Also, virtually all of Boeing’s present sales are to governments.
               Perhaps if Boeing’s market develops as hoped, one could affirmatively
               agree that (1) and (2) might eventually apply to the tanker, but, as they
               do not at present, the 767 does not meet the “commercial item”
               definition in FAR 2.101(1). [emphasis added]

Fixed-Price Contract Type
    The commercial item procurement strategy required that the Air Force use a
    fixed-price type contract rather than more appropriate cost and fixed-price
    incentive type contracts. The fixed-price type contract is one in which the
    contractor assumes the risk of overruns but also retains all of the savings if the
    contractor’s actual costs are lower than the estimates. FAR 12.207, “Contract
    Type,” states that agencies will use firm fixed-price contracts or fixed-price
    contracts with economic price adjustment for the acquisition of commercial items.
    The use of any other contract type to acquire commercial items is prohibited.

    The Air Force stated that FAR 16.202-2 provides that use of a firm-fixed-price
    contract is suitable for acquiring commercial items or for acquiring other supplies
    or services on the basis of reasonably definite functional or detailed specifications
    when the contracting officer can establish fair and reasonable prices. Price
    reasonableness under FAR 16.202-2 can be established by a number of different
    methods including reasonable price comparisons with prior purchases of the same
    or similar supplies or services. FAR 16.202-2 permits the use of fixed-price
    contracts notwithstanding performance uncertainties as long as the performance
    uncertainties can be identified and reasonable estimates of their cost impact can
    be made, and the contractor is willing to accept a firm fixed price representing
    assumption of the risks involved.

    We believe that by using fixed-price contracts, the Air Force created a high-risk
    procurement strategy for the development, modification, procurement, and
    logistics support of the Boeing KC-767A Tanker Program. As to the Boeing
    KC-767A Tanker Program, a fixed-price commercial contract may be appropriate
    for the basic Boeing 767-200ER aircraft, but a cost or fixed-price incentive
    contract would be more appropriate for the initial Boeing KC-767A Tanker
    aircraft development, modification, and logistics support efforts.



                                             11
Truth In Negotiations Act
     By using the commercial item procurement strategy, the Air Force negotiating team
     did not obtain cost or pricing data under the Truth in Negotiations Act (TINA). The
     commercial strategy also exempted Boeing from the requirement to submit cost or
     pricing data, which places the Government at high risk for paying excessive prices
     and profits. Congress historically has expressed concern with the use of other-than-
     competitive contracts that typically were negotiated between the parties.
     Noncompetitive contracts increase the risk that the Government will pay
     unreasonable prices and that the contractors will earn excessive profits. Based on
     these concerns, Congress passed TINA in September 10, 1962, that required
     contractors to submit cost or pricing data before the award of a negotiated contract
     and to certify that the data were accurate, complete, and current. The purpose of
     TINA was to provide the Government with all the facts on cost and pricing that the
     contractor used to prepare the proposal so that the Government could negotiate far
     more knowledgeably and avoid paying excess prices and profits. Throughout the
     years, amendments have modified TINA requirements, and the appropriate statutory
     authority is now in Section 2306a of title 10, United States Code.

     On Inspector General of the Department of Defense Report No. 98-064,
     “Commercial and Noncommercial Sole-Source Items Procured on Contract
     N000383-93-G-M111,” June 24, 1998, the Director, Defense Procurement
     provided the following comments in June 1995 on the benefits of TINA,
     marketplace pricing, and the differences between DoD and commercial
     procurement environments.
                The requirements of TINA are necessary to ensure the integrity of DoD
                spending for military goods and services that are not subject to
                marketplace pricing. When there is a market that establishes prices
                by the forces of supply and demand, the market provides the
                oversight. DoD procures many highly complex military systems in the
                absence of supply/demand situation for these relatively low volume,
                unique military goods. The requirements of TINA address legitimate
                and necessary differences between DoD and commercial procurement
                environments.

                While DoD recognizes the need for TINA, it also is moving to increase
                competition and decrease the number of pricing actions that would
                require cost or pricing data. The implementation of FASA [Federal
                Acquisition Streamlining Act], with its emphasis on encouraging the
                acquisition of commercial end items and increased competition, will
                bring the requisite market forces to bear on prices, and thus
                exempt contractors from the requirement to submit cost or pricing
                data. Absent this competition, the quantitative benefit to the
                Government of TINA compliance far exceeds the cost of
                Government oversight. These benefits are best illustrated by the fact
                that during FY 94, oversight work related to TINA resulted in net
                savings of $2 billion on DoD contracts. When compared to the cost of
                $761 million for TINA compliance the benefits represent a 267% return
                on investment. [emphasis added]



                                            12
Recommendations, Management Comments, and Audit
  Response
           A.1. We recommend that the Under Secretary of Defense for Acquisition,
           Technology, and Logistics discontinue the commercial item procurement
           strategy for the Boeing KC-767A Tanker Program and replace it with a
           strategy that will use cost or fixed-price incentive contracts and would
           require Boeing to provide cost or pricing data as appropriate.

           Acting Under Secretary of Defense for Acquisition, Technology, and
           Logistics Comments. The Acting Under Secretary stated that the program was
           currently under suspension pending the outcome of ongoing studies of the
           program and that he would like to hold his comments until these studies are
           completed. For the complete text of the Acting Under Secretary’s comments, see
           the Management Comments section of the report.

           Air Force Comments. Although not required to comment, the Assistant
           Secretary of the Air Force (Acquisition) did not concur, stating that the
           commercial character for the KC-767 tanker program’s origin was “rooted in
           legislative history.” Further, the associated “colloquies” from the Senate and the
           House clearly established that Congress viewed the KC-767 tanker as a
           commercial configuration. For the complete text of the Assistant Secretary’s
           comments, see the Management Comments section of the report.

           Audit Response. The KC-767 tanker is not a commercial item as defined by
           Section 403 of title 41, United States Code and Part 12 of the FAR. Further,
           neither the Department of Defense Appropriations Act for FY 2002 nor the
           National Defense Authorization Act for FY 2004 waived the commercial item
           provisions initially set forth in the Federal Acquisition Streamlining Act of 1994.

Issue A-2. Green Aircraft Price ($*.* billion)
           Conclusion and Results Summary. The Air Force negotiating team waived cost
           or pricing data and did not include the FAR clause to obtain data on prior Boeing
           commercial sales to establish price reasonableness. The negotiating team also did
           not negotiate engine prices directly with engine manufacturers (a standard
           commercial practice), and relied on a questionable mix of Boeing 767 commercial
           aircraft models with a discounted Internet price to establish a fixed-price baseline
           of $*.* billion for 100 “green aircraft.” The commercially available data and
           assumptions that the negotiating team relied on were not sufficient to support the
           fixed-price baseline price and could be overstated from $*** million to
           $*.* billion based on an analysis performed by IDA and our analysis of a higher
           discounted price appropriate for a significant competitive order.

           Criteria.                  *                                     Director ,
           Defense Procurement Memorandum on Pricing sole-source commercial items;
           FAR 52.215-20, “Requirement for Cost of Pricing Data or Information other

*
    Predecisional documentation omitted.
                                                13
           than Cost or Pricing Data (Oct 1997);" and               *
                                                              provide information on
           the proposed price and guidance on commercial items and exceptions to cost or
           pricing data.

Commercial Item Exception from Cost or Pricing Data
           The Air Force negotiating team did not obtain cost or pricing data on the “green
           aircraft” even though Boeing did not provide data on prior commercial sales to
           establish price reasonableness. The negotiating team deviated from the regulatory
           commercial item procurement strategy when Boeing was not obligated to submit
           cost or pricing data and did not provide appropriate information on the prices at
           which Boeing had previously sold the same or similar aircraft to support a
           commercial item exception for the “green aircraft.”

           To support the negotiating team’s decision, the Air Force cited
           FAR 15.403-4(a)(1), which states “The Contracting Officer must obtain cost or
           pricing data only if the contracting officer concludes that none of the exceptions
           in 15.403-1(b) applies.” FAR 15.403-1(b) identifies five exceptions, one of
           which is “commercial item.” The contracting officer determined that this
           acquisition was a commercial item. On that basis, the Air Force negotiating team
           did not obtain cost or pricing data. FAR 15.402(a) states “the contracting officer
           must not obtain more information than necessary… must generally use the
           following order of precedence…information within the Government, information
           obtained from sources other than the offeror, and if necessary information from
           the offeror…such offeror information shall include at a minimum appropriate
           information on the prices at which the same or similar items have been sold
           previously….” FAR 15.408 states “Considering the hierarchy at 15.402, the
           contracting officer may insert the provision at 52.215-20…in solicitations….”

           Because Boeing has entered into nondisclosure agreements with its customers
           prohibiting the disclosure of prices or the terms of their agreements, the level of
           data otherwise common was not available to the government. Nondisclosure
           agreements are common in the highly competitive commercial aircraft industry.
           The Air Force negotiating team believes it followed the intent of the FAR as
           identified above. However, the fiduciary responsibility associated with the
           expenditure of $*.* billion should necessitate that the Air Force truly meet the
           intent of the FAR and obtain more data on sales or costs.

           Director, Defense Procurement Guidance. On August 2, 2000, the Director,
           Defense Procurement issued a memorandum to the Defense community on
           “Obtaining Information for Pricing Sole-Source Commercial Items.” The
           Director stated:
                        Please remind your contracting professionals that the clause at FAR
                        52.215-20 should be included in the solicitations for sole-source
                        commercial items when the contracting officer has a reasonable
                        expectation that the offeror will request a commercial item exception to
                        a requirement for submission of certified cost or pricing data, and that
                        the offeror will need to provide, at a minimum, appropriate

*
    Predecisional documentation omitted.
                                                     14
                         information on the prices at which the same or similar items have
                         been previously sold. [emphasis added]

            FAR 52.215-20 describes the following requirements for offerors to obtain a
            commercial item exception from submitting cost or pricing data.
                             (ii) Commercial item exception. For a commercial item exception,
                         the offeror shall submit, at a minimum, information on prices at
                         which the same item or similar items have previously been sold in
                         the commercial market that is adequate for evaluating the
                         reasonableness of the price for this acquisition. [emphasis added]

Aircraft Engine Prices
            The Air Force negotiating team did not negotiate engine prices directly with the
            engine manufacturers, a standard commercial practice. Currently, three Defense
            contractors manufacture engines used on Boeing 767 aircraft. The negotiating
            team held conversations with a senior vice president of     * at          *
            and used his general observations to support the “green aircraft” price. In regard
            to purchasing engines, the     *       vice president stated:

                            *               *                *            *              *



            The Institute for Defense Analysis also addressed the commercial practice of
            procuring aircraft engines as follows.




                           *                *               *             *                *




Basis for “Green Aircraft” Price
            Boeing Proposal. Boeing represented the “green aircraft” price as a bill from
            their commercial aircraft division. At the              *
                      for the Boeing KC-767A Tanker aircraft, Boeing proposed a price of
            $** million for each “green aircraft.” Boeing derived the price from Boeing 767



*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       15
            commercial airplane prices on the Internet. Boeing used an average from its
            Internet price range and then weighted the prices of two of its commercial planes.
            The least expensive of these, the 767-200ER, was weighted at ** percent and the
            more expensive 767-400ER was weighted at ** percent. Boeing then either
            applied its “preferred customer discount” of **.* percent to arrive at the
            $** million proposed price or calculated the customer discount as merely the
            difference between the base price and the proposed price. Table 1 summarizes the
            Boeing proposed price.


                  Table 1. Boeing Proposed Green Aircraft Unit Prices ($millions)
                               Commercial Airplane Prices (Internet) Weight
            Airplane Model        Low        High       Average      Factor     Price
             767-200ER           $100.0     $112.0       $106.0       *.**       $**.*
             767-400ER            125.5      138.5         132.0      *.**        **.*
            Green Aircraft Base Price                                                               $***.*
            Preferred Customer Discount                  (**.*%)                                      (**.*)
                       Green Aircraft Price                                                         $ **.*

            Data the Air Force Used to Negotiate the “Green Aircraft” Price. The
            Air Force negotiating team used factors from six different approaches to
            determine a “green aircraft” price of $** million each. One approach the
            negotiating team used, based the aircraft price on what an aircraft customer,
            without any preferential standing, might pay for one aircraft as identified by a
            catalog price and then discounted the aircraft price based on the Air Force being a
            very good customer. In the                 *                the cost/price analyst
            stated:
                         On this last note BCA (Boeing Commercial Airplane) represents that
                         while the Air Force and the United States Government (USG) are
                         considered very good customers, in this situation their level of
                         commitment is not on equal footing with other airline companies that
                         maintain exclusivity agreements with Boeing, whereby they buy all
                         their aircraft from Boeing. Boeing also points out that there is no
                         guarantee the USG will lease let alone buy 100 aircraft. The Air Force
                         does not have a plan to exclusively purchase all of its future tanker
                         needs from Boeing.

                         The AFNT [Air Force Negotiating Team] considered a production rate
                         provision that would have reduced future aircraft prices if production
                         rates increased since production rates are near the bottom right now.
                         BCA and Boeing IDS (Integrated Defense Systems) were ultimately
                         unreceptive to this approach as too risky in maintaining future margins.




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       16
            Table 2 shows how the Air Force negotiating team arrived at the negotiated
            “green aircraft” price.


                       Table 2. Basis for Air Force Negotiated Green Aircraft
                                        Unit Prices ($millions)
                       Data Source                  *                *             *
                       Internet                   $80.3              *             *
                       Appraisers                  66.8              *             *
                            *                      **.*              *             *
                       Marketplace                 65.0              *             *
                       Parametric 1                80.5              *             *
                       Parametric 2                60.0              *             *
                                Subtotal                                           *
                       Trade-off elements                                          *
                       Green Aircraft Price                                        *


                   Internet. To calculate the Internet price, the Air Force negotiating team
            used the same methodology that Boeing used in its proposal. However, the
            Air Force used a ** percent preferred customer discount off the $***.* million
            base price for the “green aircraft” to arrive at the $80.3 million price. As shown
            in the *:
                         Each approach was weighted based upon its assessed strength in
                         explaining green aircraft prices. The Internet approach is considered
                         the best approach since it represents the most commercial
                         approach. [emphasis added]

                    Appraisers. The Air Force negotiating team used four different appraisal
            firms to assess aircraft valuation in the marketplace. The negotiating team used a
            50/50 split of prices for Boeing 767–200 and 767-400 aircraft to reflect
            marketplace valuation and then averaged the prices from the four appraisers to
            arrive at the $66.8 million price. The Boeing 767–200 aircraft prices were about
            $20 million less than the 767–400 aircraft prices.

                       *          The Air Force negotiating team held conversations with a
            senior vice president              *            who provided both general and
            specific observations to support a price of $** million. This included a similar
                       *          they offered on the marketplace. This individual indicated
            that a ** percent customer discount from a catalog price should be considered the
            best available in the marketplace for the best customer.

                    Marketplace. The Air Force negotiating team obtained current
            marketplace assessments from industry insiders that they could not validate
            because of marketplace restraints on sharing information. The negotiating team
            stated that price is only one of many factors in an agreement; accordingly,

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       17
           configuration options, financing, warranty, and unique terms significantly skew
           any comparison of simple marketplace price information. The information
           showed a 2001 purchase of a 767-200ER aircraft for $57.2 million with a resale
           valuation of the same aircraft estimated at $70.0 million in the same year. The
           negotiating team averaged the two prices and escalated the price to the current
           year to arrive at the $65 million price.

                   Parametrics 1 and 2. The Air Force negotiating team made parametric
           assessments based on data from parametric assessments made for the C-130J
           aircraft in 1996 and in 1999. The 1996 parametric assessment used weight from
           various aircraft to predict price and the 1999 parametric assessment used weight,
           speed, and fuel from various aircraft to predict price.

           Institute for Defense Analysis Price Estimate. IDA prepared a “green aircraft”
           price estimate for the Director, Program Analysis and Evaluation and the Office
           of the Under Secretary of Defense for Acquisition, Technology, and Logistics.
                      *            *              *            *               *
                               IDA calculated the “green aircraft” unit price at $**.* million
           ($**.* million for the basic B767-200ER aircraft and $*.* million for enhanced
           features).

           To develop its “green aircraft” price estimate, IDA used estimates from five
           sources. The 5 sources used the limited data available to support their
           estimates and generally referred to some type of discount from the Boeing list
           price. Table 3 shows the computation of the IDA estimate.


                      Table 3.                          *
                                                        *
                                 Source                     Range          Estimate
                                   *                        $**.*           **.*
                                   *                                        **.*
                                   *                                        **.*
                                   *                                        **.*
                                   *                                        **.*

                      Average                                               **.*




                  *                  *              *               *                 *




*
    Predecisional documentation omitted.
                                               18
                  *                  *               *             *                  *


           In this paper, IDA also expalained why it wias difficult to estimate prices for the
           "green aircraft."




                  *                  *               *               *                *




Reliability of Baseline Price
           Baseline Price Could Be Overstated. The Air Force negotiating team did not
           have sufficient information without Boeing cost or pricing data or complete
           information on Boeing prior sales to calculate an accurate price for the “green
           aircraft.” The Air Force stated “By relying on other cost and price data and
           techniques, a fair and reasonable price is represented by a wide range.
           Calculating the best price within this range must reflect the medium risks of the
           effort.” The degree to which prices can differ is evident from the Air Force and
           IDA using a different mix of 767-200ER and 767-400ER aircraft and different
           preferred customer discount rates in their calculations for “green aircraft” prices.
           For example, the IDA analysis showed a $*** million price differential (savings)
           from the Air Force negotiated price for the “green aircraft.” The price differential
           (savings) from the IDA analysis would increase from $*** million to
           $*.** billion, when using a preferred customer discount rate of ** percent to
           ** percent for a significant competitive order.

           Table 4 shows the price differential (savings) from the Air Force negotiated price
           as compared to the IDA “green aircraft” estimate price, and other computed
           “green aircraft” price estimates                       *




*
    Predecisional documentation omitted.
                                                19
            rates             *             Table 4 also shows the commercial aircraft
            mix and aircraft discounts proposed by Boeing, recommended by IDA, and
            “considered negotiated” by the Air Force.


                  Table 4. Commercial Aircraft Discounted Unit Prices ($millions)
                             Discount 767-200ER           Commercial Aircraft Mix         767-400ER
               Estimates     (Percent)  100/0           75/25    50/50        25/75         0/100
                                0.0     106.0           112.5    119.0        125.5         132.0
                               30.0      74.2            78.8     83.3         87.9          92.4
                               32.5      71.6            75.9     80.3         84.7          89.1
                               32.3      71.8            76.2     80.6         85.0          89.4
                               35.0      68.9            73.1     77.4         81.6          85.8
                               36.0      67.8            72.0     76.2         80.3          84.5
                               40.0      63.6            67.5     71.4         75.3          79.2
                               45.0      58.3            61.9     65.5         69.0          72.6
                               50.0      53.0            56.3     59.5         62.8          66.0

                                                      30-35 percent - Negotiated Order
                                                      35-40 percent - Competitive Order
                                                      45-50 percent - “Competitive Launch” Order

                            *              *                *          *              *


                            *              *                *          *              *
                            *              *                *          *              *

                            *              *                *          *              *




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       20
            Table 5 shows the difference (savings) from the Air Force “considered
            negotiated” price, IDA price, and other calculations based on various customer
            discounts.


                  Table 5. Comparison of Boeing Proposal and Air Force Considered
                          Negotiated Price with Other Calculations ($millions)
                                  Discount        Aircraft Unit Prices        Total Price
                                  (percent)     Basic    Other      Final    (100 aircraft)      *
                 *
                                   **.*        $ **.*                $**.*    $*,***.*
                 *
                                      **.*        **.*        -*.*    **.*      *,***.*       $ ***.*

                                  *
                *                     32.5        71.6        *.*     **.*      *,***.*         530.0
              767-200ER               35.0        68.9        *.*     **.*      *,***.*         800.0
              767-200ER               40.0        63.6        *.*     **.*      *,***.*       1,330.0
              767-200ER               45.0        58.3        *.*     **.*      *,***.*       1,860.0
              767-200ER               50.0        53.0        *.*     **.*      *,***.*       2,390.0

            Commercial Sales. The Boeing Web site shows 941 orders for Boeing 767
            model aircraft to 66 different customers since 1978, or an average purchase of
            14 aircraft per customer. The single largest customer, Delta Air Lines, procured
            117 aircraft on 6 different orders from 1978 to 1997. Consequently, the Air Force
            order for 100 Boeing KC-767A Tanker aircraft and the potential for the Air Force
            to order several hundred additional aircraft should entitle the Air Force to a higher
            preferred customer discount rate than was included in the Air Force’s negotiated
            price for the “green aircraft.”

Recommendations, Management Comments, and Audit
  Response
            A.2. We recommend that the Under Secretary of Defense for Acquisition,
            Technology, and Logistics:

                    a. Require Boeing to provide cost or pricing data for the Boeing
            767-200ER aircraft unless it receives a commercial item exception because it
            provided information on the prices of same or similar items that had been
            sold in similar quantities.

            Acting Under Secretary of Defense for Acquisition, Technology, and
            Logistics Comments. The Acting Under Secretary stated that the program was
            currently under suspension pending the outcome of ongoing studies of the
            program and that he would like to hold his comments until these studies are
            completed.

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                         21
            Air Force Comments. Although not required to comment, the Assistant
            Secretary of the Air Force (Acquisition) did not concur, stating that the report
            erroneously suggested that a commercial item exception was tied to whether or
            not the item’s manufacturer provided information on the prices of the same or
            similar items that had been sold in similar quantities.

            Audit Response. The Assistant Secretary is disregarding guidance from the
            Director, Defense Procurement and Acquisition Policy to support the
            requirements in the Federal Acquisition Streamlining Act of 1994 relating to
            obtaining cost or pricing data for procurements of commercial items that are not
            based on adequate competition. The guidance provides that a contracting officer
            may require cost or pricing data if unable to obtain information on prices at which
            the same item or similar items have been sold in the commercial market adequate
            for evaluating through price analysis the reasonableness of the price of the
            contract. The guidance from the Director reminds contracting professionals to
            include the applicable FAR clause in solicitations for sole-source commercial
            items.

                 b. Negotiate prices for engines directly with the engine
            manufacturers.

            Acting Under Secretary of Defense for Acquisition, Technology, and
            Logistics Comments. The Acting Under Secretary stated that the program was
            currently under suspension pending the outcome of ongoing studies of the
            program and that he would like to hold his comments until these studies are
            completed.

            Air Force Comments. Although not required to comment, the Assistant
            Secretary of the Air Force (Acquisition) did not concur, stating that negotiating
            for the engines directly with the intent to provide them as Government Furnished
            Property overlooks the benefits of acquiring them through Boeing and
            complicates the commercial acquisition.

            Audit Response. Negotiating engine prices with the engine manufacturers, as
            done by commercial customers, is more complicated than procuring the engines
            through Boeing. However, the Air Force will need to learn to be able to leverage
            engine procurements and take advantage of the competitive commercial engine
            market and associated warranties.

Issue A-3. Non-Recurring (Development) Costs
   ($*.* Billion)
            Conclusion and Results Summary. The Air Force negotiating team relied on
            data that Boeing provided to the Italian military for the GTTA with other
            assumptions for testing and certification and then added profit and financing costs
            to support the Air Force $*** million share for GTTA development. The
            negotiating team used cost estimating relationships to other programs, Boeing
            engineering estimates, and other budget data to calculate Air Force specific

*
    Cotnractor proprietary and negotiation sensitive data omitted.
                                                       22
            development costs of $*** million. The data that the negotiating team used was
            not sufficient to establish a fixed-price baseline of $*.* billion for development of
            the 100 tanker aircraft.

            Criteria.
                    *                *              *            *             *
                        provide information on the proposed development costs.

Global Tanker Transport Aircraft Development Costs
            The Air Force negotiating team did not receive a formal proposal from Boeing to
            support the initial $*** million development price for the GTTA but relied on a
            review of Boeing pricing support provided to the Italian military. The negotiating
            team basically accepted the proposed $*** million GTTA development price and
            then added additional amounts for risk, Boeing corporate financing, profit, and
            other Air Force specific development effort.

            GTTA Market.            *             *          *       *           *
                                                                     Prospective GTTA
            sales: 4 tankers each to Italy and Japan, 100 tankers to the United States,
            21 tankers to Britain, * tankers to Australia, and * tankers to the United Arab
            Emirates. The GTTA sales to Britain will not materialize because as of
            January 23, 2004, Britain is set to award a $24 billion contract to Airbus for
            military tankers.

            Air Force Analysis of GTTA Development Costs. The Air Force negotiating
            team reviewed the GTTA development costs from the Italian acquisition that
            supported the original Boeing proposal price of $*** million. The negotiating
            team adjusted the original proposal price based on updated vendor information,
            requirement changes, and additional modifications to the tanker. As a result, the
            negotiating team increased the GTTA development costs to $***.* million, of
            which $*** million was to be paid by the Air Force.

            In an attempt to support price reasonableness, the negotiating team assessed
            development costs for the KC-10 aircraft and the Advanced Tanker Cargo
            Aircraft. From their assessment of KC-10 aircraft development costs, the
            negotiating team used proposed hourly information with loaded 2002 Boeing
            labor wrap rates for engineering and manufacturing to support a GTTA price in
            the range of $*** million to $*** million. The negotiating team’s assessment of
            development costs for the Advanced Tanker Cargo Aircraft supported a GTTA
            development cost estimate in the range of $*** million to $*** million.

            To further justify the $*** million GTTA development costs, the negotiating team
            used various methodologies and technical experts. The Air Force negotiating
            team based much of the development effort on drawing counts which use catalog
            factors (hours per drawing) and cost estimating relationships applied against those
            hours. The negotiating team used various Internal Rates of Return, ranging from
            $*** million to $* billion, ultimately settling on a conservative 9 percent Internal
            Rate of Return to assess Boeing’s internal corporate financing.

*
    Contractor proprietary and predecisional data omitted.
                                                       23
            Table 6 identifies the Air Force negotiating team GTTA development costs.


                                Table 6. GTTA Development Costs ($million)
                  Cost Element            Amount                     Description
              Manufacturing               $ **.**                        *
              Interdivisional Work          **.**                       *
                Authorization

              Avionics                       **.**                       *
              Mechanical                     **.**                       *
              Structures                     **.**                       *
              Integrated Logistics           **.**                       *
                Support
              Certification and Test        ***.**                       *


              Systems Analysis               **.**                       *

              Program Management             **.**                       *

              Subtotal GTTA               $***.**
              Profit                        **.**                        *
              Financing                    ***.**                        *
                           Total          $***.**

            The Air Force stated that if Boeing had provided cost or pricing data, the
            Air Force negotiating team could have significantly reduced risk in assessing a
            fair and reasonable price for the Air Force share of GTTA development costs.
            Although, the Air Force did receive pricing data for Boeing’s original proposal of
            $*** million for GTTA development costs. However, the Air Force stated, “it
            omitted many relevant test risks, profit, and financing without being wholly
            consistent with the Italian buildup, which questions the viability of the
            methodology.” The negotiating team added $*** million of test risk because the
            Air Force had recently experienced this same type of uncertainty in getting the
            C-130J certified by the Federal Aviation Administration.

Air Force Development Cost
            Air Force Specific Development Costs. Boeing originally proposed
            $*** million for Air Force-specific development costs. The Air Force negotiating
            team made adjustments to the original proposal price to account for requirement


*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       24
            changes and additional tanker modifications. As a result, the negotiating team
            increased the price for Air Force-specific development costs to $***.* million.

            Table 7 shows the prices of the Air Force-specific development elements and
            costs.


                       Table 7. Air Force-specific Development Elements
                                     and Prices ($millions)
                               Element                       Amount
                       Auxiliary Tanks                      $ **.**
                       Miscellaneous                           **.**
                       Avionics                              ***.**
                       Link 16                               ***.**
                       Requirements Additions                ***.**
                        Total                               $***.**

            Boeing based its proposed auxiliary tanks development prices on estimates of
            drawing counts and cost estimating relationships derived from the Air Borne
            Laser program and other programs. The Air Force negotiating team took no
            exception to this methodology based on a general review by Air Force engineers
            and conversations with the Defense Contract Audit Agency. For the
            miscellaneous element, the negotiating team performed a technical assessment to
            measure process improvements and painting requirements. For the avionics
            element, the Air Force engineers concurred with Boeing engineer estimates. In
            addition, the negotiating team used Boeing quotes from Boeing suppliers to
            support avionics equipment prices. To determine the Link 16 (software for secure
            voice and data communications) prices, the negotiating team took the midpoint of
            two averages of budget estimates. The first average included Link 16 budget
            estimates for the F-22, the F-15, the F-16, the B-2, and the B-1 programs. The
            second average included Link 16 budget estimates for just the F-16 and B-2
            programs, as the most similar. For the operational requirements document
            additions element, the negotiating team made numerous adjustments based on
            engineer estimates, Boeing quotes, and risk abatement.

Fixed-Price Development Efforts
            Past experience has shown that Government costs can and have increased for
            fixed-price development efforts. A May 26, 1999, decision by the United States
            Court of Appeals for the Federal Circuit, American Telephone and Telegraph
            et al. V. United States, 177F.3d 1368, 1370-1371 (Fed. Cir. 1999) states,
                         Concern about the use of fixed price contracts for research and
                         development phases pervades defense procurement.            In 1971,
                         Department of Defense Directive (DoDD) 5000.1 stated that ‘[I]t is not
                         possible to determine the precise production cost of a new complex
                         defense system before it is developed,’ and established the policy of
                         using cost reimbursement price terms for procurement of research and

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       25
                         development. . . . The Federal Acquisition Regulations governing R&D
                         contracts also embodied this policy. . . in the 1980s, despite these
                         policy directives, the Navy returned to fixed price contracting for R&D.

                         . . . This in turn led to congressional investigations and hearings. An
                         investigation conducted by the House Appropriations Committee
                         concluded that for the development phases of new technologies, the
                         Navy’s use of fixed price contracting resulted in program delays, cost
                         overruns, contractor claims, nonparticipation, and litigation.

            Further, as in the case of fixed-price contracts, fixing the Government’s
            investment does not guarantee that the Government’s cost will not increase if the
            contractors request relief from Government requirements or additional funding for
            the development effort. In addition, the Air Force-specific development price will
            continue to increase because of requirement changes and additional modifications
            that the Air Force plans for the future.

Recommendations, Management Comments, and Audit
  Response
            A.3. We recommend that the Under Secretary of Defense for Acquisition,
            Technology, and Logistics not use a fixed-price contract for development of
            the Boeing KC-767A Tanker aircraft and obtain cost or pricing data from
            Boeing to determine fair and reasonable prices for the Boeing 767A Tanker
            aircraft development work.

            Acting Under Secretary of Defense for Acquisition, Technology, and
            Logistics Comments. The Acting Under Secretary stated that the program was
            currently under suspension pending the outcome of ongoing studies of the
            program and that he would like to hold his comments until these studies are
            completed.

            Air Force Comments. Although not required to comment, the Assistant
            Secretary of the Air Force (Acquisition) did not concur, stating the report
            mischaracterizes non-recurring effort as development effort. Much of the
            development has taken place over the last decade by Boeing to make available a
            tanker version of the Boeing 767 aircraft. Also, the effort defined as high-risk
            development is better defined as integration of existing commercial technology
            and much of the non-recurring price is profit, financing, and Federal Aviation
            Administration certification.

            Audit Response. In addition to the development efforts described in the report,
            the contract specifically identifies a fixed cost that will be charged to the
            Government of $*** million that represents the “Contractor’s investment in
            developing the 767 GTTA.” Boeing has already expensed the GTTA
            fixed-development cost included in the contract. The Boeing President and CEO
            stated on February 20, 2004, that Boeing was slowing its “development efforts”
            on the version of the 767 designed for the Air Force. We have not used the term
            “high-risk,” in describing the development effort. We agree that much of the
            development effort price represents profit and financing.

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       26
Issue A-4. Aircraft Modification Costs ($*.* Billion)
            Conclusion and Results Summary. The Air Force negotiating team used
            questionable comparisons of modifications costs for other programs, engineering
            estimates, and vendor quotes with a decrement factor provided by Boeing without
            determining the reliability of those estimates or quotes to establish a fixed-price
            baseline of $*.* billion for the modification of 100 “green aircraft.” The data that
            the negotiating team used were not sufficient to establish the modification
            baseline price, which could be overstated by at least $*** million based on an
            analysis performed by IDA. The magnitude of the military modifications obliges
            the Air Force to request Congress to provide the statutory authority required by
            Department of Defense Appropriations Act for FY 2002 to modify general
            purpose Boeing 767 aircraft into a military tanker configuration.

            Criteria.                                 *
            FAR Part 12, “Acquisition of Commercial Items” and Part 15, “Contracting by
            Negotiation”; and                         *
                                          provide information on the proposed modification
            costs and acquisition guidance.

Negotiation of Modification Price and Justification
            Tanker Negotiations. The Air Force and Boeing began negotiations in
            April 2002 that were based exclusively on the overall price for the tanker aircraft.
            Initially, Boeing offered the Air Force a price per tanker aircraft of $*** million
            and indicated that the tanker normally marketed for $*** million. During
            negotiations, the Air Force negotiating team accepted Boeing statements about
            quotes, nondisclosure agreements, and proposed prices. In July 2002, the
            negotiating team agreed to $***.* million price for the tanker but required Boeing
            to include the following items at no charge: Link 16 capability, warranty,
            engineering services of up to $** million, and financing assistance. In
            March 2003, the Office of the Secretary of Defense requested that IDA review the
            proposed purchase price for the tanker. In May 2003, using the purchase price
            estimate developed by IDA as leverage, the Assistant Secretary of the Air Force
            for Acquisition was able to lower Boeing’s tanker price to $*** million, a total
            difference of about $*.* billion for 100 aircraft. However, to obtain the lower
            price, the negotiating team deleted $*.** billion of requirements for the
            100 aircraft. For each individual aircraft, the following requirements were
            deleted; convertible combination ($*.* million), Boeing financing assistance
            ($* million), and the lease market development credit ($*.* million), and reduced
            the number of auxiliary fuel tanks ($*.* million).

            Military-Unique Modifications. Air Force-required modifications to the Boeing
            commercial aircraft were not minor based on the magnitude of the modifications
            and the changed purpose and function of the aircraft. The Air Force-required
            modifications amounted to **.* percent of the base aircraft price. Further, the


*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       27
aircraft’s function was changed from that of transporting people and cargo to that
of a tanker aircraft. Specifically, the Air Force specified military-unique
modifications to the “green aircraft” such as the installation of auxiliary fuel
tanks, a refueling boom, a refueling receptacle, more powerful engine generators,
and heavier wiring to accommodate military-unique requirements. Other
significant modifications that the Air Force required included the installation of a
hose drogue unit which allows for aerial refueling, the use of Link 16 software for
secure voice and data communications, and a convertible modification that allows
the conversion of the tanker configuration to a passenger or freighter
configuration.

Fair and Reasonable Prices. FAR Part 15, “Contracting by Negotiation,”
requires the contracting officer to purchase supplies and services from responsible
sources at fair and reasonable prices. For commercial items, FAR 15.403-3,
“Requiring Information Other Than Cost or Pricing Data,” states:
           If the contracting officer cannot determine whether an offered price is
           fair and reasonable, even after obtaining additional information from
           sources other than the offeror, then the contracting officer must require
           the offeror to submit information other than cost or pricing data to
           support further analysis.

We believe the contracting officer did not have sufficient information to
determine fair and reasonable prices. The Air Force stated:
           FAR Part 15.403-4(a)(1) states “The Contracting Officer must obtain
           cost or pricing data only if the contracting officer concludes that none
           of the exceptions in 15.403-1(b) applies.” FAR Part 15.403-1(b)
           identifies 5 exceptions, number 3 is “commercial item.” The PCO
           [procuring contracting officer] has determined that this acquisition is a
           commercial item. On this basis, the Air Force negotiating team did
           not obtain cost or pricing data.        FAR Part 15.402(a) states “the
           contracting officer must not obtain more information than necessary …
           must generally use the following order of precedence…information
           within the Government, information obtained from sources other than
           the offeror, and if necessary information from the offeror…such offeror
           information shall include at a minimum appropriate information on the
           prices at which the same or similar items have been sold previously
           …”. FAR Part 15.408 states “Considering the hierarchy at 15.402, the
           contracting officer may insert the provision at 52.215-20…in
           solicitations …” The contracting officer did not include the provision in
           the RFI because it was not a solicitation. The Air Force Negotiation
           Team (AFNT) followed the intent of the FAR as identified above,
           although they could not obtain sales data as prescribed by FAR Part
           15.402 because Boeing and the buyers have a legal agreement that
           neither party may disclose prices and terms of individual acquisitions.
           The AFNT attempted to obtain vanilla information but Boeing asserted
           the market was sufficiently small that it would still violate the intent of
           the agreements. Even if the Air Force was successful in obtaining
           vanilla data it would then have no basis to validate it because of the
           legal constraints in the industry.




                                          28
            Price Analysis Using Top-level Program Comparison. The Air Force
            negotiating team considered a top-level assessment and detailed assessment. The
            top-level assessment considered the overall price of the commercial tanker
            modification as a function of the base aircraft price. The negotiating team
            reviewed ** other aircraft programs to determine their percentage of required
            modification prices as a function of the base aircraft price. The ** programs were
            assigned a weight based upon the Air Force negotiating team’s assessment of each
            data-point’s contribution. The negotiating team analysis showed that
            modifications priced as a function of the base aircraft price varied from
            **.* percent to **.* percent, had an average of **.* percent, and a weighted
            average of **.* percent. The negotiating team calculated the modifications price
            for the Boeing KC-767A Tanker aircraft at **.* percent (our calculation
            **.* percent)4 of the base aircraft price observing that the most similar effort is
            the KDC-10 tanker at ** percent. The Air Force stated that a top-level approach
            provides a price check and framework for the detailed approach explained below.

            The Air Force negotiating team top-level price analysis for other programs did not
            adequately determine that Boeing modification prices for the Boeing KC-767A
            Tanker aircraft were fair and reasonable. The price of modifications for the
            Boeing KC-767A Tanker aircraft (**.* percent) were significantly higher than the
            average of **.* percent and the weighted average of **.* percent of the base
            aircraft price for the ** other programs examined. Further, the negotiating team
            included questionable programs in the analysis and no support was shown for the
            weights assigned to each program. For example, ** percent of the weight factor
            for this analysis was assigned to the KC-10 (** percent) and the KC-10A
            (** percent). In addition, ** percent of the weight factor was assigned to different
            configurations (J, T, and F) of the C-130 aircraft.

            Price Analysis of 14 Modification Kits and Installation Effort. The Air Force
            negotiating team also used a more detailed approach to establish prices that
            involved an assessment of 14 modification kits and their installation. Boeing
            provided estimates of the prices for the 14 kits and installation costs based on its
            expertise (engineering estimates), comparisons to similar efforts, and vendor
            quotes. For the most part, Boeing’s price estimates did not break out prices for
            material and labor. Boeing priced the kits and installation effort on an average
            basis, which negated the use of learning curves because the average price will
            remain the same.

            The Air Force negotiating team established their own prices for the 14 kits and
            installation effort and broke out those amounts into material and labor. The
            negotiating team determined the average unit cost by estimating the price of the
            first kit installation effort and applying learning curves.

                    Kits. Boeing proposed a mid-point learning curve representing average
            cost for material and labor for each of the 14 kit modifications. The Air Force
            negotiating team did not agree with this methodology and instead used its


*
    Contractor proprietary and negotiation sensitive data omitted.
4
    Modification to the “green aircraft” to develop the Boeing 767A Tanker aircraft cost **.* percent of the
    base commercial aircraft price ($*.* billion [development and modification]/$*.* billion [“green
    aircraft”]).
                                                       29
            expertise with other programs to establish the cost of the first unit and apply
            learning curves to determine average unit cost. The Air Force stated that the
            negotiating team used a ** percent material learning curve based on similarity
            with other programs and reflects leadership experience with other major Air Force
            programs. The negotiating team used an ** percent labor learning curve based on
            a weighted assessment of ** programs to include the C-17, KC-135, KC-10, F-15,
            C-130 AMP, and a RAND study.

                    Installation Effort. As suggested by Boeing, the Air Force negotiating
            team based their installation price assessments on prices for the Air Borne Laser
            Program. The negotiating team engineers concluded that the Air Borne Laser
            Program reflected a current, comprehensive, and complex installation of technical
            provisions on a par with a large type of modification effort similar to the Boeing
            KC-767A Tanker aircraft. The Air Force also contacted DCAA and the Defense
            Contract Management Agency to substantiate the use and application of proposed
            cost estimating relationships.

            The Air Force negotiating team methodology of assessing the prices of the 14 kit
            modifications and installation effort did not adequately determine the reliability of
            Boeing’s engineering estimates and vendor quotes.

            The Air Force price analysis for the 14 modifications is shown in table 8.


                     Table 8. Air Force Price Analysis of Modification Prices ($ millions)
                                              First Unit                                             Total Price
                                            Assessment                        Unit Price                 for
             Modification Type             *          *                *            *      Total    100 Aircraft
             Convertible                 $**.** $**.**               $ *.**    $ *.**      $**.**     $*,***
             Auxiliary Tanks              **.**        *.**            *.**      *.**        *.**        ***
             Boom                          *.**        *.**            *.**      *.**        *.**        ***
             Requirement Changes           *.**        *.**            *.**      *.**        *.**         ***
             Hose Drogue Unit              *.**        *.**            *.**      *.**        *.**        ***
             Avionics                      *.**        *.**            *.**      *.**        *.**        ***
             Core tanker                     .**       *.**             .**      *.**        *.**        ***
             Receiver                      *.**        *.**             .**      *.**        *.**        ***
             Link 16                       *.**          .**            .**        .**        .**          **
             Aerial Refueling
                Lighting                     .**         .**            .**        .**        .**         **
             Crew rest                       .**         .**            .**        .**        .**         **
             Seats                           .**         .**            .**        .**        .**         **
             Situational Awareness
                Camera                      .**         .**             .**       .**         .**        **
             Interphone                     .**         .**             .**       .**         .**        **
                Total                    $**.**      $**.**          $**.**    $**.**      $**.**    $*,***

            IDA Cost Estimates for the 14 Modification Kits and Installation Effort. IDA
            established a cost estimate for each of the 14 modification kits and installation

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       30
            effort. IDA estimated that the 14 modifications would total approximately
            $*.** billion. IDA estimated prices that were lower than the Air Force
            assessments for * of the 14 modifications. We adjusted the IDA cost estimate by
            $*** million for the combination portion of the convertible modification that was
            deleted during final contract negotiations. Accordingly, the IDA adjusted cost
            estimate of $*.** billion was $*** million less than the Air Force negotiated price
            for the 14 modifications.

            Table 9 shows the difference between the Air Force negotiating team price and
            the IDA cost estimates for the 14 modifications.


                Table 9. Comparison of Air Force Price and IDA Cost Estimates ($millions)
                                                                                       Difference
                                                Air Force    IDA Cost         Per        For 100
                     Modification                 Price       Estimate      Aircraft     Aircraft       Percent
            Convertible                          $**.**        $ *.**1       $*.**       $ ***           ***.*
            Crew rest                                .**          .**           .**          **           **.*
            Interphone                               .**          .**           .**           *           **.*
            Core tanker                            *.**          *.**           .**          **           **.*
            Auxiliary Tanks                        *.**          *.**         *.**         ***            **.*
            Requirements Changes                   *.**          *.**           .**          **           **.*
            Receiver                               *.**          *.**           .**          **           **.*
            Avionics                               *.**          *.**           .**          **           **.*
            Aerial Refueling Lighting                .**          .**           .**           *           **.*
            Seats                                    .**          .**          (.**)         (*)         (**.*)
            Boom                                   *.**          *.**        (*.**)       (***)          (**.*)
            Hose Drogue Unit                       *.**          *.**          (.**)        (**)         (**.*)
            Link 16                                  .**          .**          (.**)        (**)         (**.*)
            Situational Awareness Camera             .**          .**          (.**)        (**)         (**.*)
              Total                              $**.**       $**.**         $*.**       $ ***            **.*
            1

                           *                *                 *                *                    *




Statutory Authority for Modification
            The Department of Defense Appropriations Act for FY 2002 authorizes the
            Air Force to establish a multiyear lease pilot program for the general purpose
            Boeing 767 commercially configured aircraft. However, the Department of
            Defense Appropriations Act for FY 2002 did not authorize the Air Force to have
            Boeing modify its commercially configured aircraft as follows.
                         (d) No lease entered into under this authority shall provide for-



*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       31
           (1) the modification of the general purpose aircraft from the
           commercial configuration, unless and until separate authority for
           such conversion is enacted and only to the extent budget authority is
           provided in advance in appropriations Acts for that purpose; or
           [emphasis added]

See Appendix D for the complete text of the Multiyear Aircraft Lease Pilot
Program provisions in the Department of Defense Appropriations Act for
FY 2002.

The Air Force stated that Section 135 of the Department Defense Authorization
Act for FY 2004 authorized the Air Force to lease no more than 20 “tanker
aircraft” and to purchase no more than 80 “tanker aircraft” under a multiyear
procurement. The legislative history makes it clear that Congress was referring to
the same type of aircraft identified in Section 8159 of the Department of Defense
Appropriations Act for FY 2002.

In response to a request from the Office of the Inspector General of the
Department of Defense, the Associate General Counsel (Acquisition and
Logistics) of the Department of Defense provided the following comments
regarding whether the KC-767 aircraft meets the commercial item definition at
Section 403 of Title 41 United States code and whether the Air Force has a
reasonable basis for proceeding under Section 8159 of the Department of Defense
Appropriations Act for FY 2002:
           Although the KC-767 aircraft may not qualify as a commercial item
           under section 403 of title 41, United States Code, and Part 12 of the
           FAR, we believe that the aircraft is a general-purpose aircraft in
           commercial configuration, as required in section 8159 of the
           Department of Defense Appropriations Act, 2002. The KC-767 is a
           general-purpose aircraft because it will be capable of performing
           missions other than aerial refueling (for example, carrying passengers
           and cargo). The requirement that the aircraft be in commercial
           configuration presents a more complex question. On balance, however,
           we believe that the aircraft satisfies that requirement. The aircraft will
           have value in the secondary market, even if Boeing must remove the
           tanker modifications in order to sell it. The international market for
           tankers enhances the aircraft’s value, and reduces the government’s
           financial risk, in the event that the Air Force does not receive statutory
           authority to purchase the aircraft at the end of the lease. The existence
           of a secondary market is sufficient to establish that 767 tankers are in
           commercial configuration for purposes of section 8159.

OMB Circular No. A-11 defines a general-purpose asset as not being built
specifically for Government purposes or to unique Government-specifications.
           The asset is a general-purpose asset rather than being for special
           purpose of the government and is not built to the unique specification
           of the government as lessee.

We question whether the asset is a general-purpose asset as defined by OMB
Circular No. A-11, due to the significant military unique modifications to convert




                                         32
    the commercial aircraft into a military tanker. The primary purpose of the
    aircraft, as stated in the Air Force Acquisition Plan is that of a military tanker.

    We also question whether a secondary market exists for the Boeing
    KC-767A Tanker aircraft. In October 2001, Boeing stated,
               *            *            *              *             *
                                  Boeing gave the following reasons:

       •   A significant portion of the tanker value is in the tanker modification,
           which would have no value in the used 767 freighter market.

       •   The modification adds significant weight to the aircraft making it less
           efficient to operate in the commercial environment. There would be a cost
           to de-modify the aircraft back to a commercial configuration, thereby
           reducing any commercial value.

       •   Once the 767 is modified into a tanker, they are considered military
           articles by the United States State Department even if de-modified. As
           military articles the aircraft would have restrictions on sale in the
           international market.

Recommendations, Management Comments, and Audit
  Response
    A.4. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           a. Not use a fixed-price contract for modification of the Boeing
    KC-767A Tanker aircraft and obtain cost or pricing data from Boeing to
    determine a fair and reasonable price for the Boeing KC-767A Tanker
    aircraft modification work.

    Acting Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Acting Under Secretary stated that the program was
    currently under suspension pending the outcome of ongoing studies of the
    program and that he would like to hold his comments until these studies are
    completed.

    Air Force Comments. Although not required to comment, the Assistant
    Secretary of the Air Force (Acquisition) did not concur, stating the use of a
    fixed-price contract is consistent with the risks of the KC-767 commercial item
    acquisition.

    Audit Response. There are no KC-767A tanker aircraft in the commercial
    market and the Air Force is the only customer. Consequently, there is no
    commercial market to establish prices for the forces of supply and demand where
    the market provides the oversight. As stated in the report, the Air Force did not
    have sufficient information to effectively price the aircraft modification and
    establish an accurate baseline price for this procurement and any future
    procurement.

                                          33
           b. Request statutory authority required by the Department of
    Defense Appropriations Act for FY 2002 to modify general purpose Boeing
    767 aircraft (leased) into a military tanker configuration.

    Acting Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Acting Under Secretary stated that the program was
    currently under suspension pending the outcome of ongoing studies of the
    program and that he would like to hold his comments until these studies are
    completed.

    Air Force Comments. Although not required to comment, the Assistant
    Secretary of the Air Force (Acquisition) did not concur, stating the Defense
    Appropriation Act for 2002, the National Defense Authorization Act for FY 2004,
    and the accompanying legislative history make clear that Congress was referring
    to aerial tankers in its reference to Boeing 767 aircraft in commercial
    configuration. The purpose of the provision was to prevent the tanker aircraft
    from being modified beyond their commercial configuration without
    congressional authorization.

    Audit Response. The military-unique modifications made to the Boeing
    767 aircraft in commercial configuration significantly modify the commercial
    767 aircraft into a military tanker and there will be little if any residual value for
    the leased tanker aircraft on the commercial market. Consequently, congressional
    authorization for the modification is required.

Issue A-5. Limitation of Earnings and Termination
   Clauses
    Conclusion and Results Summary. The Air Force negotiating team attempted
    to limit Boeing’s earnings to 15 percent by including a limitation of earnings
    clause in the contract. To achieve this limitation, however, the Air Force
    negotiating team wrote the provision to exclude Government audit rights and use
    Boeing’s auditor to provide an attestation on profit earned. The Inspector General
    alone has the statutory authority in the Department to determine when it is
    appropriate to use non-Federal auditors. The Defense Contract Audit Agency is
    the appropriate audit entity for the requisite audit services. Further, the clause
    allowed Boeing to include questionable items in its costs, such as cost-reduction
    initiative savings and engine manufacturer credits or rebates, and concealed
    contract costs from the Government with only a final accounting by Boeing’s
    auditor after the last aircraft is delivered in FY 2015. Our office and the DCAA
    find the clause to be highly detrimental to the fiduciary interests of the DoD and it
    provides no true accountability for the expenditure of DoD funds. The clause also
    appears to have created a prohibited cost-plus-a-percentage-of-cost system of
    contracting. Also, the termination for convenience clause in the contract does not
    provide sufficient controls or audit rights to adequately determine the
    Government’s termination liability and to prevent a possible Anti-Deficiency Act
    violation.




                                         34
    Criteria. Clauses C-016, “Aircraft Quantity;” C-024, “Anti-Deficiency Act;”
    C-103, “Termination for Convenience – Pre-Construction Aircraft;” and C-244,
    “Limitation of Earnings,” of Contract Number FA8625-04-C-6453; DCAA
    comments of October 17, 2003 and January 29, 2004; Inspector General Act of
    1978; DoD Directives 5105.36, “Defense Contract Audit Agency (DCAA),” and
    7600.2, “Audit Policies;” and Office of the Inspector General of the Department
    of Defense Memorandums on “Contracting for Audit Services,” March 28, 1996
    and March 20, 2002; and Section 2306(a) of title 10, United States Code, “Kinds
    of Contracts” identify contract clauses and provide guidance on audit
    responsibility.

Government Audit Rights
    Contract Clause. Clause C-224, “Limitation of Earnings,” of the Boeing
    KC-767A Tanker Program contract FA8625-04-C-6453 attempts to limit the
    earnings to 15 percent that are associated with Boeing Integrated Defense
    Systems and Boeing Commercial Airplanes for development, production, and
    modification of 100 aircraft. However, the Air Force negotiating team wrote the
    following provision in the clause that limits oversight of Boeing’s earnings to an
    independent third party auditor hired by Boeing while specifically excluding all
    government audit agencies.
               Examination rights will be solely limited to the Contractor’s
               independent auditor and will not extend to any governmental audit
               agency.

    Inspector General Authority. Section 8(c)(2) of Title 5, Appendix “Inspector
    General Act of 1978” authorizes the Inspector General of the Department of
    Defense to conduct and supervise audits and investigations relating to Defense
    programs and operations. We believe the audit clause excluding Government
    audit rights inappropriately attempts to limit the statutory authority of the
    Inspector General.

    Use of Non-Federal Auditors. The Inspector General has the sole authority in
    the Department to determine when it is appropriate to use non-Federal auditors.
    Section 4(b)(1) of Title 5 Appendix states that:
               Each Inspector General shall—

                - establish guidelines for determining when it shall be appropriate to
               use non-Federal auditors; and

                - take appropriate steps to assure that any work performed by non-
               Federal auditors complies with the standards established by the
               Comptroller General . . .

    Further, DoD Directive 7600.2, states that DoD Components shall not contract for
    audit services unless expertise does not exist or temporary audit assistance is
    required. Specifically,



                                            35
               The DoD Components shall not contract for audit services, as
               defined in OMB (Office of Management and Budget) Circular No. A-
               73, Chapter 2 (reference (d)), unless expertise required to perform the
               audit is not available within the DoD audit organization or temporary
               audit assistance is required to meet audit reporting requirements
               mandated by law or DoD regulation. … No DoD Component shall
               contract for quality assurance reviews of internal audit, internal
               review, or contract audit organizations without the prior approval
               of the OIG, DoD… [emphasis added].

    In addition, the Inspector General of the Department of Defense issued policy
    memorandums in March 1996 and March 2002 on “Contracting for Audit
    Services,” which reiterated that solicitations for audit services from outside
    sources are to be submitted to the Inspector General for review before the release
    to prospective bidders.

    Previous Air Force Agreement on OIG Approval. The Air Force previously
    agreed to either use DCAA for required audit services or seek approval from
    Office of the Inspector General, as required, as part of the resolution decision
    relating to the audit of the “Evolved Expendable Launch Vehicle Program Other
    Transactions,” Report No. D-2000-070, December 30, 1999. In the resolution
    memorandum, the Air Force stated:
               The Air Force will negotiate with both contractors to modify their
               respective ILS [initial launch services] contracts, to include provisions
               for the employment of the Defense Contract Audit Agency (DCAA) in
               the event an auditor is actually required to support implementation of
               the Most Favored Customer clause. If an audit is required, and
               agreement cannot be reached with the contractors on the use of DCAA,
               the Air Force will comply with the requirements of DoD Directive
               7600.2, and seek appropriate OIG approval, as required.

    In reference to the contract for the Boeing KC-767A Tanker aircraft, Air Force
    program officials did not contact the Office of the Inspector General about the use
    of non-Federal auditors or the audit clause as required.

DCAA Audit Responsibility
    DCAA Audit Assistance. The Air Force negotiating team obtained only limited
    assistance from DCAA in the lease analysis or negotiations for the Boeing
    KC-767A Tanker Program even though DCAA has the resources and expertise to
    lend invaluable assistance to contracting officials in their efforts to determine
    price reasonableness. DoD Directive 5105.36 states that DCAA is responsible for
    performing contract audits and providing accounting and financial advisory
    services regarding contracts and subcontracts to all DoD Components responsible
    for procurement and contract administration. DCAA also has highly qualified and
    experienced auditors familiar with accounting practices and systems used to
    accumulate, record, report, and bill costs against Government contracts at most
    Boeing locations. Accordingly, DCAA is the appropriate entity and in the best




                                             36
            position to provide the requisite audit services for the Boeing KC-767A Tanker
            aircraft contracts.

            DCAA Review of Limitation of Earnings Clause. The Air Force negotiating
            team did ask the DCAA to review the limitation of earnings clause. On
            October 17, 2003, DCAA sent a memorandum to the contracting officer that
            concluded that it was not advisable for the Air Force to accept the risk of
            excluding all Government audit rights for this clause and recommended that the
            clause be rewritten.



                   *                    *                    *         *                 *



Questionable Cost Items and Concealed Contract Costs
            Our office and the DCAA find that the limitation of earnings clause to be highly
            detrimental to the fiduciary interests of the DoD, and the clause provided no true
            accountability for the expenditure of DoD funds. The only effective means to
            protect the Governments interests and limit the risk of DoD paying Boeing
            excessive prices and profits is to provide transparency into contractor costs by
            using either cost or fixed-price incentive type contracts for the Boeing KC-767A
            Tanker Program where DCAA monitors Boeing’s actual costs.

            Questionable Cost Items. The Limitation of Earnings clause also allowed
            Boeing to include questionable items in its costs, such as cost reduction initiative
            savings and engine manufacturer credits or rebates. The Air Force contracting
            officer stated that the intention of the clause was to allow the Government to
            receive the savings from cost reduction initiatives and engine rebates; however,
            we do not see how the following clause as written provides those savings to the
            Government.




                       *                 *                   *         *                 *




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       37
                 *                    *                      *             *               *



            Concealed Contract Costs. The Air Force contracting officer stated that all
            contract costs relating to the limitation of earnings clause are concealed from the
            Government. The clause requires Boeing’s Chief Financial Officer to provide the
            Government with a signed certification of earnings to include the actual earnings
            rates and a refund if earnings exceed the 15 percent cap based on the results from
            Boeing’s independent auditor. Boeing’s auditor will provide only a final
            accounting after the last aircraft is delivered in FY 2015. At that time, limited
            contractor earnings will be determined by the formula [(Sales - Costs)/Sales] and
            will be verified by Boeing’s independent auditors (                *              ),
            not later than 3 months after Boeing’s fiscal year end following final delivery of
            the 100th Aircraft (estimated FY 2015). Even though Boeing’s independent
            auditor performs annual reviews, the Government receives no insight as to
            whether costs are overrunning or underrunning.

Cost-Plus-a-Percentage-of-Cost System of Contracting
            The limitation of earnings clause appears to have created a cost-plus-a-
            percentage-of-cost (CPPC) system of contracting prohibited by Section 2306(a) of
            title 10, United States Code. The section states, “The cost-plus-a-percentage-of-
            cost system of contracting may not be used.” An article in the November-
            December 1993, Program Manager magazine, “Cost-Plus-Percentage-Of-Cost
            Contracts, prepared by Paul Stein, Director of the DoD Overhead Course at the
            Air Force Institute of Technology and Dr. Eileen Donnelly, Professor of
            Government Contract Law also at Air Force Institute of Technology addressed
            CPPC contracts and questioned “Are we still writing them?” The CPPC form of
            contracting reimburses the contractor for costs incurred, plus a percentage of the
            cost incurred for profit. Comptroller General decision B-183705, Marketing
            Consultants International Limited, identified a four-point test for determining
            CPPC contracts. Contracts meeting all four criteria violate the prohibition against
            CPPC contracts and contracts not meeting the four-point test may also violate the
            CPPC system of contracting when increases in contractor costs will eventually
            generate increases in contractor profits. The Boeing KC-767A Tanker aircraft
            contract meets the four-point test.

                     •   Payment for profit is based on a predetermined percentage rate.

                     •   The predetermined percentage rate is applied to actual performance
                         costs.

                     •   Contractor entitlement is uncertain at the time of contracting.

                     •   Contractor entitlement increases commensurately with increased costs


*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       38
        Comptroller General decision B-120546, Curtis-Wright Europa, N.V., stated, “A
        contract ceiling does not prevent a contract from being in violation of the
        prohibition against the CPPC system of contracting.”

        The article by the Air Force Institute of Technology instructors also addressed
        previous practices used by Air Force contracting officers that were strikingly
        similar to the KC-767A Tanker contract limitation of earnings clause.
                     A variation of the CPPC contract was commonly used in some
                     Air Force buying commands. At these commands, contracting
                     officers tried to circumvent the CPPC challenge by identifying
                     contract types as being firm-fixed-priced, pricing these contracts at
                     a ceiling, and then (through a contract clause) reducing contractor
                     profit when incurred costs were lower than originally estimated.
                     Unlike incentive-type contracts, which reward contractors with
                     increased profits as costs are reduced, these clauses result in
                     reduced profits for reduced cost. These clauses, in effect, penalize
                     the contractor by reducing contract costs. The Air Force General
                     Counsel found these contracts to be in violation of the prohibition
                     against CPPC contracting.5 [emphasis added]

        Air Force Audit Agency Report 3066416, “Review of Firm Fixed Price Level of
        Effort Contracting Within The Air Force Systems Command,” March 18, 1985,
        also found that price reduction clauses used in fixed-price contracts were an
        improper adaptation of a recognized type of contract, which results in a form of
        contract without basis in the FAR. The Report included an Air Force General
        Counsel memorandum dated March 23, 1984, that supported the report finding.

Termination for Convenience
        The contract clauses used by the Air Force relating to termination for convenience
        do not provide sufficient controls or audit rights to adequately determine the
        Government’s termination liability and to prevent a possible Anti-Deficiency Act
        violation. Therefore, the Government does not have adequate protection if less
        than the full aircraft quantity and fleet support years are leased and purchased.

        Termination Liability. The Air Force has only vague information on its
        termination liability if less than 100 aircraft are leased and purchased and less
        than ***.** equivalent years of aircraft support are procured from Boeing because
        the cost elements for which the Air Force will be liable are undefined.
        Consequently, contract clause C-016, “Aircraft Quantity,” that is quoted below
        exposes the Air Force to unknown and unquantifiable monetary liability.


              *                 *                    *                   *                *



5
  Office of the General Counsel, March 23, 1984. Reported by the Air Force Audit Agency in Audit Report
  No. 3066416, March 18, 1985.
*
  Contractor proprietary and negotiation sensitive data omitted.
                                                  39
                        *               *                   *        *           *




            Audit Rights. The contract then states that the Government does not have any
            right to audit the contractor records if the contract is terminated for convenience.
            Contract clause C-103, “Termination for Convenience – Pre-Construction
            Aircraft,” states:




                         *               *                  *        *           *




            Anti-Deficiency Act. Further, the Air Force appears to be obligating itself for
            vague contract obligations even if funding is not appropriated. This would result
            in the possibility of an Anti-Deficiency Act violation or probable litigation if the
            Air Force does not lease and purchase all 100 aircraft and ***.** years of fleet
            support. Contract clause C-024, “Anti-Deficiency Act,” states:




                         *                  *                   *        *           *




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       40
Recommendations, Management Comments, and Audit
  Response
    A.5.a. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           1. Require that the Air Force comply with DoD Directive 7600.2 and
    contact the Office of the Inspector General for the Department of Defense for
    review and approval, as appropriate, before contemplating using
    non-Federal audit services in any contract.

    Acting Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Acting Under Secretary stated that the program was
    currently under suspension pending the outcome of ongoing studies of the
    program and that he would like to hold his comments until these studies are
    completed.

    Air Force Comments. Although not required to comment, the Assistant
    Secretary of the Air Force (Acquisition) did not concur, stating the directive only
    applied to contracting for audit services, something the Air Force is not preparing
    to do, and does not relate to using non-Federal audit services in any contract.
    Further, the requirement for prior approval applies only to quality assurance
    reviews of internal audit, internal review, or contract audit organizations.

    Audit Response. The guidance does relate to using non-Federal audit services in
    contracts, internal review, and contract audit organizations as stated by the
    Assistant Secretary. Further, the Inspector General Act of 1978 states that each
    Inspector General shall establish guidelines for determining when it shall be
    appropriate to use non-Federal auditors. The Office of the Inspector General
    determined that the Air Force plan to use the Boeing independent auditor is not an
    appropriate use of non-Federal auditors.

           2. Require that the Defense Contract Audit Agency be used for audit
    services in negotiated contracts for the Boeing KC-767A Tanker Program.

    Acting Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Acting Under Secretary stated that the program was
    currently under suspension pending the outcome of ongoing studies of the
    program and that he would like to hold his comments until these studies are
    completed.

    Air Force Comments. Although not required to comment, the Assistant
    Secretary of the Air Force (Acquisition) did not concur, stating there was no
    requirement to use DCAA and DCAA does not have experience auditing
    Boeing’s commercial accounting system. Further, the recommendation implies
    that the audit opinion of the non-government public auditor is somehow
    unreliable or suspect.




                                        41
Audit Response. DCAA has the expertise to perform the required audit services.
Further, the public accountant to be hired by Boeing is not required to provide an
audit opinion but rather an examination report in accordance with the attestation
standards of the American Institute of Certified Public Accountants. The
attestation report only expresses opinions with compliance or noncompliance of
paragraphs 1-4 of the limitations of earnings clause.

A.5.b. We recommend that the General Counsel of the Department of
Defense:

       1. Review the limitation of earnings clause in planned contract
FA8625-04-C-6453 and determine whether it creates a prohibited cost-plus-
a-percentage-of-cost system of contracting.

General Counsel of the Department of Defense Comments. The Deputy
General Counsel (Acquisition and Logistics) stated that the draft report raises
some valid concerns regarding the acquisition. The Department has taken steps to
examine the determination that recapitalization of the tanker fleet is necessary. If
the program proceeds, we will review the proposed contracts in light of the
recommendations. A legal opinion would be premature until then. For the
complete text of the Deputy General Counsel’s comments, see the Management
Comments section of the report.

Audit Response. An opinion was requested from the Office of General Counsel
as the technical expert for acquisition matters in DoD. We recognize that the
Deputy General Counsel (Acquisition and Logistics) serves as both the technical
expert for DoD and primary counsel to the Under Secretary of Defense for
Acquisition, Technology, and Logistics.

Air Force Comments. Although not required to comment, the Assistant
Secretary of the Air Force (Acquisition) did not concur, stating the Boeing
KC-767A tanker contract did not meet the criteria in the four-point test for a
prohibited cost-plus-a-percentage-of-cost system of contracting. The profit is not
based on a predetermined percentage rate because if Boeing overruns the contract,
its profits are reduced. The predetermined percentage rate is applied to actual
performance costs only in an under-run case. Finally, the contractor entitlement is
not uncertain because Boeing will not be paid more than the fixed-price contract
amount.

Audit Response. The fact that a contract is fixed-price and accordingly, has a
ceiling price does not preclude a CPPC system of contracting from occurring.
There is a contract ceiling price that the contractor cannot exceed for both
fixed-price or cost-type contracts. We agree that the predetermined profit rate is
applied to actual performance costs unless Boeing overruns the contract.
However, the contractor profit increases commensurate with increased costs and
is uncertain unless contractor costs exceed 85 percent of the final contract price.
This creates a CPPC system of contracting because Boeing has a disincentive to
keep costs below 85 percent of the final contract price.




                                     42
                   2. Review clauses C-016, “Aircraft Quantity,” C-024, “Anti-
            Deficiency Act,” and C-103, “Termination for Convenience – Pre-
            Construction Aircraft,” in Contract FA8625-04-C-6453 to determine whether
            the contract clauses and audit rights provide sufficient controls to adequately
            define the extent of the Governments termination liability and to prevent a
            possible Anti-Deficiency Act violation if less than the full quantity of aircraft
            and fleet support years are leased and purchased.

            General Counsel of the Department of Defense Comments. The Deputy
            General Counsel (Acquisition and Logistics) stated that the draft report raises
            some valid concerns regarding the acquisition. The Department has taken steps to
            examine the determination that recapitalization of the Tanker fleet is necessary. If
            the program proceeds, we will review the proposed contracts in light of the
            recommendations. A legal opinion would be premature until then.

            Audit Response. An opinion was requested from the Office of General Counsel
            as the technical expert for acquisition matters in DoD. We recognize that the
            Deputy General Counsel (Acquisition and Logistics) serves as both the technical
            expert for DoD and primary counsel to the Under Secretary of Defense for
            Acquisition, Technology, and Logistics.

            Air Force Comments. Although not required to comment, the Assistant
            Secretary of the Air Force (Acquisition) did not concur, stating that when
            negotiations were suspended, the Air Force negotiating team was in the process of
            negotiating a not-to-exceed clause that would cap the Air Force exposure.
            Further, if Congress failed to appropriate sufficient dollars for aircraft and support
            in a fiscal year, the Government would have no fiscal obligation to the contractor,
            as clause C-024 provides but Congress would have to appropriate funds to
            terminate or restructure the program.

            Audit Response. The proposed contract does not have the appropriate FAR
            clauses relating to termination liability, equitable adjustment, and disputes to
            adequately protect the interests of the Government. Further, the contract implies
            that the obligation of the Government continues without regard to the
            constitutional mandate of Congress to control the budget of the United States.
            The comments appear to suggest that an executive branch agency can usurp the
            constitutionally mandated power of Congress.

Issue A-6. Integrated Fleet Support ($*.* billion)
            Conclusion and Results Summary. The Air Force negotiating team used a mix
            of pricing data from brochures relating to other aircraft and escalated 1980s
            pricing data for support equipment costs that included a $*** million error to
            justify a fixed-price fleet logistics support price of $*.* billion for ** years. The
            data that the Air Force program officials used was not sufficient to support
            baseline fleet logistics support costs. The Air Force negotiating team set a
            ** percent “performance aircraft availability” rate for Boeing to receive
            100 percent of the annual contract price without first benchmarking the


*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       43
            availability rates of comparable aircraft systems. The **-year sole-source
            logistics support arrangement is premature because the Air Force should first
            comply with statutory requirements in the National Defense Authorization Act for
            FY 2004 (required by April 1, 2004); Section 2464 of title 10, United States
            Code; and the Strom Thurmond National Defense Authorization Act for FY 1999
            requiring analyses of the costs and benefits of organic or contractor support,
            contract length, and core logistics.

            Criteria.         *         *               *              *            *
                               Section 135c of the National Defense Authorization Act for
            FY 2004; Section 2464 of title 10, United States Code; and Under Secretary of
            Defense for Acquisition, Technology, and Logistics memorandum, “Total Life
            Cycle Systems Management and Performance Based Logistics, March 7, 2003”
            provides information on the proposed price and guidance on logistics support.

Price for Integrated Fleet Logistics Support
            Boeing Proposal. Boeing provided initial integrated fleet support proposals
            dated April and May 2002 that included comparisons to the C-17 and C-32
            programs. The Air Force negotiating team used the initial proposals as a base
            from which an Air Force and Boeing team developed a joint proposal in
            June 2002. A final formal proposal of record is on hold during the OSD-directed
            pause. The proposed contract provides for ***.** aircraft support years for
            $*.* billion from CY ****-CY ****, or an annual support price of $*.** million
            per aircraft year (includes escalation).

            Data the Air Force Negotiating Team Used to Calculate Price. The Air Force
            negotiating team used unsupportable data from various sources, did not
            adequately test the relevance of the data, and misapplied the data to calculate a
            weighted average integrated fleet support price of $*.** million per aircraft per
            year. The negotiating team relied primarily on budget data from various
            brochures and actual cost data from the early 1980s for the KC-10 (tanker/cargo
            aircraft), C-32A (transport plane for the Vice President, First Lady, and Members
            of Congress), and C-17 (transport plane for troops and cargo) to arrive at a price
            of $*.** million per aircraft per year.




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       44
            Table 10 shows how the Air Force arrived at its price.

                Table 10. Air Force Calculation of Integrated Fleet Support Costs ($millions)

                                                            Weight
                    Program            Unit Cost            factor            Amount
                    KC-10               $*.**                *.**              $*.**
                    C-32A                *.**                *.**               *.**
                    C-17                 *.**                *.**               *.**
                    C-33A                *.**                *.**               *.**
                    Offer A              *.**                *.**               *.**

                Weighted Average Unit Cost                   *.**               $*.**

                Total Calculated Price for 100 aircraft for ** years        $*,***.**



            We reviewed the Air Force calculations of integrated fleet support costs for the KC-10,
            C-32A, and the C-17 programs that totaled ** percent of the fleet support costs.

            KC-10 Program. To calculate KC-10 integrated fleet support costs, the highest
            weighted factor, the Air Force negotiating team used budgetary requirements
            from a Tinker Air Logistics Center, Air Mobility Command (AMC) 2002
            brochure and actual cost data for KC-10 support equipment from the 1980s
            escalated at 5 percent. The Air Force then made various adjustments relating to a
            third site and fewer engines on the Boeing KC-767A Tanker aircraft. We were
            unable to verify that the budget data from the 2002 brochure was representative of
            prior years or how it related to 1980s actual costs. The Air Force stated “SPO
            [System Program Office] experts, in conjunction with field experts at AMC and
            OC-ALC [Oklahoma City-Air Logistics Center], verified that the budget data
            from the 2002 brochure was a good proxy for this effort.” The Air Force
            negotiating team also misapplied the actual cost data from the 1980s for the
            KC-10 support equipment by applying it as an annual cost in their calculations
            instead of a total program cost.

            To calculate support equipment costs, the Air Force negotiating team used data
            provided by the KC-10 Systems Program Office from the 1980s that showed total
            costs for support equipment of $**.* million for 59 aircraft. The negotiating team
            escalated the 1980s support equipment price of $**.* million at 5 percent per year
            for 20 years to calculate a current support equipment price of $**.** million. The
            negotiating team divided this price by the 59 aircraft to arrive at an individual
            aircraft support equipment price of $*.** million. The negotiating team added an
            additional $*.** million ( * of $*.** million) for a third repair site that resulted in
            a total price per aircraft for support equipment of $*.** million. The negotiating
            team misapplied this $*.** million figure on an annual basis versus a significantly
            longer expected life of the support equipment. Internal Revenue Service
            Publication 946, “How to Depreciate Property,” shows a class life of ** years for

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       45
            air transport assets. Using the negotiating team method, support equipment costs
            for the Boeing KC-767A Tanker Program would be $*.** billion when applied to
            100 aircraft for ** years. However, using a conservative ** year useful life for
            support equipment, the correct calculation for support equipment costs should be
            $*.*** million ($*.** million divided by ** years) for the first two repair sites and
            $*.*** million for the third site for a total support equipment price of
            $*.*** million or a total program cost of only $*** million when applied to
            100 aircraft for ** years. Table 11 shows the Air Force calculations and source for
            KC-10 fleet support costs and our adjustments.




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       46
          Table 11. Air Force Calculation of Integrated Fleet Support Costs for KC-10
             Aircraft and Calculation of Adjusted Fleet Support Costs ($millions)
                                 KC-10           Unit Price
                  Element         Cost        *** IG-Adjusted                         Source
           On Site Labor          $**.**      $*.**    $*.**               2002 AMC budget brochure
             COMBS                  *.**       *.**     *.**               2002 AMC budget brochure
             FSRs                   *.**       *.**     *.**               2002 AMC budget brochure
             Task Orders            *.**       *.**     *.**               2002 AMC budget brochure
             Engine overhaul       **.**       *.**     *.**               2002 AMC budget brochure
           Aircraft/Engine Spares **.**        *.**     *.**               2002 AMC budget brochure
           Support Equipment       **.**       *.**     *.**            1980s actuals escalated at 5 percent
           Repair of Repairables ***.**        *.**     *.**               2002 AMC budget brochure
           Engine overhaul        ***.**       *.**     *.**               2002 AMC budget brochure
           Landing gear             *.**       *.**     *.**               2002 AMC budget brochure
           Boom                     *.**       *.**     *.**               2002 AMC budget brochure
           Kits                     *.**       *.**     *.**
           Sustaining               *.**       *.**     *.**                2002 AMC budget brochure
           Travel                   *.**       *.**     *.**                2002 AMC budget brochure
           Engineering Support      *.**       *.**     *.**                2002 AMC budget brochure
           Task Order sustaining    *.**       *.**      *.**               2002 AMC budget brochure
             Total              $***.**       $*.**     $*.**
          Air Force Adjustments
          ETOPS                                 *.**     *.**        increased inspections, training, and parts
          Number of Sites                       *.**     *.**                          3rd site
          Support Equipment                     *.**     *.**                          3rd site
          Engine overhaul                      -*.**    -*.**                    2 engines versus 3
          Procure spares                        *.**     *.**                     bed-down profile
          Inventory carry                       *.**     *.**             aircraft inventory @ 30 percent
          Commonality                          -*.**    -*.**                    Airline efficiency
          Flying Hours                          *.**     *.**                    different baselines
             Total                            $*.**     $*.**
           Unit Price                         $*.**     $*.**

          COMBS         Contractor Operated and Maintained Base Supply
          ETOPS         Extended Range Twin Engine Operations
          FSR           Facilities Support Requirements




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       47
           Table 12 shows the impact, a difference of $*** million, to the Air Force
           negotiating team’s calculations for integrated fleet support costs when corrections
           are made to support equipment cost for the KC-10 program.


             Table 12. Air Force Calculation of Integrated Fleet Support Costs With
                 Adjustments for KC-10 Support Equipment Costs ($millions)
                  Program            Unit Cost               Weight       Weighted Amount
                   KC-10               $*.**                  *.**              $*.**
                   C-32A                *.**                  *.**               *.**
                    C-17                *.**                  *.**               *.**
                   C-33A                *.**                  *.**               *.**
                   Offer A              *.**                  *.**               *.**

              Weighted Average Unit Cost                      *.**               *.**

                Total Price for ** years for 100 aircraft                   $*,***.**

                                 *
                Unit Price                                                      $*.**
                Total Price for ** years for 100 aircraft                     $***.**



           C-32A Program. To calculate the integrated fleet support costs for the C-32A
           aircraft, the Air Force negotiating team primarily used an internal 2001 Air
           Mobility Command budget brochure for the maintenance of four aircraft for
           $**.** million. The negotiating team then added $*.*** million for peculiar
           support equipment, $*.*** million for kit effort based on “program actuals,” and
           $*.*** million for technical manuals for a total cost of $**.* million. The
           negotiating team divided the $**.* million figure by the four aircraft for the
           program to arrive at a base annual cost of $* million each. The negotiating team
           then made various adjustments using amounts from the KC-10 assessment to add
           $*.* million per aircraft to arrive at a total price of $*.** million per aircraft. The
           Air Force negotiating team did not explain why the table summarizing its data
           used a figure of $*.** million or a difference of $*** million for 100 aircraft
           supported for ** years.

           C-17 Program. To calculate fleet support cost for the C-17 program, the
           Air Force negotiating team used the “C-17 flexible sustainment contract selecting
           representative contract line items, totaling $*.* million.” The negotiating team
           noted that the C-17 is a bigger aircraft that operates in a more challenging
           integrated fleet support environment. The negotiating team then added
           $*.* million to the base amount of $*.* million to arrive at a total of $*.* million
           figure. The negotiating team used a $*.** million figure but did not explain why.
           This resulted in a difference of $*** million for 100 aircraft supported for
           ** years.

*
    Negotiation sensitive data and predecisional documentation omitted.
                                                      48
            Other Comments on Logistics Support Costs. The Air Force had conversations
            with a senior vice president          *       who provided only general
            observations. Of note, from the observations:


                         *               *                *          *       *



Benchmarking Availability
            The Air Force negotiated for Boeing to receive 100 percent of the contract price
            by Boeing attaining a ** percent “performance aircraft availability” (PAA) rate
            without first benchmarking availability rates of comparable aircraft systems. As
            negotiated, the contract requires Boeing to maintain a PAA of ** to **.* percent
            to receive 100 percent of the annual contract amount. The Air Force stated that
            the negotiating team could not benchmark availability rates of comparable aircraft
            systems because they use dispatch rates that are not comparable. Further, the
            Air Force developed an approach to reflect aircraft performance because of recent
            dissatisfaction with prolonged depot maintenance time. A PAA of ** percent or
            higher reflects full compliance with a *** flying hour profile. Anything above
            ** percent PAA reflects preferred performance.

            We believe the Air Force should be able to develop figures to benchmark
            availability rates of comparable aircraft systems.



                    *                *                    *              *        *




Statutory Requirements and Acquisition Guidance
            The Air Force negotiating team selected Boeing as the sole-source provider for
            integrated fleet (logistics) support at a cost of $*.* billion (CY * through CY * )
            without first evaluating the costs and benefits of using different logistic support
            approaches and without providing Congress with an analysis of alternatives to
            support the Air Force decision to use Boeing. The Under Secretary of Defense
            for Acquisition, Technology, and Logistics and the Congress have issued
            guidance that addresses the need and requirements for appropriate planning and
            analysis to identify and evaluate alternative means of providing life-cycle logistics
            support. This planning and analysis is designed to provide decision makers with
            the necessary information to make critical life-cycle logistics support decisions
            relating to providers (public and private), potential partnering
*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       49
opportunities, performance-based logistics, core logistics capabilities, and the
costs and benefits of using different logistics support approaches.

Life-Cycle Logistics Support and Performance-Based Logistics
Requirements. Air Force program officials did not perform sufficient logistics
planning relating to life-cycle logistics support and performance-based logistics
requirements. The Under Secretary of Defense for Acquisition, Technology, and
Logistics stressed the need to reduce the logistics footprint and implement
Performance-Based Logistics in the memorandum “Total Life-Cycle Systems
Management and Performance Based Logistics,” March 7, 2003. The purpose of
the memorandum was to provide program managers with a tool to ensure that
effective weapons system sustainment was addressed and accomplished over the
system’s life cycle. The memorandum identified the following key logistics
information and criteria:

           •   Analysis of Alternatives to include alternative operating and
               system support concepts, with specific consideration of
               performance-based options.
           •   Market analysis for system and product support capabilities (public
               and private) to define extent and scope of opportunities for
               achieving support objectives through design and viable product
               support strategies.
           •   Identification of Product Support Integrator and potential support
               providers (public and private) and potential partnering
               opportunities.
           •   Depot-level maintenance core capability assessment and the
               identification of workloads required to sustain those capabilities.
           •   Identification of potential organic depot-level sources of
               maintenance.
           •   Development of a PBL Business Case Analysis (BCA) to
               determine:
                   o   The relative cost vs. benefits of different support
                       strategies.
                   o   The        impact         and         value              of
                       Performance/Cost/Schedule/Sustainment trade-offs.
                   o   Data required to support and justify the PBL strategy.
National Defense Authorization Act for FY 2004 Requirements. The
Air Force has not completed a study to identify alternative means of meeting
long-term tanker aircraft maintenance requirements as required below in the
National Defense Authorization Act for FY 2004 (required by April 1, 2004).
           (c) STUDY      OF      LONG-TERM    TANKER        AIRCRAFT
           MAINTENANCE AND TRAINING REQUIREMENTS-(1) LEASED
           AIRCRAFT- The Secretary of Defense shall carry out a study to
           identify alternative means for meeting the long-term
           requirements of the Air Force for—




                                        50
                               (A) the maintenance of tanker aircraft leased under the
                         multiyear aircraft lease pilot program or purchased under
                         subsection (b); [emphasis added]
           The fleet logistics support contract length of ** years also exceeds the Act’s
           requirement that a contract may be for any period not in excess of 10 program
           years as specified below.
                         (3) Notwithstanding subsection (k) of section 2306b of title 10, United
                         States Code, a contract under this subsection may be for any period not
                         in excess of 10 program years.
           See Appendix D for the complete text of section 135 of the National Defense
           Authorization Act for FY 2004.

           Core Logistics Capabilities for Commercial Items Requirements. Section
           2464 of title 10, United States Code identifies the need for core logistics
           capabilities for commercial items. For commercial items, the statute requires
           notification and justification to Congress including at a minimum:
                             (1) The estimated percentage of commonality of parts of the
                         version of the item that is sold or leased in the commercial marketplace
                         and the Government’s version of the item.

                              (2) The value of any unique support and test equipment and tools
                         that are necessary to support the military requirements if the item were
                         maintained by the Government.

                              (3) A comparison of the estimated life cycle logistics support costs
                         that would be incurred by the Government if the item were maintained
                         by the private sector with the estimated life cycle logistics support costs
                         that would be incurred by the Government if the item were maintained
                         by the Government.

           See Appendix D for the complete text on the core logistics requirements in
           Section 2464 of title 10, United States Code.
           Congressional Notification of Contracts for Depot Maintenance. Section 346
           of Public Law 105-261, the Strom Thurmond National Defense Authorization Act
           for FY 1999, October 17, 1998, as amended by Section 336 of Public Law
           106-65, October 5, 1999, placed conditions on the expansion of functions
           performed under prime vendor contracts for depot-level maintenance and repair as
           follows.
                    Conditions on Expanded Use. The Secretary of Defense or the Secretary of a
                    military Department, as the case may be, may not enter into a prime vendor
                    contract for depot-level maintenance and repair of a weapon system or other
                    military equipment described in section 2464 (a) (3) of title 10, United States
                    Code, before the end of the 30-day period beginning on the date on which the
                    Secretary submits to Congress a report, specific to the proposed contract, that:
                        (1) describes the competitive procedures to be used to award the prime
                    vendor contract;




*
    Negotiation sensitive and predecisional documentation omitted.
                                                        51
                          (2) contains an analysis of costs and benefits that demonstrates that use of
                     the prime vendor contract will result in savings to the Government over the life
                     of the contract;
                         (3) contains an analysis of the extent to which the contract conforms to the
                     requirements of section 2466 of title 10, United States Code; and
                          (4) describes the measures taken to ensure that the contract does not violate
                     the core logistics policies, requirements, and restrictions set forth in section
                     2464 of that title.

Recommendations, Management Comments, and Audit
  Response
            A.6. We recommend that the Under Secretary of Defense for Acquisition,
            Technology, and Logistics:

                    a. Not use a fixed-price contract for logistics support of the Boeing
            KC-767A Tanker Program until an adequate baseline cost has been
            established and obtain cost or pricing data from Boeing to determine a fair
            and reasonable price for the integrated fleet support.

            Acting Under Secretary of Defense for Acquisition, Technology, and
            Logistics Comments. The Acting Under Secretary stated that the program was
            currently under suspension pending the outcome of ongoing studies of the
            program and that he would like to hold his comments until these studies are
            completed.

            Air Force Comments. Although not required to comment, the Assistant
            Secretary of the Air Force (Acquisition) did not concur, stating the Air Force
            believes there is sufficient information available to establish fair and reasonable
            prices using price analysis to acquire commercial item/support under the proposed
            fixed-price contract.

            Audit Response. The Air Force has not performed sufficient analysis of other
            logistics support concepts to establish fair and reasonable prices for the KC-767A
            program. After the draft report was issued, we visited the KC-10A program
            office for contractor logistics support at Tinker Air Force Base in Oklahoma City,
            Oklahoma, to obtain additional information on the program. The KC-10A
            contractor logistics support program is significantly different from the proposed
            KC-767A fleet support program. The KC-10A program awards its contractor
            logistics support contracts competitively using a combination of both fixed-price
            and variable contract line items to reduce risk. The contract uses fixed-price line
            items to provide services such as contractor operated and maintained Government
            owned base supply and a flying hours program to support repair of recoverables,
            replenishment of nonrecoverables, bench stock, warranty administration, and
            other items. Items such as engine and landing overhaul were priced variably
            using both fixed-price labor, material, and over and above labor and materials.
            Using price analysis techniques based on the KC-10A contractor logistics support
            program, we calculated that the KC-767A program should cost about $1.2 billion
            (recurring) less than the proposed $*.* billion price with an additional

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                        52
            nonrecurring savings for test equipment and Government property of
            $974 million. The KC-10A program is also structured so that it provides robust
            and realistic competition, suitable risk, and enables the Government to obtain the
            benefits of any warrantees. Our calculations were provided to both the KC-10A
            and KC-767A program offices for review. The KC-10A program office for
            contractor logistics support agreed with our analysis.

                  b. Reduce the negotiated price calculated for integrated fleet support
            by $*** million for the misapplication of KC-10 support equipment costs.

            Acting Under Secretary of Defense for Acquisition, Technology, and
            Logistics Comments. The Acting Under Secretary stated that the program was
            currently under suspension pending the outcome of ongoing studies of the
            program and that he would like to hold his comments until these studies are
            completed.

            Air Force Comments. Although not required to comment, the Assistant
            Secretary of the Air Force (Acquisition) concurred, stating there was a
            misapplication of support equipment costs but that it was unreasonable to expect
            that the Air Force could reopen negotiations and limit discussions only to a
            reduction in the Integrated Fleet Support price.

            Audit Response. Based on the benefits of the approach used by the KC-10A
            program for contractor logistics support, we do not believe the Assistant Secretary
            can continue on the present course for KC-767A fleet logistics support without
            further analysis.

                   c. Perform appropriate benchmarking of “performance aircraft
            availability” rates for other comparable aircraft systems before negotiating
            availability requirements in any contract for logistics support of the
            Boeing KC-767A Tanker Program.

            Acting Under Secretary of Defense for Acquisition, Technology, and
            Logistics Comments. The Acting Under Secretary stated that the program was
            currently under suspension pending the outcome of ongoing studies of the
            program and that he would like to hold his comments until these studies are
            completed.

            Air Force Comments. Although not required to comment, the Assistant
            Secretary of the Air Force (Acquisition) did not concur, stating the use of
            performance aircraft availability is new having no past usage to benchmark from.

            Audit Response. The KC-10A program office calculated its performance aircraft
            availability rate at between ** – ** percent for FYs 2002 and 2003. Similar
            calculations should be performed for other programs to determine whether the
            ** percent performance aircraft availability rate proposed in the Boeing
            767A tanker contract is an improvement over other programs.




*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       53
                   d. Comply with statutory requirements in the National Defense
            Authorization Act for FY 2004; Section 2464 of title 10, United States Code;
            and the Strom Thurmond National Defense Authorization Act for FY 1999
            requiring analyses of the costs and benefits of organic or contractor support,
            core logistics requirements, performance-based logistics, and contract length,
            and notify Congress of its decision before selecting an integrated fleet
            support provider for the Boeing KC-767A Tanker Program.

            Acting Under Secretary of Defense for Acquisition, Technology, and
            Logistics Comments. The Acting Under Secretary stated that the program was
            currently under suspension pending the outcome of ongoing studies of the
            program and that he would like to hold his comments until these studies are
            completed.

            Air Force Comments. Although not required to comment, the Assistant
            Secretary of the Air Force (Acquisition) did not concur, stating the Air Force
            disagrees with the interpretation of the statutory requirements that apply to the
            KC-767A program. The Assistant Secretary agreed that the study on long-term
            aircraft maintenance and training requirements needed to be completed by
            April 1, 2004, and that the notification on core logistics capabilities relating to
            commercial items needed to be provided to Congress. However, the Assistant
            Secretary did not agree with the requirement that contracts not exceed 10 years
            applied to the lease contract for 20 aircraft and that Congressional notification
            relating to prime-vendor contracts applied to commercial items.

            Audit Response. In response to the study on long-term aircraft maintenance and
            training requirements, the Air Force plans to address support requirements after
            completion of the **-year contract with Boeing and this plan does not realistically
            meet the needs of DoD or the intent of Congress. Line item 3000 in the lease
            contract for $*.* billion covers fleet support for all 100 aircraft for a period of
            ** years, which exceed the statutory limitation that multiyear contracts not exceed
            10 years. Further, the commercial items excluded from the requirements relating
            to prime-vendor contracts are only those commercial items “that have been sold
            or leased in substantial quantities to the general public,” which clearly the
            KC-767A tanker is not.

Issue A-7. Operating Lease ($*.* billion)
            Conclusion and Results Summary. The contract lease for 20 Boeing 767A
            Tanker aircraft did not meet three of six criteria requirements for an operating
            lease as described in OMB Circular No. A-11. Meeting the OMB criteria for
            leases is a statutory requirement of Section 8159 of the Department of Defense
            Appropriations Act for FY 2002. Further, the Air Force long-term lease is
            contrary to the actual intended use of operating leases, which may be cost
            effective when the Government has only a temporary need for the asset.
            Accordingly, the lease for the Boeing KC-767A Tanker Program was incorrectly
            classified as an operating lease. In addition, the use of an operating lease for
            long-term use is a high-cost way to acquire a capital asset. As a result, the
            Air Force, by leasing the 20 Boeing KC-767A Tanker aircraft, will pay about
*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       54
            $*** million or **.* percent more than purchasing the 20 tanker aircraft.
            However, OMB approved the Air Force’s proposed lease under OMB
            Circular No. A-11.

            Criteria. September 4, 2003, Senate Armed Service Committee Hearing on
            Lease of Boeing KC-767A Air Refueling Tanker Aircraft, testimony from Joel
            Kaplan, Deputy Director, Office of Management and Budget; September 20,
            1994, Subcommittee on Legislation and National Security Committee on
            Government Operations on the Lease-Purchase Scorekeeping Rule, testimony
            from James Blum, Deputy Director, Congressional Budget Office (CBO); OMB
            Circular No. A-11, “Preparation, Submission, and Execution of the Budget
            (2003);” CBO’s “The Budgetary Treatment of Leases and Public and Private
            Ventures;” CBO’s Assessment of the Air Force's Plan to Lease 100 Boeing
            Tanker Aircraft, August 2003;
                 *               *                 *             *              *
                                provide guidance on lease requirements and information on
            proposed lease prices and contract clauses.

Statutory Authority for Lease
            Department of Defense Appropriations Act for FY 2002. The Department of
            Defense Appropriations Act for FY 2002 uses permissive language that authorizes
            the Air Force to establish a multiyear lease pilot program for the general purpose
            Boeing 767 aircraft in a commercial configuration and requires the Air Force to
            lease the aircraft as an operating lease. See Appendix D for the complete text of
            the Act. The Act authorization states:
                         (5) The Secretary shall lease aircraft under terms and conditions
                         consistent with this section and consistent with the criteria for an
                         operating lease as defined in OMB Circular A-11, as in effect at the
                         time of the lease. [emphasis added].

Operating Lease Criteria and Testimony
            Operating Lease Criteria. To qualify as an operating lease, the Air Force lease
            for the Boeing KC-767A Tanker Aircraft must meet the following six criteria, as
            described in OMB Circular No. A-11:

                              •   The asset is a general-purpose asset rather than being for a
                                  special purpose of the government and is not built to the
                                  unique specification of the government as lessee;

                              •   There is a private-sector market for the asset;

                              •   The present value of the minimum lease payments over the
                                  life of the lease does not exceed 90 percent of the fair market
                                  value of the asset at the beginning of the lease term;


*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       55
                              •   The lease does not contain a bargain-price purchase option;

                              •   Ownership of the asset remains with the lessor during the term
                                  of the lease and is not transferred to the government at or
                                  shortly after the end of the lease term; and

                              •   The lease term does not exceed 75 percent of the estimated
                                  economic life of the asset.

            If the lease does not meet all six criteria, the lease should be considered either a
            capital lease or a lease-purchase. A lease-purchase is a lease where ownership of
            an asset is transferred to the Government at or shortly after the end of the lease
            term but does not have to include a bargain-price purchase option. A capital lease
            is different from an operating lease in that the Government consumes most of the
            useful life of the asset.

            Testimony on the Tanker Lease Program. On September 4, 2003, the Deputy
            Director of OMB testified before the Senate Armed Services Committee that the
            Air Force Boeing KC-767A Tanker aircraft lease is an operating lease and that the
            Boeing 767 GTTA was commercially developed and marketed. However,
            Senator Wayne Allard commented that the lease does not meet all of the six
            requirements of an operating lease. Senator Allard added that CBO determined
            that the asset was not a general-purpose asset and that the only use of the tanker
            aircraft is to fly it for fuel. As a result, Senator Allard concluded that the tanker
            plane cannot be absorbed into the general market for use, and the Air Force lease
            of the Boeing KC-767A Tanker aircraft qualifies as a lease-purchase.

            CBO Testimony. In September 1994, the Deputy Director of the Congressional
            Budget Office testified before the Subcommittee on Legislation and National
            Security Committee on Government Operations on the lease-purchase
            scorekeeping rule. Mr. Blum testified as follows on the cost-effectiveness and
            purpose of entering into operating leases:
                         In this type of lease, the government does not take ownership of the
                         asset. Operating leases may be cost-effective when the government
                         has only a temporary need for an asset. In such a situation,
                         purchasing the asset and then selling it off again when the use is ended
                         may not make sense. For long-term use, an operating lease is almost
                         always a high-cost way to acquire a capital asset. [emphasis added].

Analysis of Lease Criteria
            General-Purpose Asset. The Boeing KC-767A Tanker aircraft is not a general-
            purpose asset because the modifications made to the commercial Boeing 767
            aircraft were military-unique and required significant changes to the aircraft. In
            addition, the modifications made to the Boeing commercial aircraft changed the
            aircraft’s main function from that of transporting people and cargo to that of an
            aerial refueling tanker and cost **.* percent of the base aircraft price. Further,
            CBO concluded below that the Air Force used significant modifications to create
            this capability that serves only a military-unique or governmental purpose.

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       56
                         Although the tanker is based on Boeing’s commercial 767-200 model,
                         the Air Force has specified several significant modifications such as
                         auxiliary fuel tanks, a refueling boom, a refueling receptacle, more
                         powerful generators, and heavier wiring to accommodate unique
                         military requirements. The tanker’s aerial refueling capability
                         serves a uniquely governmental purpose. [emphasis added].

            The Air Force is spending about $*.* billion to develop this military tanker.
            Further, the Air Force plans in the future to have Boeing develop and add, at an
            unknown cost, interoperability with DoD communication and computer systems,
            integration of secure communications, and a combat identification system among
            other modifications.

            Private-Sector Market. A private-sector market for aerial refueling tankers does
            not currently exist. All current sales of tanker aircraft were to governments for
            aerial refueling of military aircraft.
                   *               *                 *                *              *

                         Tanker aircraft, of whatever type, are not presently customarily
                         used by the general public, or by non-governmental entities, at this
                         time. Also, virtually all of Boeing’s present sales are to governments.
                         Perhaps if Boeing’s market develops as hoped, one could affirmatively
                         agree that (1) and (2) might eventually apply to the tanker, but, as they
                         do not at present, the 767 does not meet the “commercial item”
                         definition in FAR 2.101(1). [emphasis added].

            Further, CBO also stated in their assessment below that there is no evidence of a
            commercial market for 100 tanker aircraft.
                         Thus, while there may be a private-sector market for a few of the
                         aircraft that the government is acquiring, there is no evidence of such a
                         market for 100 tanker aircraft. [emphasis added].


                   *                  *                     *                 *                  *


            90 Percent of Fair Market Value of Asset. To qualify as an operating lease, the
            net present value of the Boeing KC-767A Tanker aircraft lease payments may not
            exceed 90 percent of the fair market value of the aircraft. The Air Force stated
            that the present value of lease payments are less than 90 percent of the market
            value of the aircraft. The CBO assessment did not agree with the Air Force
            methodology used to calculate the net present value of lease payments, and even
            if the Air Force methodology were used, there exists a significant possibility that
            the threshold could be exceeded for at least some of the tankers. Specifically, the
            CBO stated:
                         The Air Force report indicates that the lease payments under the
                         proposed financing arrangement will account for 89.9 percent of
                         the fair market value of the aircraft, which the Air Force calculates

*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       57
                         at $138.4 million (in 2002 dollars) when the cost of the construction
                         loan financing ($7.4 million per aircraft) is included. CBO believes
                         that including the cost of that financing as part of the aircraft’s fair
                         market value is inappropriate because that cost is additional to any
                         interest that would be capitalized in the price of the aircraft in the
                         purchase option. When the financing cost is excluded from the
                         calculation, the net present value of the lease payments accounts for
                         93 percent of the fair market value.

                         CBO also notes that even using the Air Force’s methodology, there is
                         a significant possibility that the threshold of 90 percent of the fair
                         market value could be exceeded for at least some of the groups of
                         leased tankers. The lease payments are based on the Air Force’s
                         estimate of bond interest rates. If the rates for Treasury bonds are
                         higher than the predicted value used by the Air Force, or if the spread
                         on the interest rates for the bonds issued by the Trust is greater than
                         predicted, lease payments will increase accordingly. Since the
                         Air Force already estimates that the present value of the lease
                         payments will be 89.9 percent of the fair market value, it has no
                         margin for error on its estimate of interest rates. [emphasis added].

            The                        *                    states that changing the timing of
            payments and the number of capital market financing take-outs all could affect the
            annual lease rent and the ability to meet OMB Circular No. A-11. As a result,
            there is risk that the Air Force lease payments will exceed the 90 percent
            threshold for the 20 leased aircraft. The Air Force commented that the lease
            payments are “hard wired” not to exceed 90 percent of the fair market value of the
            asset. We did not analyze the lease calculations and therefore are not disagreeing
            that the lease meets this criteria.

            Further, the Air Force by leasing and then procuring the 20 Boeing KC-767A
            Tanker aircraft, will pay about $*** million more than purchasing the tanker
            aircraft (total lease price per aircraft of $***.* million plus the purchase option
            price of $**.* million less the purchase price of $*** million times 20 aircraft).

            Purchase Option. The Air Force lease contract has an irrevocable option to
            purchase the aircraft at a bargain price. The lease contract provided that:
                         The contractor and Lessor hereby grant the Government the unilateral
                         right to acquire title to some or all of the aircraft described in the series
                         2000 CLINs (contract line items). The Government has the right to
                         acquire title to any number from zero (0) to twenty (20).

            CBO concluded that if the Air Force pays 28 percent of the cost of a new tanker
            for an aircraft with 80 percent of its useful life, the purchase would constitute a
            bargain purchase price. Specifically, CBO stated:
                         The agreement gives the Air Force the option to purchase the aircraft at
                         any time during or at the end of the lease. The Air Force estimates that
                         it could purchase the aircraft at the end of the lease for an average


*
    Contractor proprietary and negotiation sensitive data omitted.
                                                         58
                         $** million apiece (in 2002 dollars), or 28 percent of the cost of new
                         tankers.

            We agree with this assessment. The Air Force                    *
            shows a purchase option price of $**.* million per tanker. Further, based on the
            aircraft purchase price of $*** million (including escalation and financing), the
            Air Force purchase option represents ** percent of cost of a new tanker and the
            lease term will use only 15 to 30 percent of the aircraft’s useful life of 20 to
            40 years. As a result, the Air Force lease does contain a bargain-price purchase
            option.

            Transfer of Assets. The Air Force has promoted the Boeing KC-767A Tanker
            aircraft as the first step in the re-capitalization of the aerial tanker fleet. Further,
            the tankers were built to the unique specifications of the Government and are
            unlikely to be easily absorbed by commercial customers.

            CBO concluded that technically the Air Force lease met the criteria for transfer of
            leased assets. However, CBO also found that it seems clear for several reasons
            that the Air Force fully intends to acquire the tankers during or at the end of the
            lease term. CBO stated:
                         It seems clear for several reasons, however, that the Air Force fully
                         intends to acquire tankers during or at the end of the lease term.
                         [emphasis added]

            As a result, the evidence shows that the Air Force would retain the Boeing
            KC-767A Tanker aircraft following the lease term. The Air Force stated that
            Congress must give specific authority to allow purchase of the leased aircraft, and
            actual recapitalization of the tanker fleet will begin with the 80 purchased aircraft.
            Since Congress must approve the acquisition, the lease technically meets this
            criteria.

            75 Percent of Estimated Economic Life of Asset. The Air Force lease term for
            the Boeing KC-767A Tanker aircraft does not exceed 75 percent of the estimated
            economic life of the asset. The lease term is 6 years and the estimated economic
            life of the asset ranges anywhere from 20 years (Boeing 767 commercial aircraft
            useful life) to 40 years (Air Force Tanker useful life). We calculate the Air Force
            lease term will use between 15 and 30 percent of the estimated economic life of
            the Tanker aircraft. CBO in their assessment stated that the aircraft should last at
            least 30 years and should have 80 percent or more of life expectancy remaining
            after the lease term.

            Associate General Counsel. In response to a request from the Office of the
            Inspector General, the Associate General Counsel (Acquisition and Logistics) of
            the Department of Defense stated that, “While we recognize the diversity of
            opinion regarding the application of Circular A-11, we believe that OMB is
            entitled to a deference in interpreting its own publications.”

            IG DoD Opinion. We believe the Air Force lease does not qualify as an
            operating lease because it did not meet three of six required criteria set forth in
            OMB Circular No. A-11. Specifically, the lease did not meet criteria for a
*
    Contrator proprietary and negotiation sensitive data omitted.
                                                        59
    general-purpose asset, private sector market, and a bargain price purchase option.
    As a result the lease of 20 Boeing KC-767A Tanker aircraft does not comply with
    the requirements of Section 8159 of the Department of Defense Appropriations
    Act for FY 2002. Further, the lease, as planned, will cost more than other
    acquisition options.

Recommendations, Management Comments, and Audit
  Response
    A.7. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           a. Not enter into the proposed lease arrangement for 20 KC-767A
    Tanker aircraft until either obtaining congressional authority to enter into a
    lease-purchase or until lease terms have been renegotiated to meet OMB
    Circular No. A-11 requirements for an operating lease.

    Acting Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Acting Under Secretary stated that the program was
    currently under suspension pending the outcome of ongoing studies of the
    program and that he would like to hold his comments until these studies are
    completed.

    Air Force Comments. Although not required to comment, the Assistant
    Secretary of the Air Force (Acquisition) did not concur, stating various factions
    had stated the proposed aircraft lease met the operating lease criteria. Further, the
    audit apparently used the July 25, 2003, revised OMB criteria in reaching its
    conclusion and that OMB was in the best position to determine whether the lease
    met its criteria. Also, the tanker configuration chosen by the Air Force is one
    available to any Boeing customer.

    Audit Response. The audit did not use the revised OMB criteria. Had the
    revised criteria been used the KC-767A tanker lease would have met only 2 of the
    6 criteria. Further, there are various conflicting opinions as to whether the lease
    met the criteria for an operating lease. In August 2002, the Director, OMB stated
    “I believe it would be inconsistent with OMB circulars and irresponsible to
    support any lease proposal which would cost tax payers more than direct
    purchase. We would strongly oppose any effort to alter or manipulate scoring
    rules and leasing procedures which have served the taxpayers so well.” The
    KC-767A tanker lease clearly costs the taxpayers more than direct purchase. The
    military unique tanker configuration chosen by the Air Force is not available to
    commercial customers without complete removal of military hardware and any
    associated software from the aircraft as determined by the Department of State.
    Each of the criteria is discussed in detail in the report.

          b. Determine whether leasing 20 military tankers rather than
    purchasing them represents the best value to the Government.

    Acting Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Acting Under Secretary stated that the program was

                                         60
currently under suspension pending the outcome of ongoing studies of the
program and that he would like to hold his comments until these studies are
completed.

Air Force Comments. Although not required to comment, the Assistant
Secretary of the Air Force (Acquisition) did not concur, stating that while leasing
the aircraft did cost more than buying the aircraft, the advantages of the lease
were quick delivery of the aircraft without creating a near term and large financial
burden.

Audit Response. The benefits of leasing identified by the Air Force are certainly
debatable and need to be decided by someone outside the Air Force.




                                     61
Issue B. Disciplined Acquisition and Systems
         Engineering Strategy
            The Air Force desired to accelerate replacements of its aging KC-135E tanker
            fleet by using congressional authorization to lease up to 100 Boeing KC-767A
            Tanker aircraft. Specifically, the Air Force used Section 8159 of the Department
            of Defense Appropriations Act for FY 2002 to justify its informal acquisition
            strategy, the focus and goal of which was to expeditiously lease 100 Boeing
            KC-767A Tanker aircraft and adequately considering prudent acquisition
            procedures and best business practices. As discussed in Issue A, significant
            development effort remains to convert the Boeing 767 “green aircraft” into an
            integrated military configuration with the Air Force negotiating to pay $*.* billion
            for the development and modification of the Boeing 767 “green aircraft” into a
            tanker aircraft. Without a disciplined acquisition and systems engineering
            strategy, the Air Force did not adhere to management controls needed to reduce
            program risks associated with aircraft development and to accomplish program
            objectives in terms of cost, schedule, and performance.

Discussion of Issue
            Using Section 8159 of the Department of Defense Appropriations Act for
            FY 2002 as its informal acquisition strategy, the Air Force did not demonstrate
            best business practices and prudent acquisition procedures in developing the
            Boeing KC-767A Tanker Program and did not comply with statutory provisions
            for testing.

            •   Acquisition Strategy. The Air Force did not establish an acquisition strategy
                that serves as a sensible process for acquiring a tanker aircraft to satisfy the
                warfighter needs. Without a disciplined acquisition strategy, the Air Force
                can not ensure the warfighter that Boeing will deliver KC-767A Tanker
                aircraft that will satisfy all operational requirements (Issue B-1).

            •   System Engineering Requirements. The KC-767A System Program Office
                did not fully develop system engineering requirements to convert the
                commercial non-developmental aircraft into an integrated military
                configuration. Without fully developing system engineering requirements for
                aircraft conversion, the Boeing KC-767A Tanker aircraft may not meet the
                operational requirement for a 40-year service life as well as command, control,
                communications, computers, and intelligence (C4I) support plan requirements
                (Issue B-2).

            •   Operational Requirements Document. The first 100 Boeing KC-767A
                Tanker aircraft acquired will not fully meet warfighter requirements,
                including a key performance parameter for the information exchange




*
    Contractor proprietary and negotation sensitive data omitted.
                                                       62
             requirements.6 This occurred because the Air Force tailored the first spiral or
             increment of the operational requirements document (ORD) for the Boeing
             KC-767A Tanker aircraft to correlate closely with the capabilities of the
             Boeing 767 tanker variant that Boeing was producing for the Italian
             government. As a result, the first 100 Boeing KC-767A Tankers will not meet
             the operational requirement for interoperability and will not meet the ORD
             mission capabilities to conduct secondary missions, such as cargo/passenger
             and aeromedical evacuation missions (Issue B-3).

        •    Testing Statutory Provisions. The Air Force did not comply with
             Sections 2366 and 2399 of title 10, United States Code for determining the
             operational effectiveness, suitability, and survivability of the Boeing 767A
             Tanker aircraft before proceeding beyond low-rate initial production
             (normally 10 percent of the total production quantity documented in the
             acquisition strategy) and committing to the subsequent production of all
             100 Boeing KC-767A Tanker aircraft. By not complying with the statutory
             provisions, the Boeing KC-767A Tanker aircraft delivered to the warfighter
             may not be operationally effective, suitable, and survivable (Issue B-4).

Management Comments on Issue B
        The Assistant Secretary of the Air Force (Acquisition) commented on
        inaccuracies in this report. In the margins of the Management Comments section
        of this report, we indicate whether we deemed it necessary to modify the report in
        response to the purported report inaccuracies. The complete text of those
        comments is in the Management Comments section of this report.

Issue B-1. Acquisition Strategy
        Conclusion and Results Summary. The KC-767A System Program Office has
        not developed and documented an acquisition strategy that serves as a disciplined
        process for acquiring a quality product that satisfies the warfighter needs at a fair
        and reasonable price. Instead, the KC-767A System Program Office7 used
        Section 8159 of the Department of Defense Appropriations Act for FY 2002 to
        justify its informal acquisition strategy, the focus and goal of which was to
        expeditiously lease 100 Boeing KC-767A Tanker aircraft without adequate
        consideration of best business practices, prudent acquisition procedures, and
        compliance with statutory provisions for testing.

        Without a disciplined acquisition strategy, the Air Force cannot ensure the
        warfighter that Boeing will deliver KC-767A Tanker aircraft that will satisfy
        operational requirements. Therefore, the Under Secretary of Defense for


6
  Key performance parameters are minimum attributes or characteristics considered most essential for an
  effective military capability. Correspondingly, information exchange requirements are requirements that
  define the interoperability key performance parameter threshold and objective values documented in the
  operational requirements document.
7
  Program officials stated that although the KC-767A System Program Office reports through the program
  executive officer structure, it is technically not a program office because it is a pre-major Defense
  acquisition program.
                                                   63
Acquisition, Technology, and Logistics should not allow the Air Force to proceed
with the current acquisition plan for 100 tanker aircraft until the Air Force has at
least prepared a viable and executable acquisition strategy that includes
compliance with statutory provisions for testing,prudent acquisition procedures,
and best business practices to satisfy the warfighter needs for tanker aircraft at a
fair and reasonable price.

If the Air Force cannot or will not follow the suggested recommendations for this
issue and subsequent issues on systems engineering, operational requirements,
and testing, then it should initiate a new major Defense acquisition program for
tanker aircraft as well as a competitive procurement for the aircraft to achieve the
requirements of the warfighter. The Air Force should not proceed with the
sole-source acquisition of the Boeing KC-767A Tanker Program for 100 or fewer
aircraft until recommendations to resolve contracting and acquisition issues are
implemented.

Criteria. Office of Management and Budget Circular No. A-109, “Major
Systems Acquisitions,” April 5, 1976; and DoD Instruction 5000.2, “Operation of
the Defense Acquisition System,” May 12, 2003, provide guidance concerning
system requirements associated with the acquisition strategy.

         Office of Management and Budget Circular No. A-109. OMB Circular
No. A-109 states that Federal agencies should ensure that each major system, such
as the Boeing KC-767A Tanker aircraft, fulfills a mission need, operates
effectively in its intended environment, and demonstrates a level of performance
and reliability that justifies the allocation of the Department’s limited resources
for its acquisition and ownership. The OMB Circular No. A-109 also requires
that each agency acquiring major systems should tailor an acquisition strategy for
each program and refine the strategy as the program proceeds through the
acquisition process to encompass test and evaluation criteria and business
management considerations.

Further, OMB Circular No. A-109 states that full production may be approved
when the agency’s mission and program objectives are reaffirmed and when
system performance has been satisfactorily tested, independent of the agency
development and user organizations, and evaluated in an environment that assures
demonstration in expected operational conditions. Exceptions to independent
testing may be authorized by the agency head under such circumstances as
physical or financial impracticability or extreme urgency.

        DoD Instruction. DoD Instruction 5000.2 requires the program manager
to prepare and the milestone decision authority to approve an acquisition strategy
at Milestone B, which is the initiation of an acquisition program. Further, the
Instruction states that the acquisition strategy guides a program during system
development and demonstration and includes a technology development strategy
for the next technology spiral. In an evolutionary acquisition program, the
development of each spiral is to begin with a Milestone B, and production
resulting from that increment is to begin with a Milestone C, low-rate initial
production decision. For a spiral development, a desired capability is identified,
but the end-state requirements are not known at program initiation. The
requirements for future spirals depend on feedback from users and technology


                                     64
            maturation. In no case will full funding8 be done later than Milestone B for
            acquisition programs, not leases, unless a program first enters the acquisition
            process at Milestone C. The DoD Instruction 5000.2 also requires low-rate initial
            production quantities to be minimized and for the milestone decision authority to
            determine the low-rate initial production quantity for major Defense acquisition
            programs at Milestone B. Further, the Instruction requires that after its
            determination, the low-rate initial production quantity for a major Defense
            acquisition program (with rationale for quantities exceeding 10 percent of the
            total production quantity documented in the acquisition strategy) be included in
            the first Selected Acquisition Report.

            Results. The KC-767A System Program Office did not have a formal, written
            acquisition strategy. Instead, it used Section 8159 of the Department of Defense
            Appropriations Act for FY 2002 to justify its informal acquisition strategy and did
            not adequately consider best business practices and prudent acquisition
            procedures to acquire a quality product that satisfies the warfighter needs at a fair
            and reasonable price. The focus and goal of the informal acquisition strategy was
            to expeditiously lease 100 Boeing KC-767A Tanker aircraft.

            Section 8159 authorized the Secretary of the Air Force to lease not more than
            100 Boeing 767 air refueling aircraft; however, it did not mandate that the
            Air Force lease 100 tanker aircraft. It was up to the Air Force pursuant to the
            tenets of OMB Circular No. A-109 and best practices of acquisition management
            principles to determine how and whether to fully use this authority in the most
            cost effective manner while meeting both warfighter needs and providing
            stewardship over monies that would be obligated.

            To meet those tenets and best practices, the KC-767A System Program Office
            should have addressed in its acquisition strategy methods for managing a program
            of this dollar magnitude and complexity early on, particularly with respect to the
            magnitude of the developmental aspects of the program. Specifically, the
            informal acquisition strategy did not include:

                     •   a viable acquisition approach to rapidly deliver to the warfighter an
                         affordable, sustainable capability that meets their expectations and
                         adequate consideration for best business practices, applicable laws,
                         and prudent acquisition procedures;

                     •   a discussion of development, production, life-cycle support and costs,
                         and test and evaluation activities that provides teaming among the
                         warfighters, developers, acquirers, engineers, testers, budgeters, and
                         sustainers;

                     •   program risk management to mitigate the risk and not simply accept it;
                         and




8
    DoD Instruction 5000.2 requires full funding at formal program initiation of an acquisition program. Full
    funding means having approved current and projected resources in the Future Years Defense Program
    sufficient to execute the acquisition program.
                                                       65
           •   life-cycle sustainment of the Boeing KC-767A Tanker aircraft,
               including subsequent spiral development.

    According to the KC-767A System Program Office, the Air Force plans to
    prepare a formal, written acquisition strategy as part of the Single Acquisition
    Management Plan for the Boeing KC-767A Tanker Program prior to contract
    award.

Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics either:

           a. After implementation of audit recommendations to resolve
    contracting and acquisition issues, proceed with the sole-source acquisition of
    the Boeing KC-767A Tanker Program for 100 or fewer aircraft.

            b. Initiate a new major Defense acquisition program based on the
    results of the analysis of alternatives for military tanker aircraft.

          c. Implement a mix of Recommendation B.1.a. for some of the
    tankers and Recommendation B.1.b. for subsequent tankers.

    Acting Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Acting Under Secretary stated that the program was
    currently under suspension pending the outcome of ongoing studies of the
    program and that he would like to hold his comments until these studies are
    completed. For the complete text of the Acting Under Secretary’s comments, see
    the Management Comments section of the report.

    Air Force Comments. Although not required to comment, the Assistant
    Secretary of the Air Force (Acquisition) did not concur with the recommendation,
    stating that the Air Force followed a formal acquisition strategy as dictated by
    Congress and DoD and complied with the FAR, statutes, and common
    commercial practices. The Assistant Secretary recommended that the Department
    proceed with a sole-source acquisition of the Boeing KC-767A Tanker aircraft as
    mandated by Congress and as reviewed and approved within the Department
    using approved acquisition processes. For the complete text of the Assistant
    Secretary’s comments, see the Management Comments section of the report.

    Audit Response. The Congress did not dictate in the legislation authorizing the
    Air Force to acquire the 100 general purpose Boeing 767 aircraft that the Air
    Force use the legislation as the basis for the acquisition strategy and not to comply
    with statutes, the FAR, and DoD acquisition policy. As evidenced in Issue A and
    B, the Air Force did not comply with five statutory provisions relating to
    commercial items, testing (two statutes), cost-plus-a-percentage-of-cost system of
    contracting, and leases that have not yet been satisfied. In Issue A, we discussed
    instances where the Air Force did not comply with FAR requirements concerning
    the definition of a commercial item and obtaining a fair and reasonable price. As

                                         66
            discussed above, the Air Force’s informal acquisition strategy did not comply
            with DoD acquisition policy because it did not establish a disciplined approach.
            By not implementing a disciplined acquisition strategy, the Air Force has not
            fulfilled its fiduciary responsibilities to the Department and cannot assure the
            warfighter that Boeing will deliver KC-767A Tanker aircraft that will satisfy
            operational requirements.

Issue B-2. Systems Engineering
            Conclusion and Results Summary. Costly contract modifications to convert the
            commercial aircraft to the KC-767A military configuration will occur because the
            KC-767A System Program Office had not fully developed system engineering
            requirements. Further, the KC-767A System Program Office and Boeing did not
            establish a performance metric9 for verifying that the KC-767A Tanker aircraft
            will meet the requirements for a 40-year service life while operating 750 hours
            per year. Without a performance metric for verifying this requirement and
            inclusion in the system specification of requirements for protective measures to
            control corrosion in the Boeing KC-767A Tanker contract, the tanker aircraft that
            Boeing will deliver are at a high risk of:

                      •   not meeting the tanker operational requirement for a 40-year service
                          life while operating 750 hours per year, and

                      •   not being able to accomplish its mission as specified in the mission
                          needs statement and the operational requirements document.

            Also, because a C4I support plan10 had not been completed according to the
            KC-767A System Program Office, the System Program Office cannot identify,
            plan, and manage C4I interoperability, interface, and infrastructure requirements
            before award of the tanker aircraft contracts. As a result, C4I issues identified by
            implementing the support plan may not be resolved before award of the contract,
            and the first spiral of Boeing KC-767A Tanker aircraft are at greater risk of not
            being able to satisfy the warfighter’s C4I supportability needs and interface and
            interoperability requirements.

            Criteria. DoD Directive 5000.1, “The Defense Acquisition System,” May 12,
            2003; and DoD Instruction 5000.2, “Operation of the Defense Acquisition
            System,” May 12, 2003; and Defense Guidebook, “Interim Defense Acquisition
            Guidebook,” October 30, 2002, provide guidance concerning systems
            engineering.

                   DoD Directive. DoD Directive 5000.1 requires that acquisition programs
            be managed through the application of a systems engineering approach that
            optimizes total system performance and minimizes total ownership costs.



9
    The performance metric measures technical development and design and the extent to which systems meet
    requirements.
10
     The support plan identifies C4I, surveillance, and reconnaissance needs; dependencies; and interfaces that
    focus attention on interoperability, supportability, and sufficiency concerns throughout a program’s life cycle.
                                                          67
                    DoD Instruction. DoD Instruction 5000.2 states that effective
            sustainment of weapon systems begins with the design and development of
            reliable and maintainable systems through the continuous application of a robust
            systems engineering methodology. Further, the Instruction requires the program
            manager to prepare a C4I support plan before the decision reviews for entering
            into the system development and demonstration and the production and
            deployment phases of the acquisition process.

                    Defense Guidebook. The Defense Guidebook states that systems
            engineering translates operational requirements into configured systems,
            integrates technical inputs of the entire design team, manages interfaces,
            characterizes and manages technical risk, transitions technology from the
            technology base into program specific efforts, and verifies that designs meet
            operational needs. Further, the Guidebook states that systems engineering
            principles influence the balance between performance, risk, cost, and schedule.
            The Guidebook also states that the program manager is expected to implement a
            sound systems engineering approach to translate approved operational needs and
            requirements into operationally suitable blocks of systems.

            Results. The KC-767A System Program Office did not have a performance
            metric for verifying that the Boeing KC-767A Tanker aircraft will meet the
            40-year service life and did not have requirements for interoperability with other
            systems, combat identification, and the integration of secure communications in
            the system specifications for the Boeing KC-767A Tanker contract.

                   Service Life. The KC-767A System Program Office and Boeing are
            developing the KC-767A Tanker aircraft from the Boeing GTTA that has a
            20-year service life instead of a 40-year service life as operationally required for
            the Boeing KC-767A Tanker aircraft.



                         *                *                *                 *               *




                          *               *                *                 *               *


                     •   The Boeing KC-767A Tanker Program Engineer Team was also
                         concerned that the negotiated contracts did not obligate Boeing to
                         conduct appropriate system engineering, development, and testing to
                         address the tanker 40-year service life requirement, including
                         corrosion prevention.



*
    Negotiation sensitive data omitted.
11
                       *                  *            *                 *               *

                                                 68
                    •   Although corrosion and associated maintenance costs were the primary
                        drivers for accelerating the replacement of the KC-135E tankers, the
                        system specification in the negotiated Boeing KC-767A Tanker
                        Program contracts did not specify protective measures to control
                        aircraft corrosion in the different climates in which the aircraft is
                        expected to operate. The Boeing KC-767A Tanker Program Engineer
                        Team stated that the aircraft system specification, which should
                        address the corrosion issue, is under revision.

                   Interoperability, Combat Identification, and Secure Communications.
           The KC-767A System Program Office did not include operational requirements
           for interoperability with other systems, combat identification, and the integration
           of secure communications in the system specification of the negotiated contracts
           for the Boeing KC-767A Tanker aircraft.

                    •   The KC-767A System Program Office identified issues concerning
                        interoperability and certification of software interfaces as a result of
                        performing an engineering assessment of the operational requirements
                        document, the system specifications, the statement of work for the
                        proposed contract, and the airworthiness certification.

                            − The operational requirements document requires the Boeing
                              KC-767A Tanker aircraft to comply with the Joint Technical
                              Architecture, the Defense Information Infrastructure Common
                              Operating Environment, the Global Information Grid, and
                              combat identification; however, the Air Force did not levy
                              those requirements on Boeing in the contract.

                            − The system specification did not address all technical
                              requirements. Specifically, the             *
                                                               states that 100 percent of the
                              top-level information exchange requirements designated as
                              critical will be satisfied; however, those information exchange
                              requirements were not included in the system specification.

                            − The Boeing KC-767A Tanker Program Engineer Team stated
                              that the Boeing KC-767A Tanker Program has significant risks
                              associated with the integration of secure communications
                              (Link 16) as this requirement was not included in the system
                              specification of the negotiated contracts for the Boeing
                              KC-767A Tanker aircraft. The Link 16 provides for the
                              exchange of air, space, surface, subsurface, and ground tracks
                              and for the identification, location, and status of friendly
                              forces.

                    •   Although DoD Instruction 5000.2 requires a C4I support plan and the
                        operational requirements document states that the plan will be
                        developed, the KC-767A System Program Office stated that it had not
                        completed a C4I support plan to identify, plan, and manage C4I


*
    Predecisional documentation omitted.
                                                 69
               supportability needs, dependencies between systems, and interface and
               interoperability requirements.

Recommendations, Management Comments, and Audit
  Response
    B.2. We recommend that the Program Director, KC-767A System Program
    Office:

            a. Establish a process to develop a performance metric for verifying
    that the Boeing KC-767A Tanker aircraft will meet the 40-year service life to
    satisfy warfighter requirements.

    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred, stating that the KC-767A System Program Office will closely work
    with the contractor to use sound system engineering processes and develop
    technical performance measures that will identify by event and parameter the
    level of performance required. The Boeing KC-767A Tanker aircraft 40-year
    service life requirement is addressed in the system specification as a Federal
    Aviation Administration (FAA)-verified requirement. This FAA structural
    evaluation is required in FAA Federal Aviation Regulation 14, Code of Federal
    Regulations, Section 25.571, “Damage Tolerance and Fatigue Evaluation of
    Structure,” and Appendix H, Part 25, “Instructions for Continued Airworthiness.”

    Audit Response. The Air Force comments were partially responsive to the
    recommendation. The ORD requires that the Boeing KC-767A Tanker aircraft
    have a 40-year service life. However, the design of the Boeing KC-767A Tanker
    aircraft is based on the design of the Boeing GTTA that has a 20-year service life
    according to its system specification. The Air Force comments did not identify
    specific documents or performance parameters that it would use to ensure that the
    Boeing KC-767A Tanker aircraft would achieve the 40-year service life
    requirement. Further, the Air Force indicated that there is no contractual remedy
    if the aircraft does not achieve the required 40-year service life. We request that
    the Air Force identify the specific technical performance measures that it will put
    in place to ensure that the Boeing KC-767A Tanker aircraft will meet the 40-year
    service life requirement.

           b. Revise the system specification for the Boeing KC-767A Tanker
    contracts to include a requirement for protective measures to control
    corrosion in the tanker aircraft.

    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred, stating that the aircraft manufacturing processes, procedures, material
    selections, and the planned maintenance approach must clearly address corrosion
    prevention, and must take into account the planned service spectrum and
    operational environment of the Boeing KC-767A Tanker aircraft. Accordingly,
    the KC-767A System Program Office would work with the contractor to add
    language to the system specification to define the specific environment conditions
    (that is, sand, salt fog, etc.) to reflect the planned operational environment of the
    aircraft.

                                         70
Audit Response. The Air Force comments were partially responsive to the
recommendation. The Air Force needs to make required changes to the system
specification before contract award to address corrosion prevention and control in
the aircraft manufacturing processes, procedures, material selections, corrosion
testing and verification, and the planned maintenance approach. The DoD
Corrosion Prevention and Control Handbook provides corrosion prevention
provisions that should be included in the KC-767A system specification.
Specifically, Section 2, “Applicable Documents,” of the system specification
should reference all appropriate commercial and military standards for corrosion
prevention. Section 3, “Requirements,” of the system specification should detail
requirements for materials, design, service environment, maintainability, and
environmental compliance. Finally, Section 4, “Verification,” of the system
specification should provide details on corrosion prevention and control testing
and verification, which are done at the component, subsystem, and system level as
appropriate.

If the Air Force does not revise the KC-767A system specification to include
those corrosion prevention and control requirements before contract award for the
first 100 aircraft, it may incur significant additional contract costs to add those
requirements to the system specification. Accordingly, we request that the
Air Force provide additional clarifying comments to the recommendation in
response to the final report.

        c. Revise the system specification for the Boeing KC-767A Tanker
contracts to include requirements in the operational requirements document
for interoperability with other systems, integration of secure
communications, and combat identification.

Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
concurred, stating that the C4I support plan under development would include
applicable interoperability and information assurance requirements. The
KC-767A System Program Office would implement changes for missing C4I
requirements in the system specification through the contract change clause, if
contract changes were required.

Further, the System Program Office would assess beyond line of sight Link 16,
secure voice, data communications, and other potential aspects pertaining to
information assurance requirements for the DoD Information Technology
Security Certification and Accreditation Process.

Audit Response. The Air Force comments were partially responsive to the
recommendation. Because the C4I support plan is still under development, the
System Program Office has not yet identified and verified that all Boeing
KC-767A Tanker aircraft interoperability capabilities are in the system design.
By not completing the C4I support plan before delivery of the aircraft, the
Air Force cannot identify, plan, and manage warfighter C4I supportability needs,
dependencies between systems and interface, and interoperability requirements.
As a result, the Air Force risks the need to use the contract change clause, which
sometimes results in costly system design, build, and documentation changes to
correct deficiencies. Therefore, we request that the Air Force reconsider its
position of not revising the contractual system specification to include all C4I
requirements for interoperability with other systems, integration of secure

                                    71
    communications, and combat identification until after the award of contracts for
    the first l00 aircraft.

            d. Complete a command, control, communications, computers, and
    intelligence support plan for the Boeing KC-767A Tanker aircraft to address
    interoperability, supportability, information assurance and sufficiency
    concerns, include it in the statement of work before award of the contracts,
    and resolve issues identified by implementing the support plan before system
    acceptance testing.

    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred, stating that the KC-767A System Program Office commenced
    development of the C4I support plan in December 2003. After the C4I support
    plan is approved, the System Program Office would implement necessary changes
    to the system specification through the contract change clause, if contract changes
    were required.

    Audit Response. The Air Force comments were partially responsive to the
    recommendation. DoD Instruction 5000.2, “Operation of the Defense Acquisition
    System,” requires that the C4I support plan be completed before the production
    decision. The Air Force solution of using the contract change clause to
    incorporate required interoperability capabilities identified in the C4I support plan
    in the system specification after contract award is not in compliance with DoD
    policy. A fully developed C4I support plan before award of production contracts
    is necessary to enable the KC-767A System Program Office to determine whether
    the C4I design meets the needs of the program as well as identifying
    dependencies between systems, identifying interface requirements, and
    determining whether the C4I system is supportable, adequate, and sufficient.
    Because the KC-767A System Program Office does not plan to complete the C4I
    support plan before the award of production contracts, the Air Force risks the
    need to use the contract change clause to address C4I design and implementation
    issues. Such contract changes sometimes results in costly system design, build,
    and documentation changes. Therefore, we request that the Air Force, in response
    to the final report, reconsider its position of not completing the C4I support plan
    before award of the production contracts, and resolve C4I issues identified as a
    result of implementing the C4I support plan before system acceptance testing.

Issue B-3. Operational Requirements Document
    Conclusion and Results Summary. Although the ORD, “Air Refueling Aircraft
    Program,” October 22, 2002, for the tanker aircraft incorporates the warfighter
    requirements from the Mission Needs Statement, “Future Air Refueling Aircraft,”
    November 1, 2001, it did not require that the first 100 Boeing KC-767A Tanker
    aircraft acquired meet those requirements. The Air Force plans to address the
    requirements through evolutionary acquisition in three spirals. However, for the
    first 100 Boeing KC-767A Tanker aircraft, the Air Force did not:




                                         72
            •   include in the contractual specifications the ORD key performance
                parameter for information exchange requirements from the first spiral,
                and

            •   plan to incorporate all of the spiral 2 and 3 capabilities.

     The Air Force considers the 100 Boeing KC-767A Tanker aircraft as a temporary
     solution to replace the KC-135E fleet until the next generation of KC-X tanker
     aircraft can be developed to meet the warfighter requirements in the mission
     needs statement.

Criteria and Results
     Criteria. DoD Instruction 5000.2, “Operation of the Defense Acquisition
     System,” May 12, 2003; and Chairman of the Joint Chiefs of Staff
     Instruction 3170.01C, “Joint Capabilities Integration and Development System,”
     June 24, 2003, provide guidance concerning ORDs.

              DoD Guidance. DoD Instruction 5000.2 requires the user to prepare the
     ORD (now called the capability development document) to support program
     initiation, refine the integrated architecture, and clarify how the program will lead
     to joint warfighting capability. The ORD builds on the mission needs statement
     (now called the initial capabilities document) and provides the detailed
     operational performance parameters necessary to design the proposed system.
     Further, the Instruction states that spiral development is used when the desired
     capability is identified, but the end-state requirements are not known at program
     initiation. Each increment provides the user the best possible capability. The
     requirements for future increments depend on feedback from users and
     technology development. Further, each set of key performance parameters only
     applies to the current spiral of capability.

             Chairman of the Joint Chiefs of Staff Instruction. Chairman of the
     Joint Chiefs of Staff Instruction 3170.01C states that the ORD (the capabilities
     development document) is based on the mission needs statement (the initial
     capabilities documents) and includes the information necessary to develop a
     proposed program. The Instruction further states that the ORD outlines a
     militarily useful and supportable operational capability that can be effectively
     developed, produced or acquired, deployed, and sustained.

     Results. The ORD for the tanker aircraft did not require that the first 100 Boeing
     KC-767A Tanker aircraft acquired meet warfighter requirements in the mission
     needs statement. Specifically, the Air Force planned to address the requirements
     through evolutionary acquisition in three spirals. However, for the first 100
     Boeing KC-767A Tanker aircraft acquired, the Air Force only included 6 of the 7
     ORD key performance parameters and did not include the key performance
     parameter for information exchange requirements, which was a spiral-one ORD
     requirement. Further, the Air Force has no plans to incorporate 12 of the
     48 spiral-two and all 17 of the spiral-three capabilities into the first 100 aircraft.
     By not including the key performance parameter for information


                                           73
        exchange requirements in spiral one, the Air Force may not achieve the objectives
        of the remaining key performance parameters because of their dependency on
        interoperability capabilities.

                Justification for Limited Operational Requirements. Section 8159 of
        the Department of Defense Appropriations Act for FY 2002 authorized the
        Air Force to lease not more than 100 general purpose Boeing 767 aircraft. In
        anticipation of the legislation, the Deputy Director, Operational Requirements,
        Office of the Deputy Chief of Staff, Air and Space Operations directed that the
        ORD requirements for the first 100 aircraft correlate closely with the Boeing 767
        tanker that Boeing was producing for the Italian government. The Deputy
        Director also directed that the ORD not include operational requirements that
        would lengthen the delivery schedule and substantially increase aircraft costs.
        The resulting ORD included references to Boeing 767-specific information that
        was later removed at the direction of the Joint Requirements Board.

                Evolutionary Acquisition. The ORD for the tanker aircraft includes
        three spirals for system development. According to the Air Force Deputy
        Director, Operational Requirements, the first spiral for the first 100 Boeing
        KC-767A Tanker aircraft requires that the aircraft be more capable than the
        KC-135E tanker aircraft that it is replacing for the primary mission of tanker
        refueling. However, the first 100 KC-767A Tanker aircraft acquired will not fully
        meet warfighter requirements because:

                 •    the negotiated contract for the first spiral did not include:

                       − the ORD information exchange requirement key performance
                         parameter; and

                       − the ORD mission capability to refuel multiple aircraft
                         simultaneously.

                 •    the system specifications for the first 100 aircraft did not include:

                       − the ORD mission capabilities to conduct secondary missions, such
                         as combined cargo/passenger transportation and aeromedical
                         evacuation; and

                       − the ORD requirement for a fully mission capable rate of at least
                         80 percent.12

        As a result, the 100 Boeing KC-767A Tanker aircraft will not meet the ORD key
        performance parameter for interoperability and will not meet the ORD mission
        capabilities to conduct secondary missions.

                Future Spirals. The Air Force Deputy Director, Operational
        Requirements, Office of the Deputy Chief of Staff, Air and Space Operations
        stated that the tanker aircraft that will include all spiral-two and-three capabilities
        from the ORD may not be the Boeing KC-767A Tanker aircraft. That tanker

12
 Fully mission capable rate measures how long, in percent of possessed time, an aircraft can
 perform all of its assigned missions.
                                                   74
            aircraft may be another tanker aircraft because the Boeing KC-767A Tanker
            aircraft may not be the best and most affordable aircraft available to satisfy the
            warfighter requirements in the mission needs statement. Accordingly, the
            Air Force is continuing with its plans for the KC-X tanker, which was the future
            air refueling aircraft that the Air Force was considering before congressional
            authorization for the 100 Boeing KC-767A Tanker aircraft. The second and third
            spirals of the evolutionary acquisition will add warfighter capabilities in the
            mission needs statement for

                  *                   *           *                 *               *


Recommendations, Management Comments, and Audit
  Response
            Revised Recommendation. In response comments by the Assistant Secretary of
            the Air Force (Acquisition), we revised Recommendation B.3.a. to clarify that all
            key performance parameters were not in the contract or the system specifications,
            as required.

            B.3. We recommend that the Program Director, KC-767A System Program
            Office:

                    a. Verify that system specifications developed for the first spiral of
            the air refueling aircraft contract(s) include at least all key performance
            parameters in the operational requirements document.

            Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
            did not concur, stating that the ORD did not have deficiencies and requires all key
            performance parameters to be met in the first spiral. Further, the recommendation
            was redundant to the recommendations in Issue B.2.c. concerning the information
            exchange requirements topic. The KC-767A C4I support plan, which is currently
            under development by the KC-767A System Program Office will develop
            applicable interoperability and information assurance requirements (for example,
            secure communications, global information grid, and information exchange
            requirements) to meet the key performance parameter for the information
            exchange requirement for spiral one.

            Audit Response. The report does not raise issues on deficiencies in the ORD.
            Rather, a fundamental issue raised is that the Air Force did not verify that all key
            performance parameters in the ORD were included in the contract specifications.
            The contract specifications include six of seven key performance parameters and
            omit information exchange requirements as a key performance parameter (the
            seventh key performance parameter). That omission will result in incurring
            significant additional costs through subsequent contract modification(s) in order
            to achieve information exchange requirements as a key performance parameter.
            Recommendation B.2.c. addresses systems engineering issues of interoperability,
            integration of secure communications and combat identification.
            Recommendation B.3.a. addresses the omission of information exchange
*
    National security data omitted.
                                                 75
            requirements as a key performance parameter from the contract. As previously
            stated, key performance parameters are minimum attributes or characteristics
            considered most essential for an effective military capability. Correspondingly,
            information exchange requirements are requirements that define the
            interoperability key performance parameter threshold and objective values
            documented in the operational requirements document. In view of Assistant
            Secretary’s comments, we have revised the recommendation to clarify our
            position. We request the Air Force reconsider its position and provide additional
            comments on the recommendation.

                   b. Ensure that spiral two and three requirements are subsequently
            included in the first 100 and future air refueling aircraft.

            Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
            did not concur, stating that the spiral development strategy in the ORD was not
            deficient. Spiral developments do not need to be delivered with the first aircraft
            and should not be in the contract at this time. The ORD capabilities not in
            spiral one would be captured in a timely manner through spiral development.
            Further, no airplane can be optimized for all types of refueling missions.
            Recapitalization would include different types of aircraft (size and levels of
            development) with differing capabilities. This is similar to the current Air Force
            airlift fleet and the current tanker fleet where different types of aircraft meet
            different sets of requirements. The Air Force has no requirement to recapitalize
            all aircraft to have all the same capabilities.

            Audit Response. The Air Force comments were not responsive to the
            recommendation. Using an evolutionary acquisition strategy, the Air Force stated
            in the operational requirements document for the Air Refueling Aircraft Program
            that it planned to incorporate the warfighter requirements from the Mission Needs
            Statement, “Future Air Refueling Aircraft,” November 1, 2001, in three spirals.
            The Air Force plans, however, did not provide for retrofit of the first 100 Boeing
            KC-767A Tanker aircraft with ORD requirements deferred to spirals two and
            three of the evolutionary acquisition. We agree that all tanker aircraft acquired
            may not all have the exact same capabilities. However, to satisfy essential
            warfighter requirements identified in the Mission Needs Statement, the first 100
            aircraft must be retrofitted with spiral two and three ORD requirements for:




                      *               *              *                *                *




            Accordingly, we request the Air Force provide comments explaining how it plans
            to have the first 100 aircraft meet the ORD requirements.


*
    National security data omitted.
                                                76
Issue B-4. Testing
    Conclusion and Results Summary. The Air Force did not comply with statutory
    provisions for determining the operational effectiveness, suitability, and
    survivability of the Boeing 767A Tanker aircraft before proceeding beyond
    low-rate initial production and committing to the subsequent production of all
    100 KC-767A Tanker aircraft. Specifically, the KC-767A System Program
    Office planned to award the contracts for the lease of 20 tanker aircraft and the
    procurement of 80 tanker aircraft more than 3 years before performing initial
    operational test and evaluation of the system. Consequently, such a strategy does
    not protect the interests of the warfighter by ensuring that the warfighter receives
    aircraft that are operationally effective, suitable, and survivable.

    Criteria. Sections 2366 and 2399 of title 10, United States Code and DoD
    Instruction 5000.2 provide guidance concerning system testing.

            Section 2366. Section 2366 of title 10, United States Code, states that a
    covered system, a system under oversight by the Office of the Director,
    Operational Test and Evaluation, may not proceed beyond low-rate initial
    production (low-rate initial production is normally 10 percent of the total
    production quantity documented in the acquisition strategy)until realistic
    survivability testing of the system is completed. Further, Section 2366 states that
    survivability and lethality tests must be carried out early enough in the
    development phase of the system or program to allow any design deficiency
    identified by the testing to be corrected during the design of the system and before
    proceeding beyond low-rate initial production.

            Section 2399. Section 2399 of title 10, United States Code, states that a
    major Defense acquisition program may not proceed beyond low-rate initial
    production until initial operational test and evaluation of the program is
    completed. Further, Section 2399 states that a final decision within the
    Department of Defense to proceed with a major Defense acquisition program
    beyond low-rate initial production may not be made until the Director,
    Operational Test and Evaluation has submitted to the Secretary of Defense the
    Director’s report on the adequacy of the test and evaluation completed and
    effectiveness and suitability of the program. In addition, the congressional
    Defense committees must have received the Director’s report for the program to
    move beyond low-rate initial production.

             DoD Instruction. DoD Instruction 5000.2 requires the completion of
    initial operational test and evaluation, submission of a beyond low-rate initial
    production report for programs under oversight of the Director, Operational Test
    and Evaluation, and submission of a live-fire test and evaluation report, where
    applicable, to Congress, to the Secretary of Defense, and to the Under Secretary
    of Defense for Acquisition, Technology, and Logistics before deciding to
    continue beyond low-rate to full-rate production. Further, the Instruction states
    that the independent operational test authority is to use production or production
    representative articles for the dedicated phase of initial operational test and
    evaluation that supports the full-rate production decision.


                                        77
           Results. The Air Force did not comply with Sections 2366 and 2399 of title 10,
           United States Code requirements for determining the operational effectiveness,
           suitability, and survivability of the Boeing 767A Tanker aircraft before
           proceeding beyond low-rate initial production and committing to the subsequent
           production of all 100 Boeing KC-767A Tanker aircraft. Specifically, the
           KC-767A System Program Office did not plan on performing initial operational
           test and evaluation of the system until after the planned award of contracts for the
           lease of 20 tanker aircraft and the procurement of another 80 tanker aircraft. To
           ensure that the Boeing KC-767A Tanker aircraft are operationally effective and
           suitable, the Director, Operational Test and Evaluation, and Air Force Operational
           Test and Evaluation Center (AFOTEC) representatives indicated that operational
           testing should be conducted on production representative aircraft, as required by
           DoD Instruction 5000.2.

                   Director, Operational Test and Evaluation. On January 7, 2004, the
           Deputy Director, Conventional Systems, and the Deputy Director, Live Fire Test
           and Evaluation, Office of the Director, Operational Test and Evaluation issued a
           memorandum to the Director, Defense Systems, Office of the Under Secretary of
           Defense for Acquisition, Technology, and Logistics, stating that the purchase
           of 80 tanker aircraft constitutes proceeding beyond low-rate initial production for
           the Boeing KC-767A Tanker Program. The Deputy Directors stated that the
           Boeing KC-767A Tanker aircraft is a major Defense acquisition program and
           must comply with title 10 of the United States Code requirements for operational
           and survivability testing before the aircraft proceeds beyond low-rate production.

                    *                *               *              *                *

                               The Deputy Directors also stated that this testing would
           support the required reports to the Secretary of Defense and congressional
           Defense committees and a full-rate production decision review for the 80 tanker
           aircraft.

                   Air Force Operational Test and Evaluation Center. As evidenced in
                   *               *                *                 *                *
                               the Air Force did not plan to conduct operational testing until
           after award of the contracts for the lease of 20 tanker aircraft and the procurement
           of 80 tanker aircraft. Specifically, AFOTEC representatives stated that it did plan
           to conduct operational test and evaluation of a production Boeing KC-767A
           Tanker aircraft in January 2007, which was contingent on contract award in
           October 2003. To reduce program risks, AFOTEC also planned to begin
           operational flight tests of the GTTA in November 2004. The GTTA has the same
           boom and a similar Remote Air Refueling Station as the planned Boeing
           KC-767A Tanker aircraft. However, the GTTA varies from the Boeing KC-767A
           Tanker aircraft in several areas including the rudder, the cockpit, the flaps, the
           refuel tanks, and the Remote Air Refueling Operator Station configuration.
           Accordingly, AFOTEC stated that operational testing would still be required to be
           conducted for the Boeing KC-767A Tanker aircraft.




*
    Predecisional documentation omitted.
                                                78
Recommendations, Management Comments, and Audit
  Response
    B.4. We recommend that the Program Director, KC-767A System Program
    Office comply with the statutory provisions by conducting operational and
    survivability testing on production representative aircraft before committing
    to the production of all 100 Boeing KC-767A Tanker aircraft.

    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred by stating that the Air Force intends to comply with Sections 2366 and
    2399 of title 10, United States Code, as those sections apply to the Boeing
    KC-767A Tanker Program. Further, the Air Force developed the current test
    strategy before the National Defense Authorization Act for FY 2004 was
    approved on November 24, 2003. As a result of the December 1, 2003, pause that
    the Deputy Secretary of Defense levied on the Boeing KC-767A Tanker Program,
    the Air Force has not resolved the issues arising from the National Defense
    Authorization Act for FY 2004. The Air Force will continue to work within the
    DoD to resolve test and evaluation issues using the Overarching Integrated
    Product Team and Defense Acquisition Board processes.

    Audit Response. The Air Force comments were not responsive to the
    recommendation. In comments to Issue B-1, the Acquisition Strategy, the
    Air Force indicated that it did not plan to revise its acquisition strategy. Further,
    in comments received prior to issuance of the draft report on March 5, 2004, the
    Air Force stated that it did not intend to comply with title 10 statutory
    requirements. Specifically, it planned on performing survivability testing and
    initial operational test and evaluation of the system after the planned award of
    contracts for the lease of 20 tanker aircraft and the procurement of another
    80 tanker aircraft. Without revising the acquisition strategy to accommodate
    survivability testing and initial operational test and evaluation before acquiring all
    100 aircraft, the Air Force will not be able to satisfy the statutory requirements of
    Sections 2366 and 2399 of title 10, United States Code, and may incur costly
    upgrades and retrofits to meet operational effectiveness, suitability, and
    survivability requirements of the warfighter. Therefore, to satisfy statutory
    requirements, the Air Force must revise its acquisition strategy to accommodate
    testing requirements before proceeding beyond low-rate initial production and
    committing to the production of all 100 KC-767A Tanker aircraft. Accordingly,
    we request that the Air Force provide additional comments explaining how it
    plans to meet the statutory requirements for testing.




                                         79
Appendix A. Scope and Methodology
            We reviewed documentation dated from March 1984 through February 2004. To
            accomplish the audit objectives we reviewed the following:

                •    Program documents including the Operational Requirements Document,
                     October 22, 2002;
                       *               *                *                *                *
                                                          to determine whether the Air Force
                     KC-767A System Program Office developed and implemented an
                     acquisition strategy and a test and evaluation plan that were linked to user
                     requirements;

                •    Documents for the Boeing KC-767A Tanker lease, including commercial
                     item determination, justification for other than full and open competition;
                     the Institute for Defense Analyses report on the Boeing Tanker;
                                                     *                            ; the Boeing
                     and European Aeronautical Defence and Space Company, Incorporated,
                     responses to the Air Force request for information; the Air Force Report to
                     the Congressional Defense Committees on KC-767A Air Refueling
                     Aircraft Multiyear Lease Pilot Program; and               *
                                                               to determine whether the Boeing
                     KC-767A Tanker aircraft met the definition of a commercial item as
                     required by contracting procedures in Federal Acquisition Regulation,
                     Part 12; whether the Air Force had sufficient cost and pricing information
                     to negotiate a fair and reasonable price for the Boeing 767 “Green” or
                     unconverted aircraft; and whether the lease met the criteria for an
                     operating lease as described in Office of Management and Budget Circular
                     No. A-11;

                •    The system funding profile to determine whether the Air Force had
                     adequately identified program funding and the source of program funding
                     from other Air Force weapon system acquisition programs;

                •    Office of Management and Budget Circular No. A-11, “Preparation,
                     Submission, and Execution of the Budget,” Appendix A, “Score-Keeping
                     Guidelines” 2003, Congressional Budget Office, Section 4, Chapter 2,
                     “Budgetary Treatment of Leases,” February 2003; Office of Management
                     and Budget Testimony, “Before the Senate Armed Services Committee on
                     Lease of Boeing KC-767 Air Refueling Tanker Aircraft on Tanker Lease,”
                     September 4, 2003; Congressional Budget Office Report, “Assessment of
                     the Air Force’s Plan to Acquire 100 Boeing Tanker Aircraft,” August 26,
                     2003; and

                •    The Boeing website [www.boeing.com]

            We also contacted the staffs of the Offices of the Under Secretary of Defense for
            Acquisition, Technology, and Logistics; the Vice Chairman of the Joint Chiefs of

*
    Predecisional and negotiation sensitive data omitted.
                                                       80
    Staff; the General Counsel of the Department of Defense; the Director,
    Operational Test and Evaluation; the Air Force Operational Test and Evaluation
    Command; the Assistant Secretary of the Air Force (Acquisition); the Assistant
    Secretary of the Air Force (Financial Management and Comptroller); the Defense
    Contract Audit Agency; the Defense Criminal Investigative Service; the Air Force
    Audit Agency; the Air Force Contracting Office, Wright-Patterson Air Force
    Base; the Air Force KC-10 System Program Office; the Air Force KC-767A
    System Program Office; and the Office of Management and Budget (Budget
    Analysis) to identify program background, history, and reasons for management
    actions to lease and procure the Boeing 767A Tanker aircraft.

    We performed this audit from December 1, 2003, through February 27, 2004, in
    accordance with generally accepted government auditing standards.

    Limitations. We did not review the management control program because the
    audit focused on whether any compelling reason existed as to why the Air Force
    should not proceed with the tanker lease; therefore, our scope was limited to
    compelling reasons for not proceeding with the lease. Further, because of time
    constraints, we did not review:

           •   the validity of the requirements for the tanker aircraft;

           •   the condition of the Air Force’s current tanker fleet in terms of
               corrosion and increased maintenance costs; and

           •   whether other tanker aircraft should be considered to meet user
               requirements.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Weapon Systems Acquisition and DoD Contract Management high-risk
    areas.

Prior Coverage
    During the last 5 years, the General Accounting Office, the Inspector General of the
    Department of Defense, the Office of Management and Budget, and the
    Congressional Budget Office have issued six reports or testimonies addressing the
    Boeing KC-767A Tanker Program. Unrestricted General Accounting Office and
    Inspector General of the Department of Defense reports can be accessed at
    http://www.gao.gov and http://www.dodig.osd.mil/audit/reports, respectively.

    General Accounting Office (GAO)
           GAO Testimony No. GAO-03-1143T, “Military Aircraft: Observations
           on the Air Force’s Plan to Lease Aerial Refueling Aircraft,” September 3,
           2003

                                         81
                     GAO Testimony No. GAO-03-938T, “Military Aircraft: Information on
                     Air Force Aerial Refueling Tankers,” June 24, 2003

                     GAO Report No. GAO-02-724R, “Air Force Aircraft: Preliminary
                     Information on Air Force Tanker Leasing,” May 15, 2002

            Inspector General of the Department of Defense (IG DoD)
                     IG DoD Report No. D-2003-129, “Assessment of DoD Leasing Actions,”
                     August 29, 2003

            Office of Management and Budget
                     Testimony “Before the Senate Armed Services Committee on Lease of
                     Boeing KC-767 Air Refueling Tanker Aircraft on Tanker Lease,”
                     September 4, 2003

            Congressional Budget Office
                     Congressional Budget Office Report, “Assessment of the Air Force’s Plan
                     to Acquire 100 Boeing Tanker Aircraft,” August 26, 2003

Ongoing Audit Coverage
            In a separate project, we are reviewing the C-130J aircraft program that used a
            similar sole-source commercial item acquisition strategy with a fixed-price
            contract.




                     *                 *         *              *              *




            On December 18, 2003, the Secretary of the Air Force through the Deputy
            Assistant Secretary of the Air Force for contracting requested that we also review
            the negotiation of the contract restructure with the Boeing Corporation for the
            North Atlantic Treaty Organization Airborne Warning and Control System
            Mid-Term Modernization Program.




*
    Contractor proprietary data omitted.
                                                82
___________________________________________________________________



Appendix B. Deputy Secretary of Defense
            Request and Prior Reviews of the
            Boeing KC-767A Tanker Program




                             83
Prior Reviews of the Boeing KC-767A Tanker Program
    Although we identified contracting and acquisition problems during the audit as
    discussed in Issues A and B, those results did not affect our previous two analyses
    of the tanker program because they did not involve an examination of contract
    issues and acquisition processes. The two analyses were in response to requests
    by the Chairman, Committee on Commerce, Science, and Transportation, U.S.
    Senate; and the Acting Under Secretary of Defense for Acquisition, Technology,
    and Logistics.

    Chairman Request. On April 17, 2002, the Chairman, Committee on
    Commerce, Science, and Transportation requested that we assess the Air Force
    decision to select the Boeing 767 rather than the Airbus 330 for its air refueling
    tankers. On May 3, 2002, the Inspector General of the Department of Defense
    issued a memorandum, stating that the Air Force did not fully accomplish the
    purpose of Federal Acquisition Regulation Subpart 15.201, “Exchanges With
    Industry Before Receipt of Proposals,” which was to improve the understanding
    of Government requirements and industry capabilities through the exchange of
    information with potential offerors. However, because Section 8159 of the
    Department of Defense Appropriations Act for FY 2002 specified Boeing aircraft,
    the Air Force stated that the normal processes of a request for information were
    not necessary. Consequently, we did not take exception to the selection of the
    Boeing 767, because it was specified in legislation.

    Acting Under Secretary Request. On July 22, 2003, the Acting Under Secretary
    of Defense for Acquisition, Technology, and Logistics requested that we:
           • review the decision process used by the Air Force and the Office of the
               Secretary of Defense to lease the Boeing KC-767A Tanker aircraft,
               and
           • assess whether DoD interaction with Congress following the Lease
               Decision Memorandum signed May 23, 2003, was timely and
               reasonable.

    On August 29, 2003, we issued Inspector General of the Department of Defense
    Report No. D-2003-129, “Assessment of DoD Leasing Actions,” stating that,
    although not required by statute, applying a best business practice of weighing the
    need to conduct a formal analysis of alternatives to achieve the best possible
    system solution could have improved the Air Force Leasing process. Further, a
    best business practice would have been to expand the charter of the Leasing
    Review Panel to include the Panel’s role in the acquisition process and in the life
    cycles of the leases. We also determined that of the six letters from the Chairman,
    Committee on Commerce, Science, and Transportation and the one letter from the
    Congressional Budget Office, five were generally timely and two were not timely.
    Further, two responses could have been improved by a more comprehensive
    answer to portions of the requests. However, we did not identify a reason to not
    proceed with the lease of the Boeing KC-767A Tanker aircraft based on the
    limited scope of our review.


                                        84
Appendix C. Timeline of Events


                  KC-135 Economic Service Life Study                            SAF/AQ briefed on                  Department of Defense
                  finds that the fleet is structurally                          Boeing Aerial Tanker               and Emergency Supplemental                                                                                                                                         Air Force Tanker
                  viable to 2040                                                                                   Appropriations for Recovery        General Accounting Office                                                                                                       Lease Report to
                                                                                Mission Need Statement             From and Response To               (GAO) Report No. GAO-02-724R                                                                                                    Congress submitted
                  Tanker Requirements Study (TRS-05)                            for Future Air Refueling           Terrorist Attacks on the                                                                                                                                                                              National Defense Authorization
                                                                                Aircraft approved by Joint         United States Act of 2002          IG Letters to Sen. McCain                                                                                                       IDA Report issued                  Act for FY 2004 signed
                  Boeing Unsolicited Tanker Proposal                            Requirements Oversight             (P.L.107-117) containing           on RFI process & Consultants
                                                                                Committee                          section 8159 authorizing                                                                                                                       GAO Testimony                                          P.L. 108-136 authorizes
                                        Boeing Meeting with the Secretary                                          100 tanker lease                   Babcock & Brown                                                                                             No. GAO-03-938T                                        20 lease/80 buy
                                        of the Air Force for Acquisition                                                                              hired as Leasing                                       Justification for Other
                                        (SAF/AQ) on Aerial Refueling                                               Plan to award contract             Consultants for                                        than Full and Open                                                                            RAND report
                                        System Technology and Development                                          by June 2002                       Air Force                                              Competition                                                                                   issued


  Oct      Jan     Feb       Mar      Apr      May       Jun    Jul      Aug     Sep      Oct     Nov        Dec    Jan      Feb      Mar      Apr      May       Jun      Jul     Aug       Sep      Oct      Nov      Dec       Jan      Feb      Mar         Apr     May    Jun      Jul     Aug      Sep     Oct      Nov     Dec
 2000      2001    2001     2001     2001     2001       2001   2001     2001    2001    2001    2001      2001     2002     2002     2002     2002     2002      2002    2002     2002     2002     2002      2002     2002     2003     2003     2003         2003    2003   2003    2003     2003     2003    2003     2003    2003

                                                                                                                           ++++ RFI ++++-------------------------------------------------------------------------------------------- Negotiations with Boeing      -------------------------------------------------------------------
                                                                                                    ========================= ORD Development =========================
Air Mobility Command                         Air Force petitions                                                                                                                                                                                                                                       SASC Hearing              Deputy Secretary of
begins to draft                              Congress for authority to                          Air Force Program Tiger                                                                             Operational Requirements                                                                                                     Defense requests IG review
Mission Need Statement                       accelerate the Analysis                            Team established                                                                                    Document (ORD) approved                                            OSD Air Force Boeing            GAO Testimony             of KC-767A Acquisition,
for Future Air Refueling                     of Alternatives                                                                                  Air Force begins negotiations                                                                                            Tanker Lease Decision           No. GAO-03-1143T          pausing contract actions
Aircraft                                                                                        Office of the Secretary of                    with Boeing on Tanker Contract                                                                                           Memo
                                                                                                Defense (OSD) Leasing                                                                                                                                                                                  OMB Testimony before
                                                                                                Panel established                                                                                                                                                                                      Senate Armed Services Committee


                                                                                                                           Air Force Management strongly                                                                                                                                       IG Assessment of DoD
                                                                                Boeing Meeting with                        encouraged examination of the                                                                                                                                       Leasing Actions, Report
                                                                                Air Force Management                       use of FAR part 12 acquisition                                                                                                                                      No. D2003-129
                                                                                on revised KC-767 proposal
                                                                                                                           Request For Information (RFI)                                                                                                                                       Congressional Budget Office
                                                                                September 11 Attack                        Process (Feb-Mar 02)                                                                                                                                                Assessment issued


                                                                                                                                                                                                                                                                                               Air Force Engineering
                                                                                                                                                                                                                                                                                               Team brought on board


                                                                                    85
Appendix D. Statutory Provisions
   There are several Public Laws addressing issues involved in leasing and procuring
   Boeing KC-767A Tanker aircraft. The laws include the Department of Defense
   Appropriations Act for FY 2002; the National Defense Authorization Act for
   FY 2004; Section 2464 of title 10, United States Code; and the Defense
   Authorization Act for FY 1999.

   Department of Defense Appropriations Act for FY 2002. Section 8159 of the
   Department of Defense Appropriations Act for FY 2002 uses permissive language
   that authorizes the Air Force to establish a multiyear lease pilot program for the
   general purpose Boeing 767 aircraft in a commercial configuration and requires
   the Air Force to lease the aircraft as an operating lease.
              Sec 8159. MULTIYEAR AIRCRAFT LEASE PILOT PROGRAM.
              (a) The Secretary of the Air Force may, from funds provided in this Act
              or any future appropriations Act, establish and make payments on a
              multiyear pilot program for leasing general purpose Boeing 767 aircraft
              and Boeing 737 aircraft in commercial configuration.

              (b) Sections 2401 and 2401a of title 10, United States Code, shall not
              apply to any aircraft authorized by this section.

              (c) Under the aircraft lease Pilot Program authorized by this section:

                            (1) The Secretary may include terms and conditions in
              lease agreements that are customary in aircraft leases by a non-
              Government lessor to a non-Government lessee, but only those that are
              not inconsistent with any of the terms and conditions mandated herein.

                            (2) The term of any individual lease agreement into which
              the Secretary enters under this section shall not exceed 10 years,
              inclusive of any options to renew or extend the initial lease term.

                           (3) The Secretary may provide for special payments in a
              lessor if the Secretary terminates or cancels the lease prior to the
              expiration of its term. Such special payments shall not exceed an
              amount equal to the value of 1 year’s lease payment under the lease.

                            (4) Subchapter IV of chapter 15 of title 31, United States
              Code shall apply to the lease transactions under this section, except that
              the limitation in section 1553(b)(2) shall not apply.

                            (5) The Secretary shall lease aircraft under terms and
              conditions consistent with this section and consistent with the criteria
              for an operating lease as defined in OMB Circular A-11, as in effect at
              the time of the lease.

                         (6) Lease arrangements authorized by this section may not
              commence until:



                                            87
                                           (A) The Secretary submits a report to
           the congressional defense committees outlining the plans for
           implementing the Pilot Program. The report shall describe the terms
           and conditions of proposed contracts and describe the expected savings,
           if any, comparing total costs, including operation, support, acquisition,
           and financing, of the lease, including modification, with the outright
           purchase of the aircraft as modified.

                                           (B) A period of not less than 30
           calendar days has elapsed after submitting the report.

                          (7) Not later than 1 year after the date on which the first
           aircraft is delivered under this Pilot Program, and yearly thereafter on
           the anniversary of the first delivery, the Secretary shall submit a report
           to the congressional defense committees describing the status of the
           Pilot Program. The Report will be based on at lease 6 months of
           experience in operating the Pilot Program.

                        (8) The Air Force shall accept delivery of the aircraft in a
           general purpose configuration.

                        (9) At the conclusion of the lease term, each aircraft
           obtained under that lease may be returned to the contractor in the same
           configuration in which the aircraft was delivered.

                         (10) The present value of the total payments over the
           duration of each lease entered into under this authority shall not exceed
           90 percent of the fair market value of the aircraft obtained under that
           lease.

           (d) No lease entered into under this authority shall provide for-

                        (1) the modification of the general purpose aircraft from
           the commercial configuration, unless and until separate authority for
           such conversion is enacted and only to the extent budget authority is
           provided in advance in appropriations Acts for that purpose; or

                        (2) the purchase of the aircraft by, or the transfer of
           ownership to, the Air Force.

           (e) The authority granted to the Secretary of the Air Force by this
           section is separate from and in addition to, and shall not be construed to
           impair or otherwise affect, the authority of the Secretary to procure
           transportation or enter into leases under a provision of law other than
           this section.

           (f) The authority provided under this section may be used to lease not
           more than a total of 100 Boeing 767 aircraft and 4 Boeing 737 aircraft
           for the purposes specified herein.

National Defense Authorization Act for FY 2004. Section 135 of the National
Defense Authorization Act for FY 2004 limits the number of tanker aircraft that
the Air Force can lease to 20 and authorizes procurement of up to 80 aircraft. In
addition, Section 135 of the National Defense Authorization Act for FY 2004
                                         88
requires that the Secretary of Defense perform a study of long-term aircraft
maintenance and requirements.
           Sec. 135. PROCUREMENT OF TANKER AIRCRAFT.
           (a) LEASED AIRCRAFT – The Secretary of the Air Force may lease
           no more than 20 tanker aircraft under the multiyear aircraft lease pilot
           program referred to in subsection (d).
           (b) MULTIYEAR PROCUREMENT AUTHORITY – (1) Beginning
           with the fiscal year 2004 program year, the Secretary of the Air Force
           may, in accordance with section 2306b of title 10, United States Code,
           enter into a multiyear contract for the purchase of tanker aircraft
           necessary to meet the requirements of the Air Force for which leasing
           of tanker aircraft is provided for under the multiyear aircraft lease pilot
           program but for which the number of tanker aircraft leased under the
           authority of subsection (a) is insufficient.
                        (2) The total number of tanker aircraft purchased through
           a multiyear contract under this subsection may not exceed 80.
                          (3) Notwithstanding subsection (k) of section 2306b of
           title 10, United States Code, a contract under this subsection may be for
           any period not in excess of 10 program years.
                         (4) A multiyear contract under this subsection may be
           initiated or continued for any fiscal year for which sufficient funds are
           available to pay the costs of such contract for that fiscal year, without
           regard to whether funds are available to pay the costs of such contract
           for any subsequent fiscal year. Such contract shall provide, however,
           that performance under the contract during the subsequent year or years
           of the contract is contingent upon the appropriation of funds and shall
           also provide for a cancellation payment to be made to the contractor if
           such appropriations are not made.
           (c)    STUDY      OF     LONG-TERM         TANKER         AIRCRAFT
           MAINTENANCE AND TRAINING REQUIREMENTS-(1)- The
           Secretary of Defense shall carry out a study to identify alternative
           means for meeting the long-term requirements of the Air Force for—
                                         (A) the maintenance of tanker aircraft
           leased under the multiyear aircraft lease pilot program or purchased
           under subsection (b); and
                                          (B) training in the operation of tanker
           aircraft leased under the multiyear aircraft lease pilot program or
           purchased under subsection (b).
                        (2) Not later than April 1, 2004, the Secretary of Defense
           shall submit a report on the results of the study to the congressional
           defense committees.
           (d) MULTIYEAR AIRCRAFT LEASE PILOT PROGRAM
           DEFINED- In this section, the term ‘multiyear aircraft lease pilot
           program’ means the aerial refueling aircraft program authorized under
           section 8159 of the Department of Defense Appropriations Act, 2002
           (division A of Public Law 107-117; 115 Stat. 2284).



                                          89
           (e) SENSE OF CONGRESS- It is the sense of Congress that, in
           budgeting for a program to acquire new tanker aircraft for the
           Air Force, the President should ensure that sufficient budgetary
           resources are provided to the Department of Defense to fully execute
           the program and to further ensure that all other critical defense
           programs are fully and properly funded.

Section 2464 of title 10, United States Code. Section 2464 of title 10, United
States Code identifies the need for core logistics capabilities and separate
requirements for commercial items.
           Sec. 2464. – Core logistics capabilities

           (a) Necessity for Core Logistics Capabilities. –

           (1) It is essential for the national defense that the Department of
           Defense maintain a core logistics capability that is Government-owned
           and Government-operated (including Government personnel and
           Government-owned and Government-operated equipment and
           facilities) to ensure a ready and controlled source of technical
           competence and resources necessary to ensure effective and timely
           response to a mobilization, national defense contingency situations, and
           other emergency requirements.

           (2) The Secretary of Defense shall identify the core logistics
           capabilities described in paragraph (1) and the workload required to
           maintain those capabilities.

           (3) The core logistics capabilities identified under paragraphs (1) and
           (2) shall include those capabilities that are necessary to maintain and
           repair the weapon systems and other military equipment (including
           mission-essential weapon systems or materiel not later than four years
           after achieving initial operational capability, but excluding systems and
           equipment under special access programs, nuclear aircraft carriers, and
           commercial items described in paragraph (5)) that are identified by the
           Secretary, in consultation with the Chairman of the Joint Chiefs of
           Staff, as necessary to enable the armed forces to fulfill the strategic and
           contingency plans prepared by the Chairman of the Joint Chiefs of Staff
           under section 153(a) of this title.

           (4) The Secretary of Defense shall require the performance of core
           logistics workloads necessary to maintain the core logistics capabilities
           identified under paragraphs (1), (2), and (3) at Government-owned,
           Government-operated facilities of the Department of Defense
           (including Government-owned, Government-operated facilities of a
           military department) and shall assign such facilities sufficient workload
           to ensure cost efficiency and technical competence in peacetime while
           preserving the surge capacity and reconstitution capabilities necessary
           to support fully the strategic and contingency plans referred to in
           paragraph (3).

           (5) The commercial items covered by paragraph (3) are commercial
           items that have been sold or leased in substantial quantities to the
           general public and are purchased without modification in the same

                                          90
form that they are sold in the commercial marketplace, or with minor
modifications to meet Federal Government requirements.

(b) Limitation on Contracting. –

(1) Except as provided in paragraph (2), performance of workload
needed to maintain a logistics capability identified by the Secretary
under subsection (a)(2) may not be contracted for performance by non-
Government personnel under the procedures and requirements of
Office of Management and Budget Circular A-76 or any successor
administrative regulation or policy (hereinafter in this section referred
to as OMB Circular A-76).

(2) The Secretary of Defense may waive paragraph (1) in the case of
any such logistics capability and provide that performance of the
workload needed to maintain that capability shall be considered for
conversion to contractor performance in accordance with OMB
Circular A-76. Any such waiver shall be made under regulations
prescribed by the Secretary and shall be based on a determination by
the Secretary that Government performance of the workload is no
longer required for national defense reasons. Such regulations shall
include criteria for determining whether Government performance of
any such workload is no longer required for national defense reasons.

(3) (A) A waiver under paragraph (2) may not take effect until the
expiration of the first period of 30 days of continuous session of
Congress that begins on or after the date on which the Secretary
submits a report on the waiver to the Committee on Armed Services
and the Committee on Appropriations of the Senate and the Committee
on Armed Services and the Committee on Appropriations of the House
of Representatives.

             (B) For the purposes of subparagraph (A) –

                             (i) continuity of session is broken only
by an adjournment of Congress sine die; and

                               (ii) the days on which either House is
not in session because of an adjournment of more than three days to a
day certain are excluded in the computation of any period of time in
which Congress is in continuous session.

(c) Notification of Determinations Regarding Certain Commercial
Items.-

The first time that a weapon system or other item of military equipment
described in subsection (a)(3) is determined to be a commercial item
for the purposes of the exception contained in that subsection, the
Secretary of Defense shall submit to Congress a notification of the
determination, together with the justification for the determination.
The justification for the determination shall include, at a minimum, the
following:



                              91
                       (1) The estimated percentage of commonality of parts of
          the version of the item that is sold or leased in the commercial
          marketplace and the Government’s version of the item.

                       (2) The value of any unique support and test equipment
          and tools that are necessary to support the military requirements if the
          item were maintained by the Government.

               (3) A comparison of the estimated life cycle logistics support costs
          that would be incurred by the Government if the item were maintained
          by the private sector with the estimated life cycle logistics support costs
          that would be incurred by the Government if the item were maintained
          by the Government.
Defense Authorization Act for FY 1999. Section 346 of the Defense
Authorization Act for FY 1999 as amended, placed conditions on expansion of
functions performed under prime vendor contracts for depot-level maintenance
and repair.
          (a) Conditions on Expanded Use.--The Secretary of Defense or the
          Secretary of a military Department, as the case may be, may not enter
          into a prime vendor contract for depot-level maintenance and repair of
          a weapon system or other military equipment described in section 2464
          (a) (3) of title 10, United States Code, before the end of the 30-day
          period beginning on the date on which the Secretary submits to
          Congress a report, specific to the proposed contract, that

              (1) describes the competitive procedures to be used to award the
          prime vendor contract;

              (2) contains an analysis of costs and benefits that demonstrates that
          use of the prime vendor contract will result in savings to the
          Government over the life of the contract;

              (3) contains an analysis of the extent to which the contract
          conforms to the requirements of section 2466 of title 10, United States
          Code; and

               (4) describes the measures taken to ensure that the contract does
          not violate the core logistics policies, requirements, and restrictions set
          forth in section 2464 of that title.

          (b) Definitions.--In this section:

                       (1) The term “prime vendor contract” means an
          innovative contract that gives a defense contractor the responsibility to
          manage, store, and distribute inventory, manage and provide services,
          or manage and perform research, on behalf of the Department of
          Defense on a frequent, regular basis, for users within the Department
          on request. The term includes contracts commonly referred to as prime
          vendor support contracts, flexible sustainment contracts, and direct
          vendor delivery contracts.




                                          92
           (2) The term “depot-level maintenance and repair” has the
meaning given such term in section 2460 of title 10, United States
Code.

(c) Relationship to Other Laws.--Nothing in this section shall be
construed to exempt a prime vendor contract from the requirements of
section 2461 of title 10, United States Code, or any other provision of
chapter 146 of such title.




                             93
___________________________________________________________________



Appendix E. Defense Contract Audit Agency
            Comments on Limitation of
            Earnings Clause




            *
             Contractor proprietary and negotiation sensitive data omitted.




                                     95
___________________________________________________________________




            *
             Contractor proprietary and negotiation sensitive data omitted.




                                     96
___________________________________________________________________




            *
             Contractor proprietary and negotiation sensitive data omitted.




                                     97
___________________________________________________________________




            *
             Contractor proprietary and negotiation sensitive data omitted.




                                     98
___________________________________________________________________




            *
             Contractor proprietary and negotiation sensitive data omitted.




                                     99
___________________________________________________________________




            *
             Contractor proprietary and negotiation sensitive data omitted.




                                    100
___________________________________________________________________




            *
             Contractor proprietary and negotiation sensitive data omitted.




                                    101
___________________________________________________________________




            *
             Contractor proprietary and negotiation sensitive data omitted.




                                    102
Appendix F. Air Force Comments on Issue A and
            Audit Response
            Our detailed response to comments from the Assistant Secretary of the Air Force
            (Acquisition) on statements in the draft report follow. The complete text of those
            comments is in the Management Comments section of this report.

Assistant Secretary of the Air Force (Acquisition) Comments
  on Issue A: Commercial Item Procurement Strategy for the
  Boeing KC-767A Tanker Program.
            Commercial Item Procurement Strategy. The Assistant Secretary of the Air
            Force (Acquisition) commented that the KC-767 team was instructed to
            “investigate” a commercial item approach.

            Audit Response. We used the term “examine” versus “investigate” because the
            Defense Criminal Investigative Service component of the Office of the Inspector
            General performs civil and criminal investigations and the term “investigate” is
            more appropriate for their type of work.

            Commercial Item Determination. The Assistant Secretary commented that the
            Comptroller General decisions (Premier Engineering & Manufacturing, Inc., and
            Canberra Industries, Inc.) were relevant because they related to minor
            modifications of commercial items and the fact that the procurements that were
            the subject of the decisions were competitive is irrelevant.

            The Assistant Secretary further stated that the dollar values of modifications are
            only guideposts and not conclusive evidence that a modification is minor.
            Further, based on the correct comparison, the modification is about **.* percent
            of the value of the final product. Also, the modification does not significantly
            alter the aircraft’s nongovernmental function “still to transport people and cargo
            by air – tanker aircraft often transport people, and aircraft fuel is cargo.”

            Audit Response. The decisions were not relevant because they did not relate to a
            minor modification of a type not customarily available in the commercial
            marketplace as defined by statute and the FAR, but the decisions related to
            specific commerciality provisions defined in the RFP. The modifications made to
            develop the Boeing KC-767A Tanker aircraft are of a type not customarily
            available in the commercial marketplace, are not minor, are for unique military-
            specific purposes, and cost **.* percent of the base commercial aircraft price. We
            agree with the Air Force that if you exclude development costs, the modifications
            represent about ** percent of the base commercial aircraft price and that if you
            compare the total aircraft price to the modification and development costs, the
            costs represent **.* percent of the value of the final product. We do not agree
            with the interpretation by the Assistant Secretary that the basic function of the
            commercially configured aircraft of transporting people and cargo has not


*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       103
changed because “aircraft fuel is cargo” and therefore, the Boeing KC-767A
Tanker aircraft is basically a cargo aircraft. The Boeing KC-767A Tanker aircraft
is an aerial refueling tanker, not a cargo plane.

Military Tanker not a Commercial Item. The Assistant Secretary stated that
minor modification related to of a type “not” customarily available in the
commercial marketplace. Also, the Under Secretary of Defense for Acquisition,
Technology, and Logistics January 5, 2001, guidance on “of a type” related to
items customarily used for nongovernmental purposes while the case for the
Boeing KC-767A Tanker aircraft was based on minor modification of a type not
customarily available. Further, the Air Force could not find language in FASA or
the legislative history that indicated commercial items should be non-
developmental.

Audit Response. We agree that minor modifications relate to of a type not
customarily available in the commercial marketplace and revised the report
accordingly. However, the “of a type” guidance is applicable because the intent
of the guidance was to address problems with commercial item determinations
relating to classifying sole-source military unique items as commercial items
because they related to or were of a type to other commercial items. Senate
Report 103-258, May 11, 1994, (page 2,604) clearly shows the intent for
commercial items to be non-developmental and are supposed to be proven
products neither of which is the case for the Boeing KC-767A Tanker aircraft.
           The purchase of proven products such as commercial and non-
           developmental items can eliminate the need for research and
           development, minimize acquisition lead time, and reduce the need for
           detailed design specifications or expensive product testing.

Commercial Market Does Not Exist. The Assistant Secretary made various
assertions about a commercial market and stated that Boeing expects the freighter
fleet to increase to 3,078 aircraft by 2021.

Audit Response. There is no valid case for a commercial tanker market when
there currently are no Boeing KC-767A or GTTA tanker aircraft in operation
making it impossible to establish prices by the forces of supply and demand. The
existence of an after market for freighter aircraft has no bearing on whether the
Boeing KC-767A Tanker aircraft is a commercial item and the ability to
effectively use the commercial marketplace to establish prices.

Fixed-Price Contract Type. The Assistant Secretary commented that it has
given the contractor maximum incentive to perform by using a fixed-price
contract type and limiting the contractors earning to 15 percent. Also, a cost
contract would place more risk on the Government and that under a fixed-price
incentive contract, the contractor could earn more than 15 percent profit.

Audit Response. The proposed fixed-price contract for the Boeing KC-767A
Tanker aircraft does not provide the contractor maximum incentive to perform
when the profit of the contractor is limited to 15 percent of costs. The contractor
does have incentive to increase costs to obtain the maximum 15 percent profit.
Although a cost type or fixed-price incentive contract does place additional risk
on the Government, we believe the risk is warranted based on the degree of

                                      104
            uncertainty with the pricing for the Boeing KC-767A Tanker aircraft and the need
            to establish an effective baseline for future procurements. We have no objection
            to the contractor earning more than 15 percent profit on a fixed-price incentive
            contract when the Government shares in the savings.

            Truth in Negotiations Act. The Assistant Secretary believes there is adequate
            justification for the use of a FAR Part 12 commercial strategy wherein TINA does
            not apply.

            Audit Response. The Boeing KC-767A Tanker aircraft is a sole-source military
            unique item. Over the past 7 years we have written numerous audit reports
            addressing problems obtaining fair and reasonable prices for sole-source military-
            unique items that were inappropriately classified as commercial items.

            Commercial Item Exception from Cost or Pricing Data. The Assistant
            Secretary stated that the clause in question is a solicitation provision and the
            contracting officer has latitude for its use when building the pricing case to
            support the reasonableness of offered prices. Also, obtaining commercial sales
            information is impossible because of bilateral confidentiality agreements, where
            both the manufacturer and the customer agree not to reveal the terms or price of a
            given sale.

            Audit Response. The Assistant Secretary is disregarding guidance specifically
            relating to obtaining cost or pricing data for procurements of commercial items
            that are not based on adequate competition. The guidance from the Director,
            Defense Procurement and Acquisition Policy to support the requirement of the
            Federal Acquisition Streamlining Act of 1994 states that a contracting officer may
            require cost or pricing data if unable to obtain information on prices at which the
            same item or similar items have been sold in the commercial market that is
            adequate for evaluating through price analysis the reasonableness of the price of
            the contract. The guidance from the Director reminds contracting professionals to
            include the applicable FAR clause in solicitations for sole-source commercial
            items. As to the confidentiality agreements, Boeing would need to provide cost or
            pricing data unless its customers agree to reveal the terms and price of the
            commercial sales.

            Reliability of Baseline Price. The Assistant Secretary commented that the Air
            Force negotiating team complied with FAR requirements by using various price
            analysis techniques and obtaining information from sources other than Boeing.
            Further, the negotiating team requested sales data from Boeing but the contractor
            refused to provide the data. The negotiating team believes their analysis is
            sufficient to support price reasonableness and that risk is mitigated by the Return
            on Sales provision, which provides a rebate for any earnings greater than
            15 percent.

            Audit Response. The use of price analysis techniques was insufficient to
            effectively price 100 “green aircraft” valued at $*.* billion. Further, the
            negotiating team should have required Boeing to provide cost or pricing data
            unless Boeing provided the requested sales data. Although the negotiating team
            did perform a significant amount of analysis, the analysis of mostly opaque data
*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       105
(as also described by IDA) provides only limited insight into the accuracy of the
aircraft prices. The use of the Return on Sales clause raises questions about how
much confidence the negotiating team had in its analysis used to calculate a fair
and reasonable price for the aircraft.

Aircraft Engine Prices. The Assistant Secretary commented that while airlines
do buy engines from the engine original equipment manufacturer and furnish
them to the aircraft original equipment manufacturer, the Air Force was unsure of
“how such a superficial review” could result in a recommendation and believes
the approach is problematic for various reasons. Also, that while a review of the
Boeing website reveals there are three Defense contractors that manufacture
engines for the family of 767 aircraft, only two provide engines for the 767-200
model.

Audit Response. Unfortunately, the Assistant Secretary never considered the
commercial approach of procuring the engines competitively and negotiating
prices directly with the engine manufacturers. Further, the KC-10A contractor
logistics support program office, Oklahoma City, Air Logistics Center, has
successfully implemented a competitive contractor logistics support concept for
59 KC-10A tanker aircraft that uses over $500 million of Government property,
including aircraft engines. The concerns of the Assistant Secretary relating to
Government property should be able to be resolved with a contractor logistics
support strategy similar to the KC-10A program. The benefits of KC-10A
contractor logistics support strategy is further discussed in our audit response to
the Air Force in the integrated fleet support section. The use of the Boeing
website to determine the exact number of potential competitors for a
commercial-type acquisition of aircraft engines may not be advisable.

Non-Recurring Pricing. The Assistant Secretary commented that a fixed-price
contracting approach was reasonable given the medium risk of the program
integration effort. Also, the non-recurring price utilizes pricing methodology
consistent with the “inherent softness” of any non-recurring engineering effort in
a fixed-price acquisition.

Audit Response. The “inherent softness” of development effort “usually
estimated by engineers based upon their expertise with the system” is exactly why
the effort should not be fixed price because these estimates will never enable the
Air Force to establish an accurate baseline price for this tanker procurement or
any future sole-source procurement of tanker aircraft from Boeing.

Negotiation of Modification Price and Justification. The Assistant Secretary
commented that the modification pricing was consistent with FAR Part 15.404(b)
following the prescribed hierarchy in FAR Part 15.402. Also, the basis of the
IDA findings was never shared with the Air Force or to the knowledge of the Air
Force substantiated by any independent review.

Audit Response. The FAR clauses referenced by the Assistant Secretary relate to
price analysis techniques that rely primarily on information available within the
Government and not obtained from the contractor. The absence of an existing and
robust commercial market for tanker aircraft and the magnitude of the program


                                     106
            and potential future procurements dictate the need for cost analysis to establish an
            accurate baseline price. We agree it is difficult to support any justification of
            modification costs, including the work done by IDA, that primarily use price
            analysis techniques and exclude the use of cost analysis of cost or pricing data
            supplied by the contractor, which is why we are recommending that a fixed-price
            contract not be used.

            Statutory Authority for Modification. The Assistant Secretary used various
            means and assumptions to interpret congressional guidance on leasing general
            purpose Boeing 767 aircraft in commercial configuration to be synonymous with
            Boeing KC-767A Tanker aircraft.

            Audit Response. We do not agree that Congress intended for Boeing 767
            general-purpose aircraft in commercial configuration to be synonymous with
            Boeing KC-767A Tanker aircraft.

            Government Audit Rights. The Assistant Secretary commented that the use of
            the limitation of earnings clause and independent auditors opinion was designed
            to protect the financial interests of the United States.

            Audit Response. Neither the contract clause nor the scope of work performed by
            the Boeing independent auditor provide sufficient transparency to adequately
            protect the fiduciary interests of the Government.

            DCAA Audit Responsibility. The Assistant Secretary commented that since the
            Air Force negotiating team primarily relied on price analysis with no requirement
            for detailed cost proposal audits, limited assistance from DCAA appears
            appropriate.

            Audit Response. The price analysis techniques used by the Air Force were
            inadequate to determine price reasonableness for the tanker program. As
            previously stated, the commercial item acquisition strategy was not appropriate
            and the Air Force negotiating team should have obtained cost or pricing data and
            used DCAA.

            Questionable Cost Items and Concealed Contract Costs. The Assistant
            Secretary maintains that the clauses including questionable items were written
            properly; however, the language could still be discussed with the contractor to
            make sure the intent was perfectly clear. Also, the term “concealed” is
            misleading because customers do not ordinarily audit contractor books in
            commercial acquisitions.

            Audit Response. If the “Limitation of Earnings” clause remains in the contract,
            sections of the clause need to be clarified relating to realized benefits, rebates, and
            the $*** million fixed amount for investment in developing the Boeing 767
            GTTA aircraft that has previously been expensed by Boeing. Large commercial
            firms that possess buying power in a market have long collected cost and pricing
            data. These large commercial organizations possess power over subordinate
            suppliers to regularly audit their records and gain visibility into supplier
            operations to control the price at which it buys.
*
    Contractor proprietary and negotiation sensitive data omitted.
                                                       107
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
General Counsel of the Department of Defense
Director, Operational Test and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
  Program Director, KC-767A System Program Office
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Force Operational Test and Evaluation Center
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency

Non-Defense Federal Organizations
Department of Justice
Office of Management and Budget




                                          108
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Commerce, Science, and Transportation
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                       109
___________________________________________________________________



Acting Under Secretary of Defense for
Acquisition, Technology, and Logistics
Comments




                             111
___________________________________________________________________



Department of the Air Force Comments




                             112
___________________________________________________________________




                             113
___________________________________________________________________




                             114
___________________________________________________________________




                             115
___________________________________________________________________




                             116
___________________________________________________________________




                             117
___________________________________________________________________




                             118
___________________________________________________________________




                             119
                ___________________________________________________________________




Final Report
 Reference




Page 8




               ___________________________
               *Contractor proprietary and negotiation sensitive data omitted.
                                                           120
___________________________________________________________________




                             121
___________________________________________________________________




                             122
___________________________________________________________________




                             123
___________________________________________________________________




                             124
 ___________________________________________________________________




___________________________
*Contractor proprietary and negotiation sensitive data omitted.
                                            125
___________________________________________________________________




                             126
 ___________________________________________________________________




___________________________
*Contractor proprietary and negotiation sensitive data omitted.
                                            127
___________________________________________________________________




                             128
 ___________________________________________________________________




___________________________
*Contractor proprietary and negotiation sensitive data omitted.
                                            129
 ___________________________________________________________________




___________________________
*Contractor proprietary and negotiation sensitive data omitted.
                                            130
___________________________________________________________________




                             131
___________________________________________________________________




                             132
___________________________________________________________________




                             133
 ___________________________________________________________________




___________________________
*Contractor proprietary and negotiation sensitive data omitted.
                                            134
___________________________________________________________________




                             135
 ___________________________________________________________________




___________________________
*Contractor proprietary and negotiation sensitive data omitted.
                                            136
___________________________________________________________________




                             137
                ___________________________________________________________________




Final Report
 Reference




Page 44




               ___________________________
               *Contractor proprietary and negotiation sensitive data omitted.
                                                           138
 ___________________________________________________________________




                                                                       Final Report
                                                                        Reference




                                                                       Page 49-50




___________________________
*Contractor proprietary and negotiation sensitive data omitted.
                                            139
               ___________________________________________________________________




Final Report
 Reference




Page 50




Page 50




                                            140
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 50-51




                             141
___________________________________________________________________




                             142
___________________________________________________________________




                             143
___________________________________________________________________




                             144
 ___________________________________________________________________




___________________________
*Contractor proprietary and negotiation sensitive data omitted.
                                            145
___________________________________________________________________




                             146
___________________________________________________________________




                             147
___________________________________________________________________




                             148
___________________________________________________________________




                             149
                ___________________________________________________________________




Final Report
 Reference




Page vi




Page vi


Revised
Page vi

Page 2



Page 9


Page 20

Revised
Page 49




               ___________________________
               *Contractor proprietary and negotiation sensitive data omitted.
                                                           150
 ___________________________________________________________________




                                                                       Final Report
                                                                        Reference




                                                                       Page 54
                                                                       and
                                                                       Page 57
                                                                       Page 61,
                                                                       Page 62,
                                                                       Page 64




                                                                       Page 62




                                                                       Page 72




                                                                       Page 72




___________________________
*Contractor proprietary and negotiation sensitive data omitted.
                                            151
               ___________________________________________________________________




Final Report
 Reference




Page 72




Page 72




Page 72-73



Page 73



Page 73


Page 73




                                            152
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Revised
                                                                      Page 73

                                                                      Page 73



                                                                      Page 73




                                                                      Page 73




                             153
                ___________________________________________________________________




Final Report
 Reference




Page 74




Page 74




Revised
Page 81




               ___________________________
               *Cotnractor proprietary and negotiation sensitive data omitted.
                                                           154
 ___________________________________________________________________




                                                                       Final Report
                                                                        Reference




                                                                       Page 85




___________________________
*Cotnractor proprietary and negotiation sensitive data omitted.
                                            155
___________________________________________________________________



General Counsel Department of Defense
Comments




                             156
Team Members
The Acquisition Management Directorate and the Contract Management
Directorate, Office of the Deputy Inspector General for Auditing of the
Department of Defense prepared this report. Personnel of the Office of the
Inspector General of the Department of Defense who contributed to the report are
listed below.

David K. Steensma
Mary L. Ugone
Henry F. Kleinknecht
John E. Meling
Kenneth H. Stavenjord
Jamie A. Bobbio
Peter C. Johnson
Susan J. Lippolis
Chandra P. Sankhla
Jack D. Snider
David M. Wyte
Suellen R. Brittingham
Joseph P. Bucsko
Alice F. Carey
Wei K. Chang
Shelly M. Farber
Ernest G. Fine
Neal J. Gause
Cindy L. Gladden
Stephanie N. Lay
Anh H. Tran
Major Shurman L. Vines, USA
Leann A. Alwood
Michael T. Burger
Tracey E. Dismukes
Nicole M. Ellis
Benita Holliman
Kevin W. Klein
Tomasa Pack
Shannon L. Strang
Monica L. Noell
